No.
IN THE

Supreme Court of the United States

————
CITY OF CLEVELAND, KAREN LAMENDOLA,
ADMINISTRATOR FOR ESTATE OF FRANK
STOIKER, AND J. REID YODER, ADMINISTRATOR
FOR ESTATES OF EUGENE TERPAY, JAMES
T. FARMER, AND JOHN STAIMPEL,
Petitioners,
v.
RICKY JACKSON, KWAME AJAMU,
FKA RONNIE BRIDGEMAN, AND
WILEY EDWARD BRIDGEMAN,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
————
APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
————
BARBARA A. LANGHENRY
WILLIAM M. MENZALORA
CITY OF CLEVELAND LAW
DEPARTMENT
601 Lakeside Ave. E.,
Room 106
Cleveland, OH 44114
(216) 664-2800
Counsel for
City of Cleveland

JEFFREY A. LAMKEN
Counsel of Record
JAMES A. BARTA
MOLOLAMKEN LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com
Counsel for Petitioners

(Additional Counsel Listed on Inside Cover)
:,/621(3(635,17,1*&2,1&±  ±:$6+,1*721'&

STEPHEN WILLIAM FUNK
ROETZEL & ANDRESS, LPA
222 S. Main St., Suite 400
Akron, OH 44308
(330) 376-2700

JENNIFER E. FISCHELL
MOLOLAMKEN LLP
430 Park Ave., 6th Floor
New York, NY 10022
(212) 607-8160

Counsel for Karen
Lamendola and
J. Reid Yoder, Estate
Administrators

BENJAMIN M. WOODRING
MOLOLAMKEN LLP
300 N. LaSalle St., Suite 5350
Chicago, IL 60654
(312) 450-6700
Counsel for Petitioners



TABLE OF CONTENTS
Page
Appendix A – Court of Appeals Amended
Opinion (May 20, 2019) ........................................ 1a
Appendix B – Court of Appeals Opinion
(March 28, 2019) ................................................... 74a
Appendix C – District Court Opinion and Order
(No. 1:15-cv-989) (October 20, 2015) .................. 148a
Appendix D – District Court Opinion and Order
(No. 1:15-cv-989) (June 30, 2016) ....................... 154a
Appendix E – District Court Opinion and Order
(No. 1:15-cv-989) (July 20, 2016) ....................... 164a
Appendix F – District Court Opinion and Order
(No. 1:15-cv-989) (November 10, 2016) ............ 169a
Appendix G – District Court Opinion and Order
(No. 1:15-cv-989) (August 4, 2017) .................... 179a
Appendix H – District Court Opinion and Order
(No. 1:15-cv-989) (August 4, 2017) .................... 191a
Appendix I – District Court Opinion and Order
(No. 1:15-cv-989) (August 4, 2017) .................... 198a
Appendix J – District Court Order (No. 1:15-cv1320) (July 5, 2016) .............................................. 213a
Appendix K – District Court Opinion and Order
(No. 1:15-cv-1320) (July 15, 2016) ..................... 215a
Appendix L – District Court Opinion and Order
(No. 1:15-cv-1320) (July 27, 2016) ..................... 225a
Appendix M – District Court Order (No. 1:15cv-1320) (December 8, 2016) .............................. 230a
Appendix N – District Court Opinion and Order
(No. 1:15-cv-1320) (August 4, 2017) .................. 232a
Appendix O – District Court Opinion and Order
(No. 1:15-cv-1320) (August 4, 2017) .................. 245a
(i)

ii
TABLE OF CONTENTS—Continued
Page
Appendix P – District Court Opinion and Order
(No. 1:15-cv-1320) (August 4, 2017) ..................
Appendix Q – Court of Appeals Order Denying
Rehearing (June 27, 2019) .................................
Appendix R – Relevant Statutory Provisions .........
Appendix S – General Police Order 19-73
(ECF # 101-7) (No. 1:15-cv-989)
(January 27, 2017) ...............................................

252a
267a
269a

271a

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
————
NOS. 17-3840/3843
————
RICKY JACKSON (17-3840); KWAME AJAMU, FKA
RONNIE BRIDGEMAN, AND WILEY EDWARD
BRIDGEMAN (17-3843),
Plaintiffs-Appellants,
v.
CITY OF CLEVELAND; JEROLD ENGLEHART;
KAREN LAMENDOLA, GUARDIAN AD LITEM ON BEHALF OF FRANK STOIKER; ESTATE OF EUGENE
TERPAY, ADMINISTRATOR; ESTATE OF JAMES T.
FARMER, ADMINISTRATOR; ESTATE OF JOHN
STAIMPEL, ADMINISTRATOR,
Defendants-Appellees.
————
Appeal from the United States District Court for the
Northern District of Ohio at Cleveland,
No. 1:15-cv-00989
Christopher A. Boyko, District Judge.
————
AMENDED OPINION
————
Argued: June 14, 2018
Decided and Filed: May 20, 2019
————
(1a)

2a
ARGUED: ELIZABETH C. WANG, Loevy & Loevy, Boulder, Colorado, for all Appellants.
WILLIAM M. MENZALORA, City of Cleveland, Cleveland,
Ohio, for Appellee City of Cleveland.
STEPHEN W. FUNK, Roetzel & Andress, LPA, Akron,
Ohio, for Appellees Karen Lamendola and the Estates of
Eugene Terpay, James Farmer, and John Staimpel.
ON BRIEF: ELIZABETH C. WANG, Loevy & Loevy,
Boulder, Colorado, for Appellant Ricky Jackson.
TERRY H. GILBERT, JACQUELINE C. GREENE, Friedman
& Gilbert, Cleveland, Ohio, David E. Mills, The Mills
Law Office LLC, Cleveland, Ohio, for Appellants Kwame
Ajamu and Wiley Bridgeman.
WILLIAM M. MENZALORA, City of Cleveland, Cleveland,
Ohio, for Appellee City of Cleveland.
STEPHEN W. FUNK, Roetzel & Andress, LPA, Akron,
Ohio, for Appellees Karen Lamendola and the Estates of
Eugene Terpay, James Farmer, and John Staimpel.
————
Before
Rogers, Circuit Judge
Bush, Circuit Judge*
BUSH, J., delivered the opinion of the court in which
ROGERS, J., joined.

*

The Honorable Damon J. Keith, United States Circuit Judge, was a
member of the original panel but passed away on April 28, 2019 and
did not participate in the panel’s decision on rehearing.

3a
JOHN K. BUSH, Circuit Judge:
Appellants Ricky Jackson, Wiley Bridgeman, and
Kwame Ajamu served a long time in prison for a crime
they did not commit. For Jackson, it was thirty-nine
years; for Bridgeman, thirty-seven years; for Ajamu,
twenty-five years. They each spent close to two and a
half of those years on death row.
These men cannot get back any of the time they lost or
erase the things they experienced. The best they can
hope for is a remedy of damages under 42 U.S.C. § 1983
and Ohio law. This appeal concerns whether their complaints state sufficient facts for certain claims not to be
dismissed and whether the men have presented enough
evidence for other claims to overcome summary judgment.
In 1975, Jackson, Ajamu, and Bridgeman were convicted of murder. Their convictions were based largely
on the purportedly eyewitness testimony of Edward
Vernon, who then was thirteen years old. In 2014, nearly
forty years later, Vernon recanted, disclosing that police
officers had coerced him into testifying falsely. Vernon’s
recantation led to the overturning of appellants’ convictions.
The exonerated men filed suit in the Northern District
of Ohio, alleging § 1983 claims based on alleged violations
of their constitutional rights by the officers and the City
of Cleveland (“Cleveland”), along with state-law claims
for indemnification against Cleveland. This appeal requires us to untangle a knot of legal issues surrounding
the district court’s grant of appellees’ motions for judgment on the pleadings and for summary judgment and its
denial of appellants’ motions to amend their complaints.
We AFFIRM the district court’s grant of summary
judgment as to the § 1983 claims based on conspiracy, but

4a
we REVERSE and REMAND the district court’s (1)
judgment on the pleadings as to the indemnification
claims; (2) denial of appellants’ motions to amend their
complaints to substitute the administrator of the estates
of the deceased officers as a party in their place; (3)
summary judgment as to § 1983 claims arising from violations of Brady v. Maryland, 373 U.S. 83 (1963), fabrication of evidence, and malicious prosecution; and (4) summary judgment as to claims against Cleveland based on
Monell v. Department of Social Services, 436 U.S. 658
(1978).
I. BACKGROUND
A. Factual Background
As befits this stage of the litigation, we recite the relevant facts in the light most favorable to the plaintiffs,
who are appellants here. See Ciminillo v. Streicher, 434
F.3d 461, 464 (6th Cir. 2006).
In 1973, the Cleveland Division of Police promulgated
General Police Order 19-73 (“GPO 19-73”), entitled
“PRETRIAL DISCOVERY RIGHTS OF DEFENSE
ATTORNEYS AND COURTS IN CRIMINAL CASES.” R. 101-7, PageID 1630.1 GPO 19-73 provided that
“defense counsel may be entitled” to several types of evidence, including “[e]vidence favorable to the defendant.”
Id. But it also included a section entitled “EXCEPTION
TO THE FOREGOING,” which contained the following
provision: “The foregoing does not authorize the discovery or the inspection of . . . statements made by witnesses
or prospective witnesses to state agents.” Id. The Manual of Rules used by the Division of Police (the “Manual”)
1

All record citations are citations to the record in No. 17-3840 (Jackson’s suit) unless otherwise indicated. Citations to the record in
Ajamu and Bridgeman’s suit will be prefaced by “No. 17-3843.”

5a
did not otherwise instruct officers in handling potentially
exculpatory information and did not mention Brady, as
the Manual’s last update had occurred before Brady was
decided.
As described later in this opinion, some testimony
suggests that Cleveland police officers may have received
no formal training in their Brady obligations, and may
not have known that Brady imposed any obligations upon
them.
Deposition testimony also reveals that, regardless of
how officers understood their obligations under Brady,
violations of those obligations were common. Although it
was generally understood that anything in a detective’s
file that was pertinent to a case “should go to the prosecutor,” it was up to individual officers whether they followed this policy, and they did not always do so. R. 103,
PageID 3794. The general practice at the time, followed
in “every case,” was for detectives to provide prosecutors
with only “arrest reports, witness forms and written
statements taken by the Statement Unit,” and “photos,”
while omitting to turn over other evidence, including potentially exculpatory evidence, unless it was specifically
requested by the prosecutor. Id. at PageID 3672-75.
Deposition testimony describes this as a “practice,”
which “happened more than it should,” of “detectives not
[turning] over all the evidence to prosecutors.” R. 104,
PageID 3970.
Some detectives took a more proactive role by “manipulating the evidence” before giving it to prosecutors.
Id. at PageID 3967. This was done, one officer testified,
“because winning the case was what it was all about. It
wasn’t about what was fair, it wasn’t about what was honest, it was about winning.” Id. at PageID 3967-68.

6a
Against this backdrop of evidence of incomplete Brady
knowledge and frequent Brady violations, the record
tells the following story.
On May 19, 1975, Edward Vernon, then twelve years
old, was riding the bus home from school when he heard
two gunshots. Being twelve, Vernon exited the bus at the
earliest opportunity and ran to where he believed the
shots originated. Coming upon the scene, Vernon found
a gunshot victim, but nothing to indicate who was responsible for the shooting. After police had secured the
area, Vernon left and met up with a friend who told
Vernon that the perpetrators were Ricky Jackson,
Kwame Ajamu (then known as Ronnie Bridgeman), and
Wiley Bridgeman (collectively, “Plaintiffs”). Vernon, a
civic-minded youth, returned to the crime scene and told
an officer that he knew who had committed the shooting,
whereupon the officer recorded Vernon’s contact information.
The next day, Detectives Eugene Terpay and James
Farmer went to Vernon’s house and requested that he go
down to the station to give a statement. As Vernon later
recounted, when his mother asked to accompany him to
the station, the officers “told her, no, he’ll be all right,
he’ll be all right.” R. 99-1, PageID 1183. At the station,
Vernon told Terpay and Farmer that Plaintiffs had committed the shooting and gave their descriptions, which he
was able to do because he knew them from the neighborhood. The following day, Terpay and Farmer again went
to Vernon’s house and asked him for Plaintiffs’ addresses.
Detective John Staimpel, along with his partner Frank
Stoiker, was working the case with Terpay and Farmer.
On May 25, Staimpel and another detective, whose name
Vernon cannot remember, picked Vernon up at his house

7a
to bring him to a line-up. Vernon’s mother again asked to
accompany him, and Vernon recalls the detectives saying,
“[N]o, he’ll be all right. We’ll bring him back after the
lineup.” Id. at PageID 1189. The detectives brought
Vernon to the line-up and, as he recollects, asked him if
“I see anybody that I recognize up there,” which Vernon
interpreted as asking whether he had seen anyone in the
line-up commit the shooting. Id. at PageID 1190.
Vernon replied that he had not. Ricky Jackson and Wiley
Bridgeman, who had been arrested earlier in the day,
were in that line-up. From Vernon’s point of view, he had
been forthright up until this point: he had honestly told
the detectives that (he thought) he knew who had committed the crime, but he had never said that he had actually witnessed the crime, and so when he was asked at
the line-up whether he saw anyone whom he had seen
commit the crime, he said no.
The two detectives then brought Vernon into a room,
whereupon Staimpel accused Vernon of lying, threatened
to send his parents to jail for perjury, banged on a table,
and used racial pejoratives to describe Vernon. (Vernon
and Plaintiffs are African-Americans.) After Vernon began to cry, Staimpel said, “[W]e’ll fix it,” and the detectives left the room. Id. at PageID 1191. When the detectives returned, they gave Vernon a piece of paper, explained to him that it said he had failed to identify Jackson and Bridgeman in the line-up because he had been
scared of their retaliating, and told Vernon to sign it,
which Vernon did.
Stoiker signed a police report dated May 25, 1975,
which described Stoiker and Staimpel’s picking Vernon
up and taking him to the line-up, Vernon’s failing to identify Jackson and Bridgeman, and Vernon’s explaining

8a
this failure as due to his being “very afraid” of Plaintiffs.
R. 114-19, PageID 5113.
The day after the line-up, Terpay and Farmer again
spoke with Vernon. The detectives brought Vernon to
the station, where he told them that he had not witnessed
the crime and that he had never said that he had witnessed the crime. Terpay was wroth, yelling at Vernon
and accusing him of having lied when he had gone to the
line-up and said “that this is not them.” R. 99-1, PageID
1194. Terpay threatened to send Vernon’s parents to jail
for perjury, and Vernon agreed to testify that he had
seen Plaintiffs commit the crime.
A police report dated May 28, 1975 indicates that
Stoiker and Staimpel “[c]onsulted with [the prosecutor]
who issued papers charging [Plaintiffs] with [homicide].”
R. 114-28, PageID 5321.
Prior to Jackson’s trial, Terpay coached Vernon regarding his testimony and afterwards reviewed the trial
transcript with Vernon to ensure that his testimony in
the trials of Bridgeman and Ajamu was consistent.
Plaintiffs were convicted at separate trials. They were
sentenced to death, but their sentences were later reduced to life imprisonment.
For nearly forty years, Vernon struggled with the
knowledge that his testimony had put Plaintiffs in prison.
He later testified, “Through out [sic] the years this case
has . . . be[en] heavy on my emotion, my everything.” R.
99-2, PageID 1234. “I wanted to come forward throughout the years, but I was scared, scared to come forward
and tell the truth . . . with this battle in my mind, battle in
my spirit, battle in my heart . . . . I’m battling with this
. . . pretty much all my life . . .” R. 99-1, PageID 1203.
The years did not lessen the turmoil in Vernon’s mind.

9a
One day in 2013, Vernon finally disburdened his conscience. He was lying in a hospital bed, stricken with hypertension and kidney failure, when his pastor visited
and told him that Innocence Project attorneys were seeking to exonerate Plaintiffs. Vernon testified:
So, after he stated that and I said, okay, well, you
know what—I got up out of the bed and I just broke
down and I cried on his shoulder and I said, well,
I’m ready to tell the truth, I’m ready to come forward and tell the truth that Ricky Jackson did not
commit the crime that he went to prison for.
Id. at PageID 1203-04.
Vernon formally recanted his testimony against each
of the three Plaintiffs in November 2014. After the recantation, the prosecutor for Cuyahoga County, where
Cleveland is located, admitted that there was “no evidence tying any of the three convicted defendants to the
crimes” and that “[t]hey have been victims of a terrible
injustice.” R. 116, PageID 6302-03.
B. Procedural History
On May 19, 2015, Jackson filed suit against Terpay,
Farmer, Stoiker,2 Staimpel, and Cleveland (collectively,
“Defendants”), as well as others,3 alleging a multitude of
state and federal claims. Bridgeman and Ajamu filed suit
against the same defendants on July 2, 2015. On October
2

Karen Lamendola is acting as guardian ad litem on behalf of Stoiker
and is therefore the named defendant-appellee representing Stoiker’s
interests. We continue to refer to Stoiker as a Defendant for narrative convenience.
3
Plaintiffs also named another former officer, Jerold Englehart, in
their notices of appeal. However, in their appellate briefs, they expressly abandon their claims against Englehart. Jackson Br. at 33;
Ajamu & Bridgeman Br. at 6.

10a
1, 2015, Cleveland moved for judgment on the pleadings,
under Federal Rule of Civil Procedure 12(c), as to the
state-law claims in both complaints. The district court
granted both motions.
In November 2015, Jackson, and Bridgeman and
Ajamu in their parallel lawsuit, all moved for leave to file
amended complaints substituting the administrator of the
estates of the deceased Defendants (the “administrator”)
for those Defendants. (J. Reid Yoder is the administrator of all of the estates.) The district court denied those
motions as futile, reasoning that a § 1983 claim brought in
Ohio does not survive a defendant’s death.
On January 27, 2017, Stoiker (the only living individual
Defendant) moved for summary judgment in both lawsuits, arguing that he was not involved in any unconstitutional activity and that, even if he was, he is protected by
qualified immunity. On the same date, Cleveland also
moved for summary judgment as to the Monell claims,
arguing that Plaintiffs had failed to provide evidence sufficient for a jury to find Cleveland liable. The district
court granted both motions for summary judgment.
II. DISCUSSION
We review de novo a judgment on the pleadings under
Federal Rule of Civil Procedure 12(c), applying the same
standard we apply to review the grant of a motion to
dismiss under Rule 12(b)(6). Warrior Sports, Inc. v.
Nat’l Collegiate Athletic Ass’n, 623 F.3d 281, 284 (6th
Cir. 2010). We therefore “construe the complaint in the
light most favorable to the plaintiff and accept all allegations as true” to determine whether the “complaint . . .
contain[s] sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.” Doe v.
Miami Univ., 882 F.3d 579, 588 (6th Cir. 2018) (citations
and internal quotation marks omitted).

11a
Federal Rule of Civil Procedure 15(a)(2) provides that
leave to amend “should [be] freely give[n] . . . when justice so requires.” “We review a district court’s order
denying a Rule 15(a) motion to amend for an abuse of
discretion.” Rose v. Hartford Underwriters Ins. Co., 203
F.3d 417, 420 (6th Cir. 2000) (citing Gen. Elec. Co. v. Sargent & Lundy, 916 F.2d 1119, 1130 (6th Cir. 1990)). “A
district court abuses its discretion when it relies on clearly erroneous findings of fact, uses an erroneous legal
standard, or improperly applies the law.” United States
v. Arny, 831 F.3d 725, 730 (6th Cir. 2016) (citation and
internal quotation marks omitted).
“We review a district court’s grant of summary judgment de novo.” Adair v. Charter Cty. of Wayne, 452 F.3d
482, 486 (6th Cir. 2006) (quoting Allen v. Mich. Dep’t of
Corr., 165 F.3d 405, 409 (6th Cir. 1999)). Summary
judgment is appropriate when “no genuine dispute as to
any material fact” exists and the moving party “is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). “A genuine dispute of material fact exists ‘if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.’” Peffer v. Stephens,
880 F.3d 256, 262 (6th Cir. 2018) (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)). At the
summary judgment stage, “the evidence is construed and
all reasonable inferences are drawn in favor of the nonmoving party.” Burgess v. Fischer, 735 F.3d 462, 471
(6th Cir. 2013) (citing Hawkins v. Anheuser-Busch, Inc.,
517 F.3d 321, 332 (6th Cir. 2008)).
Numerous decisions by the district court are now on
appeal: (1) the district court’s dismissal, with prejudice,
of Plaintiffs’ claims against Cleveland for indemnification
under state law; (2) the district court’s denial of Plaintiffs’
motions to substitute the administrator of the deceased

12a
Defendants’ estates as a defendant; (3) the district
court’s grant of summary judgment to Stoiker on the
§ 1983 claims; and (4) the district court’s grant of summary judgment to Cleveland on the Monell claims. We
address each issue in turn.
A. Indemnification Claims
The claims against Cleveland under Ohio Revised
Code § 2744.07(B)4 seek indemnification for damages
based on the alleged torts of the individual Defendants,
who are former employees of Cleveland.
Section
2744.07(B) provides that “a political subdivision shall indemnify and hold harmless an employee” found liable for
that employee’s acts, so long as the employee was “acting
in good faith” and “within the scope of employment.”5
The district court granted Cleveland’s motions for judgment on the pleadings, reasoning that § 2744.07(B) provides only a tortfeasor employee, and not a tort victim,
with the right to bring a claim of indemnification against
the tortfeasor’s employer.
Plaintiffs argue that the district court erred in dismissing their indemnification claims with prejudice be-

4

At the time of the district court’s opinion, the relevant language
appeared in § 2744.07(A)(2), so the district court cited that provision.
See Jackson v. City of Cleveland, No. 1:15CV989, 2016 WL 3952117,
at *2 (N.D. Ohio July 20, 2016). Because the Ohio Revised Code has
since been amended, we cite the subsection in which the relevant
language now appears, subsection (B). The language has not been
changed in any way that would affect the district court’s, or our,
analysis.
5
Cleveland’s brief does not address whether the defendant officers
were acting “in good faith” and within the scope of their employment
for purposes of the indemnification claims, and the district court did
not consider those issues. We will not address unargued principles
of Ohio law on which the district court did not rule.

13a
cause the claims were not yet ripe and unripe claims, if
they are to be dismissed, should only be dismissed without prejudice.
Generally, a claim may not be adjudicated on its merits unless it is ripe. See Nat’l Rifle Ass’n of Am. v. Magaw, 132 F.3d 272, 284 (6th Cir. 1997). A claim is unripe
when it “is anchored in future events that may not occur
as anticipated, or at all.” Id. (citing Pac. Gas & Elec. Co.
v. State Energy Res. Conservation & Dev. Comm’n, 461
U.S. 190, 200-01 (1983); Dames & Moore v. Regan, 453
U.S. 654, 689 (1981)). This prohibition comes both from
the case or controversy requirement of Article III and
from prudential considerations. See Brown v. Ferro
Corp., 763 F.2d 798, 801 (6th Cir. 1985) (noting that a
ripeness analysis includes a discretionary determination
beyond the Article III standing considerations).
The ripeness doctrine exists “to prevent the courts,
through premature adjudication, from entangling themselves in abstract disagreements.” Thomas v. Union
Carbide Agric. Prods. Co., 473 U.S. 568, 580 (1985) (quoting Abbott Labs. v. Gardner, 387 U.S. 136, 148 (1967)).
Application of this doctrine “requires that the court exercise its discretion to determine if judicial resolution
would be desirable under all of the circumstances.”
Brown, 763 F.2d at 801. Of primary importance is
“whether the issues tendered are appropriate for judicial
resolution,” and, if so, the degree of “hardship to the parties if judicial relief is denied” before the claim is allowed
to ripen further. Young v. Klutznick, 652 F.2d 617, 625
(6th Cir. 1981) (quoting Toilet Goods Ass’n v. Gardner,
387 U.S. 158, 162 (1967)).
Indemnification claims are frequently brought while
unripe, depending as they often do on the favorable adjudication of underlying tort claims. Because of this, as a

14a
general matter, a claim for indemnification for damages
that may be awarded on an underlying tort claim should
not be adjudicated on the merits until the underlying
claim is adjudicated. See, e.g., Safety Nat’l Cas. Corp. v.
Am. Special Risk Ins. Co., 99 F. App’x 41, 43 (6th Cir.
2004) (finding unripe a claim of indemnification for
fraudulent conveyance because, among other reasons, the
underlying claim for fraudulent conveyance had not yet
been adjudicated); see also Armstrong v. Ala. Power Co.,
667 F.2d 1385, 1388-89 (11th Cir. 1982) (affirming dismissal of indemnity suits as premature prior to entry of
judgment in underlying lawsuit); A/S J. Ludwig
Mowinckles Rederi v. Tidewater Constr. Co., 559 F.2d
928, 932 (4th Cir. 1977) (holding indemnification issue not
ripe prior to adjudication of underlying claims).
Because the ripeness doctrine is discretionary, courts
sometimes apply an exception for indemnification claims
that have no possibility of success, regardless of the merits of the underlying claims. See, e.g., Cincinnati Ins. Co.
v. Grand Pointe, LLC, No. 1:05-CV-161, 2006 WL
1806014, at *9 (E.D. Tenn. June 29, 2006) (collecting cases in support of the proposition that “a court may grant
summary judgment on the issue of indemnification if it
can determine the allegations in the complaint could under no circumstances lead to a result which would trigger
the duty to indemnify” (citations and internal quotation
marks omitted)).
The Sixth Circuit has not analyzed the propriety of
this exception, and we need not do so now because, even
if it is permissible for district courts to adjudicate indemnification claims with no possibility of success prior to the
adjudication of underlying tort claims, this is not such a
case.

15a
If Plaintiffs’ indemnification claims have no possibility
of success, that would be because Ohio law provides that
only the tortfeasor employees, and not the parties injured by them, may bring claims under Ohio Revised
Code § 2744.07(B). The district court did an admirable
job analyzing Ohio court cases before holding that Ohio
law does so provide. See Jackson v. City of Cleveland,
No. 1:15CV989, 2016 WL 3952117, at *2 (N.D. Ohio July
20, 2016). But the only cases available to the district
court were from the Ohio courts of appeal, as the Ohio
Supreme Court had yet to opine on the issue.
The judgments of Ohio appellate courts not being
binding on the Ohio Supreme Court, there remains a possibility that Plaintiffs’ indemnification claims could succeed: Plaintiffs would need to win their underlying tort
action and, while that action was pending, the Ohio Supreme Court would need to adopt their interpretation of
Ohio Revised Code § 2744.07(B). Although the latter
eventuality may seem remote, it is far from impossible
and, as it happens, the Ohio Supreme Court has accepted
an appeal addressing this very issue. See Ayers v. Cleveland, 106 N.E.3d 65 (Ohio 2018) (Table).
Because it is not impossible for Plaintiffs to prevail on
their indemnification claims, those claims are not ripe for
adjudication. As discussed above, in evaluating whether
a claim is ripe, courts should determine (1) whether a
matter is “appropriate for judicial resolution” and (2)
whether the parties would undergo hardship “if judicial
relief is denied” on their claim before it ripens further.
Young, 652 F.2d at 625. Neither factor supports finding
the indemnification claims are ripe here.
First, interpreting Ohio Revised Code § 2744.07(B) is
best avoided unless necessary. Federal courts generally
avoid interpreting unsettled state law because state

16a
“courts are in the better position to apply and interpret”
their own jurisdiction’s law. Travelers Indem. Co. v.
Bowling Green Prof ’ l Assocs., PLC, 495 F.3d 266, 272
(6th Cir. 2007). As the Supreme Court said in Railroad
Commission of Texas v. Pullman Co., 312 U.S. 496
(1941) and repeated in Louisiana Power & Light Co. v.
City of Thibodaux, 360 U.S. 25 (1959):
Had we or they (the lower court judges) no choice
in the matter but to decide what is the law of the
state, we should hesitate long before rejecting their
forecast of [state] law. But no matter how seasoned
the judgment of the district court may be, it cannot
escape being a forecast rather than a determination.
Thibodaux, 360 U.S. at 27 (quoting Pullman, 312 U.S. at
499). Where, as here, adjudicating an issue of state law
is unnecessary because the litigation is in its early stages, and state law is unsettled, the inappropriateness of
deciding the issue in federal court weighs in favor of finding the claim unripe for adjudication in federal court.
Second, that no harm will befall Cleveland if “judicial
relief is denied” for the time being also weighs in favor of
finding the indemnification claims unripe. Young, 652
F.2d at 625. The district court’s grant of Cleveland’s motions for judgment on the pleadings as to Plaintiffs’ indemnification claims did not release Cleveland from the
litigation, as Plaintiffs still have Monell claims outstanding against Cleveland. The only effect that denying
Cleveland’s motions, or holding them in abeyance, would
have on the litigation would be to delay adjudication of
the indemnification claims until a later stage in the litigation. At that point, the district court may be able to avoid
interpreting Ohio Revised Code § 2744.07(B), because the
Ohio Supreme Court may already have done so. The dis-

17a
trict court should interpret Ohio law only if the Ohio Supreme Court has not done so by the time the underlying
§ 1983 claims have been properly adjudicated on remand,
and if those claims are found to have merit.
The ripeness doctrine therefore requires that the indemnification claims not be adjudicated on the merits at
the pleading stage, given the unsettled condition of state
law. Because “a dismissal with prejudice operates as a
rejection of the plaintiff ’ s claims on the merits,” the district court erred in dismissing those claims with prejudice. Mich. Surgery Inv., LLC v. Arman, 627 F.3d 572,
575 (6th Cir. 2010) (quoting United States v. One Tract of
Real Prop., 95 F.3d 422, 425-26 (6th Cir. 1996)).
B. Plaintiffs’ Motions to Substitute
Plaintiffs sought leave to amend their complaints to
substitute the administrator of the estates of Defendants
Terpay, Staimpel, and Farmer as a party in place of
those Defendants, as they are now deceased. District
courts “should freely give leave” to amend a complaint
pre-trial “when justice so requires.” Fed. R. Civ. P.
15(a)(2). One permissible reason to deny leave is the “futility of [the] amendment[s].” Foman v. Davis, 371 U.S.
178, 182 (1962).
The district court denied leave to amend, reasoning
that § 1983 claims brought in Ohio do not survive the
death of the tortfeasor, and, therefore, the requested
amendments would be futile.6 On appeal, Defendants argue that the district court was correct, but also suggest
an alternative ground for affirming—that Plaintiffs did

6

The district court also denied leave to amend on futility grounds
with regard to Plaintiffs’ state-law claims against the deceased Defendants, but Plaintiffs do not appeal that ruling.

18a
not timely present their claims to the estates of the deceased Defendants. We address the survival and timeliness arguments in turn.
1. Survival of § 1983 Claims
Defendants first argue that the denial of Plaintiffs’
motions to amend should be affirmed because § 1983
claims do not survive the death of the tortfeasor in Ohio.
42 U.S.C. § 1988(a) provides that in actions to protect
civil rights, where “the laws of the United States . . . are
deficient in the provisions necessary to furnish suitable
remedies and punish offenses against law, the common
law, as modified and changed by the constitution and
statutes of the State wherein the court having jurisdiction of such civil or criminal cause is held,” shall be applied, “so far as the same is not inconsistent with the
Constitution and laws of the United States.”
The Supreme Court has interpreted this statutory
language as requiring a three-step process for determining which jurisdiction’s procedural law, such as provisions concerning statutes of limitations or the survival of
claims, is used in § 1983 suits. See Robertson v.
Wegmann, 436 U.S. 584, 588-89 (1978). First, a district
court must determine whether there is an applicable federal law that covers the issue, and, if there is, apply it.
See id. Second, if there is no relevant federal law, then
the district court must determine what the appropriate
rule is in the state where the district court sits. See id. at
588. Third, the district court must determine whether
the law of that state is “inconsistent with the Constitution
and laws of the United States;” if there is no inconsistency, the state law is used, but if inconsistency exists, a federal common-law rule is used. Id. at 588-89.

19a
Because “[n]o federal statute or rule says anything about
the survivorship of § 1983 claims,” Crabbs v. Scott, 880
F.3d 292, 294 (6th Cir. 2018), we turn to the relevant
Ohio law, which provides:
In addition to the causes of action which survive
at common law, causes of action for mesne profits,
or injuries to the person or property, or for deceit
or fraud, also shall survive; and such actions may be
brought notwithstanding the death of the person
entitled or liable thereto.
Ohio Rev. Code § 2305.21. Plaintiffs argued before the
district court that their claims fall within “injuries to the
person,” while Defendants argued that “injuries to the
person” encompasses only physical injuries, and not the
violation of rights alleged in this case. The district court
agreed with Defendants, citing a district court case holding that under Ohio law, § 1983 claims similar to those
brought by Plaintiffs did not involve “injuries to the person.” Tinney v. Richland Cty., No. 1:14 CV 703, 2014
WL 6896256, at *2 (N.D. Ohio Dec. 8, 2014), aff ’ d, 678 F.
App’x 362 (6th Cir. 2017).
On appeal, Defendants again argue that Plaintiffs’
claims for malicious prosecution, fabrication of evidence,
and Brady violations cannot be characterized as “injuries
to the person” that survive the death of the tortfeasor.
Therefore, they argue that Tinney controls the result
here. Defendants also argue that State ex rel. Crow v.
Weygandt, 162 N.E.2d 845, 848 (Ohio 1959), an Ohio Supreme Court case holding that state-law claims for malicious prosecution do not survive the death of a party,
means that Plaintiffs’ § 1983 claims for malicious prosecution also do not survive. The Weygandt court based its
holding on Ohio Revised Code § 2311.21, which provided:

20a
Unless otherwise provided, no action or proceeding pending in any court shall abate by the death of
either or both of the parties thereto, except actions
for libel, slander, malicious prosecution, for a nuisance, or against a judge of a County Court for misconduct in office, which shall abate by the death of
either party.
This provision is still in effect, its language unamended
since the Weygandt decision except for one capitalization
change. See Ohio Rev. Code § 2311.21. Finally, Defendants point to Stein-Sapir v. Birdsell, 673 F.2d 165, 167
(6th Cir. 1982), a Sixth Circuit case recognizing the Weygandt rule.
Neither Defendants’ reliance on Tinney nor their argument based on Weygandt is persuasive. To begin with,
the Sixth Circuit’s unpublished opinion affirming the district court in Tinney is no longer good law. After the district court’s judgment in this case, Tinney was superseded by Crabbs, a published opinion of this circuit that expressly rejected Tinney’s holding and held instead that
all § 1983 claims are subject to the forum state’s survival
rules for personal injury actions, regardless of the specific type of injury underlying the §1983 claim. See Crabbs,
880 F.3d at 296.
It is immaterial that Crabbs addressed an unreasonable search claim under the Fourth and Fourteenth
Amendments, see id. at 293, whereas Plaintiffs’ claims
here are for malicious prosecution, fabrication of evidence, and Brady violations. Crabbs expressly disagreed
with Tinney, which did involve a malicious prosecution
claim. The Tinney plaintiff had sued in Ohio; therefore,
his § 1983 claims were subject to Ohio survival rules just
as Plaintiffs’ claims are here. Noting that the Tinney
court did not apply Ohio’s survival rule for personal inju-

21a
ry actions to a § 1983 malicious prosecution claim, the
Crabbs court announced that it was “part[ing] way with”
Tinney. Crabbs, 880 F.3d at 296. With that language,
Crabbs rejected Tinney’s reasoning pertaining to malicious prosecution claims.
If the explicit rejection of Tinney were not enough to
defeat Defendants’ argument, the Crabbs court’s more
general discussion of its rationale would be. Although
Crabbs involved an unreasonable search claim, the reasoning applied to all § 1983 claims. See 880 F.3d at 296.
In explaining that all § 1983 claims must be classified together for purposes of determining what state procedural
rules apply, the Crabbs court cited Wilson v. Garcia, 471
U.S. 261 (1985), in which the Supreme Court addressed
what state statute of limitations should apply in § 1983
actions. See Crabbs, 880 F.3d at 294-95. (After Wilson
was decided, Congress enacted a federal statute of limitations, codified at 28 U.S.C. § 1658.) Crabbs cited Wilson for three general propositions. “First, the characterization of § 1983 as a cause of action is itself a question of
federal law . . . . Second, all § 1983 claims must be characterized in the same way . . . . Third, § 1983 actions are
best characterized as personal injury actions.” Crabbs,
880 F.3d at 294-95 (second emphasis added) (citing Wilson, 471 U.S. at 269-70, 271-75, 280).
More specifically, the Crabbs court reasoned that all
§ 1983 claims must be treated the same way for survivalof-claims purposes, just as they are for statute-oflimitations purposes. Id. at 295. The court’s language
could not be clearer: “the appropriate level at which to
generalize a § 1983 claim under state law is as a personal
injury action, sounding in tort, and nothing further.”
Id. at 296 (emphasis added). Therefore, although Weygandt and Ohio Revised Code § 2311.21 are still good law,

22a
after Crabbs, they do not establish a separate survival
rule for malicious prosecution claims brought under
§ 1983.
Our court’s 1982 decision in Stein-Sapir is not to the
contrary. Although Defendants argue that that opinion
adopted the Weygandt rule, all Stein-Sapir did was apply
Weygandt—and an Ohio Court of Appeals decision extending Weygandt’s survival rule to libel and slander
claims—to hold that the plaintiff’s state-law defamation
claims did not survive the defendant’s death. See SteinSapir, 673 F.2d at 167. Stein-Sapir involved only state
law and did not mention § 1983.
When hearing a direct appeal, this court evaluates the
merits of the case based on the current law and its interpretation, not the law and its interpretation existing
when the district court entered its judgment. See Chaz
Concrete Co., LLC v. Codell, 545 F.3d 407, 409 (6th Cir.
2008). After Crabbs, all claims brought under § 1983 are
to be treated as actions sounding in personal injury tort.
Because Ohio Revised Code § 2305.21 provides that actions for personal injury survive the death of the tortfeasor, and that statute does not conflict with the laws of the
United States, see Crabbs, 880 F.3d at 295, all § 1983 actions brought in Ohio survive the death of the tortfeasor.
Therefore, through no fault of its own because its ruling predated Crabbs, the district court was in error as to
its grounds for finding that the proposed amendments,
substituting the administrator of the estates of Terpay,
Staimpel, and Farmer for those Defendants, would be
futile.

23a
2. Timeliness of Plaintiffs’ Claims Against the
Estates
Defendants argue that we should affirm the district
court on alternative grounds—namely, that the claims
against the estates were not timely brought. Proper adjudication of this issue requires analysis of both Ohio and
federal law. Defendants argue that Ohio estate law regarding the timely filing of claims defines which entities
have the capacity to be sued, while Plaintiffs argue that
those provisions are merely statutes of limitations. See
Ohio Rev. Code §§ 2117.06, 2117.37.
The points of contention do not end there, however. If
Plaintiffs are correct that Ohio estate law merely establishes statutes of limitations, the parties also dispute
whether those statutes or the general Ohio statute of limitations applies to § 1983 suits. On the other hand, if Defendants are correct that Ohio estate law defines which
entities have the capacity to be sued, the parties also disagree over whether federal courts hearing § 1983 actions
are bound by that definition, as well as whether an exception to that definition, provided in Ohio Revised Code
§ 2117.06(G), applies to the facts of this case.
The district court did not address these issues, instead
relying on its holding that the § 1983 claims did not survive the deaths of the deceased Defendants.7 “It is the
general rule that a federal appellate court does not con-

7

The district court did address timeliness with regard to Plaintiffs’
state-law claims, but Plaintiffs do not challenge that analysis on appeal. The timeliness analysis required for the § 1983 claims differs
from that required for the state-law claims: the former involves a
three-step analysis to determine the applicable law, as described in
section II(B)(1), supra. See Robertson, 436 U.S. at 588-89. The district court did not conduct this analysis.

24a
sider an issue not passed upon below.” Lindsay v. Yates,
498 F.3d 434, 441 (6th Cir. 2007) (quoting United States
v. Henry, 429 F.3d 603, 618 (6th Cir. 2005)). This directive is not jurisdictional, however, and “a departure
from this general rule may be warranted when ‘the issue
is presented with sufficient clarity and completeness and
its resolution will materially advance the progress of this
already protracted litigation.’” Katt v. Dykhouse, 983
F.2d 690, 695 (6th Cir. 1992) (quoting Pinney Dock &
Transp. Co. v. Penn Cent. Corp., 838 F.2d 1445, 1461 (6th
Cir. 1988)).
We will follow the general rule and decline to address
these issues in the first instance. These are thorny issues
of first impression in this circuit, and because the district
court has not yet addressed them, we do not believe they
are “presented with sufficient clarity and completeness”
for our review. Id.
3. Conclusion
The district court erred in finding that Plaintiffs’ proposed amendments would be futile on the ground that
§ 1983 claims brought in Ohio do not survive the deaths of
the tortfeasors, and we decline to address whether Defendants have presented an alternative ground on which
the district court’s denial of Plaintiffs’ motions to amend
could be affirmed. Because applying the wrong legal
standard constitutes reversible error on abuse of discretion review, United States v. Arny, 831 F.3d 725, 730 (6th
Cir. 2016), the district court’s denial of the motions to file
amended complaints is REVERSED and REMANDED
for further proceedings.
C. Stoiker’s Motion for Summary Judgment
We next address the district court’s grant of summary
judgment to Stoiker on the § 1983 claims that Stoiker vio-

25a
lated Plaintiffs’ Fourteenth Amendment right to due process by withholding exculpatory evidence, fabricating evidence, and conspiring to do the same, and Plaintiffs’
Fourth Amendment right to be free of malicious prosecution.
If a police officer violates the Constitution, “42 U.S.C.
§ 1983 provides a civil remedy for those” injured by the
violation. Peffer v. Stephens, 880 F.3d 256, 263 (6th Cir.
2018). But officers sued under the aegis of § 1983 are
protected from liability by the doctrine of qualified immunity “insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a
reasonable person would have known.” Pearson v. Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified immunity
does not apply if (1) “on the plaintiff’s facts,” a constitutional violation occurred, and (2) the alleged violation was
of “clearly established constitutional rights of which a
reasonable person would have known.” Hoover v. Radabaugh, 307 F.3d 460, 465 (6th Cir. 2002) (quoting Dickerson v. McClellan, 101 F.3d 1151, 1158 (6th Cir. 1996)).
The district court found that there was insufficient evidence for a reasonable jury to find that Stoiker had
committed any of the alleged constitutional violations.
We address each of the appealed determinations in turn.
1. Constitutional Violations
a. Withholding Exculpatory Evidence
The Due Process Clause of the Fourteenth Amendment provides that no state may “deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.” U.S. Const. amend. XIV, § 1. In
Brady v. Maryland, 373 U.S. 83, 87 (1963), the Supreme

26a
Court held “that the suppression by the prosecution of
evidence favorable to an accused upon request violates
due process where the evidence is material either to guilt
or to punishment, irrespective of the good faith or bad
faith of the prosecution.” Prosecutors are not the only
state actors bound by Brady, and “police can commit a
constitutional deprivation analogous to that recognized in
Brady by withholding or suppressing exculpatory material.” Moldowan v. City of Warren, 578 F.3d 351, 379
(6th Cir. 2009).
Brady claims have three elements: “[1] the evidence at
issue must be favorable to the accused, either because it
is exculpatory, or because it is impeaching; [2] that evidence must have been suppressed by the State, either
willfully or inadvertently; and [3] prejudice must have
ensued.” Strickler v. Greene, 527 U.S. 263, 281-82 (1999).
The district court granted summary judgment to
Stoiker on the ground that Plaintiffs had failed to present
evidence sufficient for a reasonable jury to find the second element—that Stoiker had suppressed evidence. It
did so for two reasons. First, it held that there was insufficient evidence for a jury to find that Stoiker was involved with the unconstitutional activity at all, noting that
Vernon had never identified Stoiker as one of the officers
involved.8 Second, even if Stoiker were involved, the district court held, there was insufficient evidence that he
was aware of any exculpatory evidence, and an officer
8

“The only evidence that points to Stoiker’s involvement are the signatures on the statement and the report. However, even if those are
Stoiker’s signatures, Plaintiff has not cited to any policy, practice, or
procedure about the meaning or effect of signature [sic]. Therefore,
the Court is left to speculate as to what the signature meant.” Jackson v. City of Cleveland, CASE NO. 1:15CV989, 2017 WL 3380456, at
*3 (N.D. Ohio Aug. 4, 2017).

27a
unaware of exculpatory evidence cannot suppress that
evidence. We disagree with the district court’s reasoning. Given the evidence in the record, although a jury
might ultimately find that Stoiker did not suppress evidence, it would not be unreasonable in finding that he
had.
Consider the following evidence. Vernon testified that
Staimpel and another officer led him into a room after he
failed to identify Plaintiffs at a line-up and coerced him
into signing a false statement about that line-up. Staimpel testified at trial that (1) Stoiker was his partner and
(2) Stoiker was present for the line-up. Based on Staimpel’s testimony, a reasonable jury could infer that (3)
Stoiker was present during the post-line-up interview of
Vernon and (4) Stoiker was present when Vernon signed
his false statement explaining his “fear” of Plaintiffs.
In addition, the record contains a police report, signed
by Stoiker and dated the day that Vernon testified he
was coerced into signing a false statement by two detectives, detailing the version of the line-up and subsequent
interview that Vernon alleges were fabricated. The district court is correct that the report does not say that
Stoiker was involved in that line-up and interview, but a
jury is “allowed to make reasonable inferences from facts
proven in evidence having a reasonable tendency to sustain them,” Galloway v. United States, 319 U.S. 372, 396
(1943), and it is reasonable to infer that a detective who
signs a report was involved in the events recounted in
that report.
Because of this proof, a reasonable jury could find that
Stoiker was present when Vernon was coerced into signing the allegedly false statement, in which he claimed
that he had failed to identify Jackson and Bridgeman in
the line-up because he was afraid of them. And if Stoiker

28a
was present when Vernon was coerced into signing the
allegedly false statement, he knew that Vernon had not
given fear of Plaintiffs as his true reason for not identifying them—in other words, that the statement was false.
That knowledge was exculpatory evidence. See Giglio v.
United States, 405 U.S. 150, 154 (1972) (“When the reliability of a given witness may well be determinative of
guilt or innocence, nondisclosure of evidence affecting
credibility falls within [Brady’s disclosure] rule.” (citation
and internal quotation marks omitted)). If Stoiker was
present, he also knew that detectives coerced Vernon’s
statement, which was a related, but separate, piece of exculpatory evidence. See id.
In addition, a reasonable jury could find that Stoiker
was aware of a third piece of exculpatory evidence.
While his possible awareness of this evidence is less
clear-cut than of the above-mentioned pieces of exculpatory evidence, it would not be unreasonable for a jury to
infer that Stoiker knew Vernon had said he had not seen
Plaintiffs commit the crime with which they were
charged. Whether or not Stoiker was told by other officers that Vernon had not seen Plaintiffs commit the murder, Vernon stated that he was asked at the line-up “if I
could recognize anyone there who was at the shooting”
and that he answered that question in the negative.9 R.
99-3, PageID 1236.
Stoiker and the district court interpret that question
as asking whether Vernon recognized anyone in the lineup. Vernon interpreted it as asking whether he had seen

9

As mentioned in section I(A), supra, Vernon alternatively recalled
that he may have been asked if “I see anybody that I recognize up
there.” R. 99-1, PageID 1190.

29a
anyone in the line-up commit the crime.10 If Vernon’s interpretation is correct, then the officers present—which
a reasonable jury could find included Stoiker—knew that
Vernon was claiming he had not seen Plaintiffs commit
the crime when he answered “No” to their question. A
reasonable jury could find that Vernon, the only witness
to the events who has testified to the contents of that
conversation, interpreted the question correctly.
As Stoiker did not disclose any of this evidence to
prosecutors, a reasonable jury could find that Stoiker
suppressed exculpatory evidence in violation of Brady.
As to the third element of a Brady claim, a reasonable
jury could find that Plaintiffs suffered prejudice as a result of the alleged suppression. To show prejudice, Plaintiffs must show that the allegedly suppressed evidence
was “material;” in other words, “that there is a reasonable probability that the suppressed evidence would have
produced a different verdict.” Strickler, 527 U.S. at 280,
281. Because Vernon’s coerced statement formed the
core of the prosecution’s case, there is a reasonable likelihood that, had the juries in Plaintiffs’ trials known that
that statement was fabricated and coerced, or that
Vernon had orally stated that he had not seen the shooting, the juries would not have convicted Plaintiffs.
Therefore, a reasonable jury could find all three elements
of a Brady claim satisfied.
b. Fabricating Evidence
The Due Process Clause of the Fourteenth Amendment is also “violated when evidence is knowingly fabricated and a reasonable likelihood exists that the false ev-

10

Vernon later explained that he answered in the negative because “I
didn’t seen happen [sic] on May 19, 1975.” R. 99-2, PageID 1233.

30a
idence would have affected the decision of the jury.”
Gregory v. City of Louisville, 444 F.3d 725, 737 (6th Cir.
2006) (citing Stemler v. City of Florence, 126 F.3d 856,
872 (6th Cir. 1997)).
Stoiker presents two arguments for why summary
judgment was appropriate on this issue. First, he contends there was insufficient evidence that he was involved in the fabrication of Vernon’s statement. Second,
Stoiker argues there was insufficient evidence that the
fabricated statement affected the decision of the jury.
The district court agreed with both of Stoiker’s arguments.
Turning to the first argument, a reasonable jury could
find, as discussed in section II(C)(1)(a), supra, that
Stoiker was in the room when Vernon was initially intimidated, left the room with Staimpel, and then returned to
the room with Staimpel, at which point Staimpel coerced
Vernon into signing the statement. This does not necessarily entail that Stoiker participated in the creation of
the false statement, but a reasonable jury could infer that
Stoiker either drafted, or assisted Staimpel in drafting,
the false statement. If Stoiker was actively involved in
the fabrication of the false statement, he knowingly fabricated evidence.
As for the second argument, there is, in fact, sufficient
evidence for a reasonable jury to conclude that the false
statement influenced the juries at Plaintiffs’ trials. True,
as the district court noted, although the statement was
introduced in evidence by the defense at Jackson’s trial,
it was used only by defense counsel in an attempt to impeach Vernon’s testimony and “it is unclear whether the
jury in the Jackson trial had the statement while they

31a
were deliberating.”11 Jackson v. City of Cleveland,
CASE NO. 1:15CV989, 2017 WL 3380456, at *3 (N.D.
Ohio Aug. 4, 2017). Also, the statement was not admitted
in evidence at Bridgeman’s or Ajamu’s trial at all. And it
is fair to conclude, as the district court reasoned, that
“Vernon’s live testimony,” not the statement, “led to the
conviction[s] in all three trials.” Id.
But the relevant question is not whether the fabricated evidence was shown to the jury; it is whether the
statement affected the decision of the jury. For example,
a fabricated search warrant affidavit, used to obtain evidence later shown to the jury, can form the basis for a
fabrication-of-evidence suit. See Webb v. United States,
789 F.3d 647, 670 (6th Cir. 2015). And fabricated evidence that “is used as [the] basis for a criminal charge”
can form the basis for a § 1983 claim because, absent that
evidence, there would have been no jury. Halsey v.
Pfeiffer, 750 F.3d 273, 294 n.19 (3d Cir. 2014).
A reasonable jury in the present case could find that
the fabricated statement impacted the juries’ decisions in
the criminal trials in at least two ways. First, the prosecutor testified that his understanding of Vernon’s statement was based on the copy in the police report and that,
if he had known what had actually happened on the day
of the line-up, he would have declined to prosecute: he
does not, as he put it, “believe in prosecuting innocent
people.” R. 114-29, PageID 5350. The prosecutor did not
speak to Vernon prior to bringing charges, and so the

11

Although the possibility is ultimately unnecessary to our holding
on the fabrication-of-evidence claims, we note that because Vernon’s
statement was introduced in evidence at Jackson’s trial, a reasonable
jury could infer that the jury that convicted Jackson had access to
the statement at some point in their deliberations.

32a
false statement constituted the entire basis for his understanding of Vernon’s involvement. If Staimpel and
Stoiker had not fabricated Vernon’s statement, therefore,
charges would not have been brought, and, of course, a
jury that is never empaneled is a jury that does not return a guilty verdict.
A jury in the present case also could find that the falsified statement caused the criminal verdicts because the
statement coerced Vernon to testify in conformance with
it. Unlike Staimpel’s baseless threat to prosecute Vernon’s parents if Vernon failed to sign a statement saying
that he had seen Plaintiffs commit the crime, Vernon
would have faced a real threat of prosecution for perjury
had his testimony conflicted with his earlier signed
statement. See Osburn v. State, 7 Ohio 212, 214-15 (1835)
(admitting as evidence of perjury a paper signed by the
defendant).
A reasonable jury could therefore find both that
Stoiker participated in the fabrication of Vernon’s statement and that there is a reasonable probability the
statement affected the juries at Plaintiffs’ trials.
c. Conspiracy to Withhold and Fabricate Evidence
To make out a claim for conspiracy to deprive them of
their due process rights, Plaintiffs must show “that (1) a
single plan existed, (2) the conspirators shared a conspiratorial objective to deprive the plaintiffs of their constitutional rights, and (3) an overt act was committed in furtherance of the conspiracy that caused the injury.” Robertson v. Lucas, 753 F.3d 606, 622 (6th Cir. 2014) (internal quotation marks omitted) (quoting Revis v. Meldrum,
489 F.3d 273, 290 (6th Cir. 2007)).

33a
For the reasons discussed above, a reasonable jury
could find that Stoiker and Staimpel planned to draft a
false statement and coerce Vernon into signing that
statement and that they committed an overt act in furtherance of that plan. Further supporting the conspiracy
claim, it would not be unreasonable for a jury to infer
that the detectives planned to withhold the existence of
their acts from prosecutors for the purpose of tipping the
scales against Plaintiffs, as informing prosecutors of the
coercion would have rendered their actions meaningless.
However, the inquiry does not end there. We must also determine whether an individual can be held liable for
conspiracy when the alleged conspiracy was undertaken
by agreement with another individual or individuals employed by the same entity as the defendant.
The intracorporate conspiracy doctrine, which states
that if “all of the defendants are members of the same
collective entity, there are not two separate ‘people’ to
form a conspiracy,” has been applied to 42 U.S.C.
§ 1985(3) by this court. Johnson v. Hills & Dales Gen.
Hosp., 40 F.3d 837, 839-40 (6th Cir. 1994) (quoting Hull v.
Cuyahoga Valley Joint Vocational Sch. Dist. Bd. of
Educ., 926 F.2d 505, 510 (6th Cir. 1991)). Section 1985(3)
creates a cause of action for a conspiracy between two or
more persons to deprive another of the equal protection
of the laws.
We have also held that the doctrine applies in § 1985(2)
suits. Doherty v. Am. Motors Corp., 728 F.2d 334, 339
(6th Cir. 1984). 42 U.S.C. § 1985(2) creates a cause of action for a conspiracy to, among other actions, obstruct
justice or to intimidate a party, witness, or juror.
But this circuit has never decided whether the intracorporate conspiracy doctrine also applies to suits under

34a
§ 1983. See DiLuzio v. Vill. of Yorkville, 796 F.3d 604,
615 (6th Cir. 2015) (noting that “the Sixth Circuit has
never held that the intracorporate conspiracy doctrine
applies to municipal government officials in a § 1983 action and the district courts within our circuit are split on
this question”). To determine whether there is a genuine
dispute of material fact as to whether Stoiker conspired
to violate Plaintiffs’ constitutional rights, therefore, we
must resolve this issue of first impression.
We are aware of only one circuit, the Eleventh, that
has squarely addressed the issue and has determined
that the intracorporate conspiracy doctrine applies in
§ 1983 actions as in § 1985 actions. See Grider v. City of
Auburn, 618 F.3d 1240, 1261 (11th Cir. 2010); Rehberg v.
Paulk, 611 F.3d 828, 854 (11th Cir. 2010). By contrast,
we are aware of no circuit that has applied the doctrine in
§ 1985 actions but declined to apply it in § 1983 actions.12
We join the Eleventh Circuit and hold that the intracorporate conspiracy doctrine applies in § 1983 suits to
bar conspiracy claims where two or more employees of
the same entity are alleged to have been acting within the
scope of their employment when they allegedly conspired
together to deprive the plaintiff of his rights. See Grider,
618 F.3d at 1261-62; cf. Johnson, 40 F.3d at 841 (“[W]hen
employees act outside the course of their employment,
they and the corporation may form a conspiracy under 42
U.S.C. § 1985(3).”). We so hold because the considerations that support applying the intracorporate conspiracy
doctrine in § 1985 suits pertain equally to the § 1983 context, and we discern no logical distinction upon which to
12

Some courts have held that the doctrine does not apply in the civil
rights context at all. See, e.g., Brever v. Rockwell Int’l Corp., 40 F.3d
1119, 1126-27 (10th Cir. 1994).

35a
treat § 1983 conspiracy claims differently. Cf. Hull, 926
F.2d at 509-10 (holding that the intracorporate conspiracy doctrine applies to § 1985(3) claims and stating “that
this court’s opinion in Doherty [which applied the doctrine to § 1985(2)—not § 1985(3)—claims] is dispositive of
this issue”). Recognizing that district courts within this
circuit have split on the question,13 we will explain why
the reasons for applying the doctrine to § 1983 outweigh
the reasons for not doing so.
The intracorporate conspiracy doctrine was recognized in antitrust and civil rights cases based on the legal
notion of corporations as “persons.” See Copperweld
Corp. v. Indep. Tube Corp., 467 U.S. 752, 769 n.15 (1984);
Doherty, 728 F.2d at 339. When employees of a corporation act to further the purposes of that “person,” principles from the law of agency dictate that those employees
be treated not as separate “persons” but as part of the
same “person.” See Hull, 926 F.2d at 509-10; Doherty,
728 F.2d at 339. We have recognized the relevance of
13

Compare Vaduva v. City of Xenia, No. 3:17-cv-41, 2017 WL
4773076, at *3 (S.D. Ohio Oct. 23, 2017) (applying the intracorporate
conspiracy doctrine in § 1983 suit); Gillespie v. City of Battle Creek,
100 F. Supp. 3d 623, 631-32 (W.D. Mich. 2015) (same); Wright v.
Bloomfield Twp., No. 12-15379, 2014 WL 5499278, at *15-16 (E.D.
Mich. Oct. 30, 2014) (same); Pardi v. Cty. of Wayne, No. 12-12063,
2013 WL 1011280, at *14-15 (E.D. Mich. Mar. 14, 2013) (same); Audio Visual Equip. & Supplies, Inc. v. Cty. of Wayne, No. 06-10904,
2007 WL 4180974, at *5-6 (E.D. Mich. Nov. 27, 2007) (same); Adcock
v. City of Memphis, No. 06-2109, 2007 WL 784344, at *4-5 (W.D.
Tenn. Mar. 13, 2007) (same); Turner v. Viviano, No. 04-CV-70509DT, 2005 WL 1678895, at *13 (E.D. Mich. July 15, 2005) (same), with
Tinney v. Richland Cty., No. 1:14 CV 703, 2015 WL 542415, at *12
(N.D. Ohio Feb. 10, 2015) (declining to apply the doctrine in a § 1983
suit), aff’d on other grounds, 678 F. App’x 362 (6th Cir. 2017); Kinkus v. Vill. of Yorkville, 476 F. Supp. 2d 829, 839-40 (S.D. Ohio 2007)
(same), rev’d on other grounds, 289 F. App’x 86 (6th Cir. 2008).

36a
these principles to suits against employees of local government entities as well as against employees of private
corporations. See Hull, 926 F.2d at 509-10. Furthermore, the Supreme Court has made clear that municipalities are “persons” for purposes of § 1983. Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 690 (1978).
Because the intracorporate conspiracy doctrine follows from the legal definition of “person,” which includes
local governments, the doctrine has been developed to
deal with the question whether there are two separate
persons to form a conspiracy. See Hull, 926 F.2d at 510.
The doctrine’s application to other civil rights statutes
has not been premised upon any factor unique to those
statutes. We therefore see no reason to decline to apply
the doctrine to § 1983. Section 1983 creates a cause of
action against any “person” who deprives a plaintiff of his
rights, just like § 1985. Therefore, if § 1985 cannot be violated by an alleged conspiracy where the alleged conspirators are all employees of the same entity acting
within the scope of their employment, neither can § 1983.
Furthermore, we decline to adopt the rationale that
because “[§]1985 is in its essence a conspiracy statute[,]
[while] [§]1983 is not,” the intracorporate conspiracy doctrine applies to the former but not the latter. Kinkus v.
Vill. of Yorkville, 476 F. Supp. 2d 829, 840 (S.D. Ohio
2007). Although § 1983 does not expressly contemplate a
cause of action for conspiracy, once we have recognized
such a cause of action—which we have, see, e.g., DiLuzio,
796 F.3d at 615-16—the question whether a conspiracy
can exist where all alleged conspirators work for the
same entity, and are alleged to have been acting in the
scope of their employment, naturally arises. That inquiry
is identical under § 1983 and § 1985. After all, we did not
apply the intracorporate conspiracy doctrine in § 1985

37a
actions on a theory that the text of that particular statutory provision demanded it. Instead, we simply adopted
a conspiracy jurisprudence that developed outside the
civil rights context. See Hull, 926 F.2d at 509.
Nor do we see any reason to limit application of the
doctrine to cases in which a municipality is alleged to
have conspired with one or more of its employees, in contrast to cases in which two or more employees are alleged
only to have conspired with each other. We have made
clear that “members of the same legal entity cannot conspire with one another as long as their alleged acts were
within the scope of their employment.” Jackson v. City
of Columbus, 194 F.3d 737, 753 (6th Cir. 1999) (emphasis
added) (citing Johnson, 40 F.3d at 840), abrogated on
other grounds by Swierkiewicz v. Sorema N. A., 534 U.S.
506 (2002); accord Hull, 926 F.2d at 510. In Hull, we applied the doctrine to bar the plaintiff’s § 1985(3) claim alleging conspiracy against “a school district superintendent, the executive director of the district, and a school
administrator, all of whom [were] employees or agents of
the Board [of Education].” 926 F.2d at 510. The plaintiff
did not allege that the school board itself was a conspirator, but we noted that “[s]ince all of the defendants
[were] members of the same collective entity, there
[were] not two separate ‘people’ to form a conspiracy.”
Id.
Finally, we have recognized an exception to the intracorporate conspiracy doctrine in § 1985(3) suits where the
defendants were alleged to have been acting outside the
scope of their employment, see Johnson, 40 F.3d at 841,
and we have indicated that the exception would apply
equally in the § 1983 context were we to apply the doctrine in § 1983 suits, see DiLuzio, 796 F.3d at 616. Accordingly, the intracorporate conspiracy doctrine applies

38a
to § 1983, and we assume that adopting the doctrine entails adopting the exception. Cf. DiLuzio, 796 F.3d at
616. But the scope-of-employment exception is unsupported by the record here because Plaintiffs have alleged
that Stoiker and the other individual Defendants were
acting “within the scope of their employment.” R. 86,
PageID 1018; No. 17-3843, R. 53, PageID 707.
Therefore, as a matter of law, Stoiker cannot be liable
for conspiracy in violation of § 1983 where he is alleged to
have conspired with other employees of the same government entity, in the scope of their employment, to violate Plaintiffs’ rights. The district court’s grant of summary judgment to Stoiker on the conspiracy claims is
AFFIRMED.
d. Malicious Prosecution
The Fourth Amendment begins: “The right of the
people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall
not be violated.” U.S. Const. amend. IV. Amongst other
protections, this guarantee affords people the right to be
free of unjust prosecution. See Mills v. Barnard, 869
F.3d 473, 479-80 (6th Cir. 2017).14
14

Although we now analyze constitutional claims for malicious prosecution under the Fourth Amendment, “[p]rior to January 1994 . . .
this circuit analyzed [such claims] as accruing under the Fourteenth
rather than the Fourth Amendment.” Spurlock v. Satterfield, 167
F.3d 995, 1006 (6th Cir. 1999) (citations omitted). We ceased doing
so after the Supreme Court held in Albright v. Oliver, 510 U.S.
266, 271, 273-75 (1994) that malicious-prosecution claims must be
asserted under the Fourth Amendment rather than the Fourteenth. In so holding, the Albright Court recognized “the Fourth
Amendment’s relevance to the deprivations of liberty that go
hand in hand with criminal prosecutions.” Id. at 274 (citing Gerstein v. Pugh, 420 U.S. 103, 114 (1975)).

39a
A malicious-prosecution claim has four elements: “(1)
that a criminal prosecution was initiated against the
plaintiff and that the defendant ma[d]e, influence[d], or
participate[d] in the decision to prosecute; (2) that there
was a lack of probable cause for the criminal prosecution;
(3) that, as a consequence of a legal proceeding, the plaintiff suffered a deprivation of liberty . . . apart from the
initial seizure; and (4) that the criminal proceeding must
have been resolved in the plaintiff’s favor.”15 Id. at 480
(alterations in original) (internal quotation marks omitted) (quoting Sykes v. Anderson, 625 F.3d 294, 308-09
(6th Cir. 2010)).
There being no dispute that Plaintiffs suffered a deprivation of liberty or that the criminal proceedings were
resolved in their favor, we need only address the first two
elements.
i. Stoiker Influenced or Participated in
the Decision to Prosecute
The first element of the malicious-prosecution claim is
met when an officer “could reasonably foresee that his
misconduct would contribute to an independent decision

15

There are two types of § 1983 claims, both sounding in the Fourth
Amendment, that are sometimes referred to as “malicious prosecution” claims. One is for the wrongful institution of legal process
(which is the type most properly called a “malicious prosecution”
claim) and the other is for continued detention without probable
cause. See Cleary v. Cty. of Macomb, 409 F. App’x 890, 898 (6th Cir.
2011); see also Gregory, 444 F.3d at 747-49 (stating that claims for
continued detention without probable cause are not properly considered “malicious prosecution” claims, but recognizing that courts’ use
of terminology varies). Although Plaintiffs are not always clear as to
their intended theory of liability, they and Stoiker state the test for,
and perform their analysis under, the wrongful institution of legal
process theory, and we will do the same.

40a
that results in a deprivation of liberty” and the misconduct actually does so. Sykes, 625 F.3d at 316 (quoting
Higazy v. Templeton, 505 F.3d 161, 177 (2d Cir. 2007)).
This element is met when an officer includes “misstatements and falsehoods in his investigatory materials” and
those materials influence a prosecutor’s decision to bring
charges. Id.
A reasonable jury could find that Stoiker’s misconduct
influenced the decision to bring charges against Plaintiffs
for two reasons. First, Stoiker and Staimpel “[c]onsulted
with [the prosecutor] who issued papers charging [Plaintiffs] with [homicide].” R. 114-28, PageID 5321. Although the record does not indicate the contents of that
consultation, it is reasonable to infer that it involved false
statements about Vernon’s identification of Plaintiffs and
that this consultation influenced the prosecutor’s decision
to bring charges against Plaintiffs.
Second, the prosecutor’s only knowledge of Vernon’s
involvement when deciding to bring charges was based
on Vernon’s statement, a statement that a jury could reasonably find to have been fabricated by Stoiker. And the
prosecutor later testified that had he known about what
actually happened on the day of the line-up—because
Stoiker and Staimpel had told him during conversation,
or because they had drafted an accurate statement for
Vernon, or because Stoiker had drafted an accurate report concerning that day’s events—the prosecutor would
not have proceeded to trial.
ii. There Was a Lack of Probable Cause for
the Criminal Prosecution
When a grand jury returns an indictment against a defendant, this creates a “presumption of probable cause,”
which is rebuttable by showing that:

41a
(1) [A] law-enforcement officer, in the course of setting a prosecution in motion, either knowingly or
recklessly ma[de] false statements (such as in affidavits or investigative reports) or falsifie[d] or fabricate[d] evidence; (2) the false statements and evidence, together with any concomitant misleading
omissions, [we]re material to the ultimate prosecution of the plaintiff; and (3) the false statements, evidence, and omissions d[id] not consist solely of
grand-jury testimony or preparation for that testimony (where preparation has a meaning broad
enough to encompass conspiring to commit perjury
before the grand jury).
King v. Harwood, 852 F.3d 568, 587–88 (6th Cir. 2017).
As discussed above, a reasonable jury could find that
Stoiker falsified or fabricated evidence, and that the evidence did not consist solely of grand-jury testimony or
preparation for that testimony. Stoiker argues, however,
that even if he fabricated Vernon’s false statement, that
statement could not have been material to the grand jury’s determination of probable cause, as it was not presented to the grand jury. Although Vernon may have
testified to the grand jury in conformance with his fabricated statement, Stoiker argues, it was Vernon’s testimony, not the earlier statement, that impacted the grand
jury’s decision.
But a careful reading of King shows that fabricated
evidence can be material to a grand jury’s determination
of probable cause without being presented to the grand
jury. If only evidence presented to a grand jury could be
material to that grand jury’s decision, plaintiffs would be
faced with the Scylla and Charybdis of either admitting
that the fabricated evidence was not material or claiming
that it was material because it was presented to the

42a
grand jury, thereby gracing the fabricator with the absolute immunity afforded to grand jury testimony. See id.
at 589.
Instead, plaintiffs can show that a fabrication was material to the grand jury’s determination by showing “that
the officer has made knowing or reckless false statements or has falsified or fabricated evidence in the course
of setting a prosecution in motion.” Id. Here, according
to the prosecutor, had Stoiker not fabricated Vernon’s
statement, there would have been no grand jury. But
even had there been one, Vernon would not have testified
falsely before it. Stoiker’s fabrication was therefore material to the grand jury’s determination because it “was
material to the ultimate prosecution” of Plaintiffs.16 Id.
at 587-88.
1. Qualified Immunity

The statute now codified at 42 U.S.C. § 1983 was originally passed in 1871. It was not until the second half of
the twentieth century that the Supreme Court recognized that § 1983 admitted of an implicit doctrine, born of
the common law, known as qualified immunity. See
Pierson v. Ray, 386 U.S. 547, 555, 557 (1967). Since then
this doctrine has grown considerably, but not without its
critics. See, e.g., Kisela v. Hughes, 138 S. Ct. 1148, 1162
(2018) (Sotomayor, J., dissenting) (arguing that a “onesided approach to qualified immunity transforms the doctrine into an absolute shield for law enforcement officers,
gutting the deterrent effect of the Fourth Amendment”).
Qualified immunity has outgrown its original justifications, which were “rooted in historical analogy” and
“based on the existence of common-law rules in 1871.”
16

Stoiker does not argue that there was sufficient evidence to find
probable cause to prosecute Plaintiffs absent Vernon’s testimony.

43a
Wyatt v. Cole, 504 U.S. 158, 170 (1992) (Kennedy, J., concurring).
Responding to the many and varied suits brought under § 1983, the judiciary recrafted that limited version of
the doctrine of qualified immunity in an effort to protect
public officials “from undue interference with their duties
and from potentially disabling threats of liability.” Elder
v. Holloway, 510 U.S. 510, 514 (1994) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 806 (1982)). We therefore no
longer “attempt[ ] to locate [the qualified immunity]
standard in the common law as it existed in 1871,” Ziglar
v. Abbasi, 137 S. Ct. 1843, 1871 (2017) (Thomas, J., concurring), but instead attempt to determine whether a defendant, by his conduct, “violate[d] clearly established
statutory or constitutional rights of which a reasonable
person would have known,” Harlow, 457 U.S. at 818.
At issue in this appeal is whether, in 1975, the constitutional rights allegedly violated by Stoiker were sufficiently clearly established to deprive him of the protection of qualified immunity. It is a plaintiff’s burden to
show that the right at issue was clearly established.
Harris v. Klare, 902 F.3d 630, 637 (6th Cir. 2018). Although the Supreme Court “do[es] not require a case directly on point for a right to be clearly established, existing precedent must have placed the statutory or constitutional question beyond debate.” White v. Pauly, 137 S.
Ct. 548, 551 (2017) (alteration in original) (internal quotation marks omitted) (quoting Mullenix v. Luna, 136 S.
Ct. 305, 308 (2015)). In examining “existing precedent,”
“we may rely on decisions of the Supreme Court, decisions of this court and courts within this circuit, and in
limited instances, on decisions of other circuits.” Spurlock v. Satterfield, 167 F.3d 995, 1006 (6th Cir. 1999) (ci-

44a
tations omitted); accord Hearring v. Sliwowski, 712 F.3d
275, 280 (6th Cir. 2013).
The Supreme Court has recognized “that officials can
still be on notice that their conduct violates established
law even in novel factual circumstances” and has “rejected a requirement that previous cases be ‘fundamentally
similar’” to the facts in a case to render qualified immunity inapplicable. Hope v. Pelzer, 536 U.S. 730, 741 (2002)
(quoting United States v. Lanier, 520 U.S. 259, 263
(1997)); see also id. at 753-54 (Thomas, J., dissenting)
(“Certain actions so obviously run afoul of the law that an
assertion of qualified immunity may be overcome even
though court decisions have yet to address materially
similar conduct.” (internal quotation marks omitted)).
And we have noted that “‘[g]eneral statements of the law’
are capable of giving clear and fair warning to officers
even where ‘the very action in question has [not] previously been held unlawful.’” Smith v. Cupp, 430 F.3d 766,
776-77 (6th Cir. 2005) (second alteration in original)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)).
a. Withholding Exculpatory Evidence
In 1975, it was clearly established law that prosecutorial withholding of exculpatory evidence violates a criminal defendant’s Fourteenth Amendment right to due process. See Brady v. Maryland, 373 U.S. 83, 86-87 (1963).
Multiple circuits had also recognized by that time that
“Brady-derived” claims could be based on the conduct of
law-enforcement officers—as distinct from prosecutors—
who had allegedly withheld exculpatory evidence. See
Clarke v. Burke, 440 F.2d 853, 855 (7th Cir. 1971) (“This
is not to say that there can never be a due process violation if the prosecutor does not know that the police has in
its possession evidence possibly favorable to the defend-

45a
ant . . . . It has been held . . . that knowledge of the police
is knowledge of the prosecutor . . . . ” (citations omitted));
Smith v. Florida, 410 F.2d 1349, 1351 (5th Cir. 1969)
(“[I]t makes no difference if the withholding is by the
prosecutor or by officials other than the prosecutor.” (citing Barbee v. Warden, Md. Penitentiary, 331 F.2d 842
(4th Cir. 1964))); Barbee, 331 F.2d at 846; cf. Jackson v.
Wainwright, 390 F.2d 288, 295, 298 (5th Cir. 1968) (noting that “lower federal courts” applying Brady “ha[d]
emphasized the harm to the defendant rather than the
prosecutor’s motive in failing to disclose exculpatory evidence” and finding a violation of the “duty to disclose . . .
exculpatory statements” where “there was no evidence of
the prosecutor’s bad faith or of overreaching by the prosecution” (emphasis added)); Curran v. Delaware, 259
F.2d 707, 713 (3d Cir. 1958) (finding a violation of the
Fourteenth Amendment when a police officer perjured
himself at trial, regardless of whether the prosecutor was
aware of the perjury).
In Barbee, decided the year after Brady, the Fourth
Circuit addressed the habeas claim of a man who argued
his conviction violated due process because lawenforcement officers had not disclosed the existence of
ballistics and fingerprint reports that “cast grave doubt
upon” his guilt. Barbee, 331 F.2d at 844. Responding to
the state’s argument that the man was required, and had
failed, to show that the prosecutor knew about the reports, the court stated:
Nor is the effect of the nondisclosure neutralized
because the prosecuting attorney was not shown to
have had knowledge of the exculpatory evidence.
Failure of the police to reveal such material evidence in their possession is equally harmful to a defendant whether the information is purposely, or

46a
negligently, withheld. And it makes no difference if
the withholding is by officials other than the prosecutor. The police are also part of the prosecution,
and the taint on the trial is no less if they, rather
than the State’s Attorney, were guilty of the nondisclosure. If the police allow the State’s Attorney
to produce evidence pointing to guilt without informing him of other evidence in their possession
which contradicts this inference, state officers are
practicing deception not only on the State’s Attorney but on the court and the defendant . . . . If the
police silence as to the existence of the reports resulted from negligence rather than guile, the deception is no less damaging.
The duty to disclose is that of the state, which
ordinarily acts through the prosecuting attorney;
but if he too is the victim of police suppression of
the material information, the state’s failure is not on
that account excused.
Id. at 846 (footnotes omitted).
The above cases, decided prior to Plaintiffs’ trials,
make clear that the duty to disclose evidence falls on the
state as a whole and not on one officer of the state particularly, and it was therefore clearly established by the
time of those trials that Stoiker had a Fourteenth
Amendment obligation to disclose exculpatory evidence.
It was also clearly established that impeachment evidence, such as the fact that a witness was coerced into
making a fabricated statement, qualifies as exculpatory.
See Giglio v. United States, 405 U.S. 150, 153-55 (1972)
(holding that evidence that the government had procured
an informant’s testimony by suggesting he could escape
prosecution through cooperating was “material” evidence

47a
“affecting credibility” that should have been disclosed to
the defense under Brady).
Stoiker argues that a Seventh Circuit case shows that
it is not clearly established even now that officers are under a Brady obligation to disclose their own or fellow officers’ fabrication of evidence. In Saunders-El v. Rohde,
778 F.3d 556, 558 (7th Cir. 2015), the plaintiff sued police
officers under Brady, alleging that the officers failed to
disclose that they had severely beaten the plaintiff and
planted his blood at a crime scene. The Seventh Circuit
held that the plaintiff had not alleged a violation of Brady
because “Brady does not require the creation of exculpatory evidence, nor does it compel police officers to accurately disclose the circumstances of their investigations
to the prosecution.” Id. at 562.
Even if we were bound by Saunders-El, which we are
not, it would not foreclose our holding. Because Brady
and its progeny are concerned only with ensuring that a
defendant receives a fair trial, “Brady is concerned only
with cases in which the government possesses information which the defendant does not.” United States v.
Graham, 484 F.3d 413, 417 (6th Cir. 2007) (citation omitted). And so if a defendant knows at the time of trial that
the government has fabricated evidence, as in SaundersEl,17 officers do not violate Brady by failing to tell prosecutors that evidence has been fabricated.18 Had Plaintiffs
argued that Stoiker violated Brady only by failing to dis-

17

In describing the circumstances of the alleged fabrication of crimescene evidence underlying his Brady claim, the Saunders-El plaintiff
indicated that he had known about the fabrication all along. See
Saunders-El, 778 F.3d at 558.
18
This does not necessarily entail that such a situation would involve
no other constitutional violations, of course.

48a
close that Vernon’s statement was inaccurate, Stoiker’s
reliance on Saunders-El might be appropriate, as Plaintiffs already knew that Vernon’s statement was inaccurate. But Plaintiffs did not know that Vernon’s statement
had been coerced, and that fact could have been used to
impeach Vernon’s testimony at trial. Therefore, Stoiker
had an obligation to disclose that fact to Plaintiffs.
Finally, as discussed in section II(C)(1)(a), supra, an
additional piece of exculpatory evidence that Stoiker may
have possessed was the knowledge of Vernon’s uncoerced statement to Terpay and Farmer that he had not
seen the shooting at all. That statement was exculpatory
evidence separate from the fact that Vernon’s signed
statement was false, and there is no evidence that Plaintiffs knew of Vernon’s exculpatory statement. Therefore,
even if Saunders-El were controlling, we would hold that
Plaintiffs had alleged a violation of clearly established
rights with regard to Stoiker’s alleged withholding of exculpatory evidence of which Plaintiffs were not aware.
Stoiker is not entitled to qualified immunity on the
withholding-of-evidence claims.
b. Fabricating Evidence
It is difficult to countenance any argument that a lawenforcement officer in 1975 would not be “on notice [his]
conduct [was] unlawful” when coercing a witness into
perjuring himself in a capital trial. Hope, 536 U.S. at 739
(citation omitted). The obvious injustice inherent in fabricating evidence to convict three innocent men of a capital offense put Stoiker on notice that his conduct was unlawful. Cf. id. at 745 (stating, in evaluating qualified immunity in the Eighth Amendment context, that “[t]he obvious cruelty inherent in [tying a prisoner to a hitching
post “for an extended period of time in a position that

49a
was painful, and under circumstances that were both degrading and dangerous”] should have provided respondents with some notice that their alleged conduct violated
[the prisoner’s] constitutional protection against cruel
and unusual punishment”).
More concretely, as far back as 1935, the Supreme
Court recognized that the introduction of fabricated evidence violates “the fundamental conceptions of justice
which lie at the base of our civil and political institutions.”
Mooney v. Holohan, 294 U.S. 103, 112 (1935) (citing
Hebert v. Louisiana, 272 U.S. 312, 316 (1926)). And in
1942, the Supreme Court held that when a witness perjures himself because of threats from police officers, the
defendant suffers “a deprivation of rights guaranteed by
the Federal Constitution.” Pyle v. Kansas, 317 U.S. 213,
216 (1942).
The only difference between those cases and the present one is that those cases involved the use of fabricated
evidence at trial, whereas this one involves the use of fabricated evidence to affect a jury in a manner other than
by introducing the evidence at trial.19 However, we have
recognized that a Fourth Amendment claim based on the
fabrication of evidence does not require that “false testimony [have been] given at trial.” Spurlock, 167 F.3d at
1007. And we can see no principled distinction, for purposes of qualified immunity, between such a claim and
Plaintiffs’ claims here that they were deprived of their
Fourteenth Amendment due process rights through the

19

Although we assume for the purpose of this analysis that the allegedly fabricated evidence did not affect the proceedings through being used at trial, we again note that Vernon’s statement was used by
defense counsel at Jackson’s trial, and a reasonable jury could find
that the statement was considered by Jackson’s jury in some way.

50a
use of fabricated evidence. The alleged misconduct here
is the use of the falsified statement to procure testimony
in conformance with it—the same type of misconduct that
we have previously found supported recovery for a constitutional tort, irrespective of the stage at which the fabrication tainted the proceeding. See id.
As far as clearly established law in 1975 is concerned,
several months before the events at issue in this case,
this court stated that Mooney “made it clear that the
Fourteenth Amendment right to due process prohibits a
knowing and deliberate use by a state of perjured evidence in order to obtain a conviction.” Burks v. Egeler,
512 F.2d 221, 224 (6th Cir. 1975). More recently, we have
cited Brady, Pyle, and Mooney in finding that a defendant officer could not “seriously contend that a reasonable
police officer would not know that [his] actions [including
fabricating evidence] were inappropriate and performed
in violation of an individual’s constitutional . . . rights.”
Spurlock, 167 F.3d at 1005-06 (also citing Albright v. Oliver, 510 U.S. 266, 274 (1994)). In Spurlock (a maliciousprosecution case), the defendant argued that Albright,
and the Sixth Circuit case explicitly finding that malicious prosecution violated clearly established rights, had
been decided after his conduct and therefore did not put
him on notice. See Spurlock, 167 F.3d at 1006 n.19 (discussing generally Albright and Smith v. Williams, 78
F.3d 585, 1996 WL 99329 (6th Cir. 1996) (unpublished table opinion)). Rejecting that argument, we stated that
“the fundamental principle that an individual has a constitutional right to be free from malicious prosecution . . .
was clearly established well before either of [the] cases
[cited by the defendant] was decided.” Id. The reasoning
in Spurlock is sound, and we follow it in holding that

51a
Stoiker was on notice in 1975 that it was unlawful for him
to fabricate evidence.
Stoiker is not entitled to qualified immunity on the
fabrication-of-evidence claims.
c. Malicious Prosecution
Stoiker argues that he is entitled to qualified immunity because Plaintiffs “fail to identify a pre-1975 case that
would clearly establish that a police officer could be held
liable for malicious prosecution where he did not actively
participate in the prosecution [and] did not testify before
the grand jury or at trial.” Stoiker Br. at 51. Stoiker’s
argument admits of two interpretations, one of which is
possibly valid but has false premises and the other of
which has true premises but is invalid.
Stoiker might be arguing that the state of malicious
prosecution law in 1975 was in flux and that it was not
clear at that time that he could be liable under a malicious prosecution cause of action. That may be true, but
it does not follow that he is protected by qualified immunity. Whether a defendant is protected by qualified immunity turns not on whether the defendant was on notice
that his actions satisfied the elements of a particular
cause of action, but instead on whether the defendant
was on notice that his actions violated the laws of the
United States. Recently, when presented with a similar
argument to Stoiker’s, we responded:
[The defendant] spends a considerable portion of
his brief illustrating why it is not clear that he
should be liable for malicious prosecution, thus reasoning that he is entitled to qualified immunity.
Yet, his claim that the contours of our jurisprudence concerning malicious prosecution are not entirely clear misses the point. Our inquiry is wheth-

52a
er [the defendant’s] alleged actions—arresting and
detaining [the plaintiff] based on false pretenses
and then seeking an arrest warrant based on these
false statements—violated [the plaintiff’s] clearly
established constitutional rights. We conclude that
they did.
Miller v. Maddox, 866 F.3d 386, 395 (6th Cir. 2017), cert.
denied, 138 S. Ct. 2622 (2018). In short, “the sine qua
non of the ‘clearly established’ inquiry is ‘fair warning,’ ”
Baynes v. Cleland, 799 F.3d 600, 612-13 (6th Cir. 2015)
(quoting Hope, 536 U.S. at 741), and we ask only “whether it would be clear to a reasonable officer that his conduct was unlawful in the situation he confronted,” id. at
610 (quoting Saucier v. Katz, 533 U.S. 194, 202 (2001)).
Stoiker’s argument may, on the other hand, be that it
was not clear in 1975 that an officer who fabricated evidence but did not testify for the prosecution had violated
the laws of the United States. If this were true, he would
be protected by qualified immunity. It is not, and he is
not.
For Plaintiffs’ claims to survive summary judgment, it
must have been clearly established that where an officer
fabricates evidence against a defendant and then withholds exculpatory evidence from the prosecution, but
does not testify at trial or a grand jury hearing, he is “influenc[ing]” the decision to initiate the prosecution in a
way that violates the defendant’s constitutional rights.
Mills v. Barnard, 869 F.3d 473, 480 (6th Cir. 2017).
Stoiker cites no case requiring testimony as an element of a § 1983 claim for malicious prosecution and no
case suggesting that testifying is required in order to influence the decision to prosecute. To the contrary, this
court held long before 1975 that if officers arrested a

53a
suspect without a warrant (in violation of state law), and
“subjected [that suspect] to fraudulent trial in a criminal
case” that resulted in wrongful conviction, the officers
caused the suspect “a deprivation of [her] liberty without
due process of law.” McShane v. Moldovan, 172 F.2d
1016, 1019 (6th Cir. 1949). The court in McShane made
no mention of whether the officers had testified against
the suspect, and with good cause: the crux of the violation
is the institution of judicial processes without probable
cause, which does not require a testimonial act.
In conjunction with the cases cited in section
II(C)(2)(b), supra, McShane is sufficient to have clearly
established before May 1975 that an officer need not testify in order to violate a defendant’s right to due process.
That the phrase “malicious prosecution” was not used in
that case to describe the cause of action is immaterial;
what matters are the actions allegedly taken by Stoiker,
not the name we give to the claim used to seek redress
for those actions. Stoiker is therefore not entitled to
qualified immunity on the malicious-prosecution claims.
3. Conclusion
For the foregoing reasons, we REVERSE the district
court’s grant of summary judgment to Stoiker as to the
Fourteenth Amendment claims for fabrication of evidence and for withholding of exculpatory evidence in violation of Brady, and the Fourth Amendment claims for
malicious prosecution. But we AFFIRM the grant of
summary judgment as to the conspiracy claims.
D. Cleveland’s Motion for Summary Judgment
The cause of action created by § 1983 may be exercised
only against a “person who . . . causes to be subjected,
any citizen of the United States or other person within
the jurisdiction thereof to the deprivation of any rights,

54a
privileges, or immunities secured by the Constitution and
laws.” 42 U.S.C. § 1983. The Supreme Court has interpreted the word “person” broadly, and certain polities,
including municipalities, are considered persons for purposes of § 1983 liability. Monell v. Dep’t of Soc. Servs.,
436 U.S. 658, 690 (1978).
Although “person” has been given a wide meaning under § 1983, when the person is a municipality, liability attaches only under a narrow set of circumstances: “A municipality may not be held liable under § 1983 on a respondeat superior theory—in other words, ‘solely because it employs a tortfeasor.’ ” D’Ambrosio v. Marino,
747 F.3d 378, 388-89 (6th Cir. 2014) (quoting Monell, 436
U.S. at 691). Instead, a plaintiff must show that “through
its deliberate conduct, the municipality was the ‘moving
force’ behind the injury alleged.” Alman v. Reed, 703
F.3d 887, 903 (6th Cir. 2013) (quoting Bd. of Cty.
Comm’rs v. Brown, 520 U.S. 397, 404 (1997)). A plaintiff
does this by showing that the municipality had a “policy
or custom” that caused the violation of his rights. Monell, 436 U.S. at 694.
There are four methods of showing the municipality
had such a policy or custom: the plaintiff may prove “(1)
the existence of an illegal official policy or legislative enactment; (2) that an official with final decision making authority ratified illegal actions; (3) the existence of a policy
of inadequate training or supervision; or (4) the existence
of a custom of tolerance or acquiescence of federal rights
violations.” Burgess v. Fischer, 735 F.3d 462, 478 (6th
Cir. 2013) (citation omitted).
Plaintiffs argue that they have provided evidence sufficient to make out a Monell claim under the first theory,
as GPO 19-73 caused the violation of their Brady rights,
and the third theory, as Cleveland’s failure to train its

55a
officers in Brady caused the violation of their Brady
rights. Cleveland disagrees, as did the district court.20
1. Official Policy
“[T]o satisfy the Monell requirements a plaintiff must
‘identify the policy, connect the policy to the city itself
and show that the particular injury was incurred because
of the execution of that policy.’ ” Garner v. Memphis Police Dep’t, 8 F.3d 358, 364 (6th Cir. 1993) (quoting Coogan
v. City of Wixom, 820 F.2d 170, 176 (6th Cir. 1987)).
When proceeding under the first theory of Monell liability, under which a plaintiff must show an official policy
or legislative enactment, the plaintiff must show that

20

Plaintiffs also argue that they have a third Monell claim based on
Cleveland’s failure to adopt an adequate policy to prevent Brady
violations. The district court ruled against Plaintiffs on this theory,
finding that they had not established that Cleveland had failed to
adopt adequate policies to train officers in Brady’s requirements.
Jackson v. City of Cleveland, CASE NO. 1:15CV989, 2017 WL
3336607, at *4 (N.D. Ohio Aug. 4, 2017). We decline to analyze this
theory separately. Plaintiffs cite no Sixth Circuit or Supreme Court
case in support of their theory that they have a Monell claim—
separate from their failure-to-train claim—based on Cleveland’s unconstitutional failure to adopt a policy. Instead, the relevant cases
they cite are failure-to-train cases. See City of Canton v. Harris, 489
U.S. 378, 391 (1989); Gregory v. City of Louisville, 444 F.3d 725, 755
(6th Cir. 2006); Miller v. Calhoun Cty., 408 F.3d 803, 816-17 (6th Cir.
2005). That makes sense: the harm alleged and the analysis required under the failure-to-train theory are functionally indistinguishable from the harm Plaintiffs allege and the analysis they wish
us to conduct under the failure-to-adopt-a-policy theory. Indeed, the
district court stated that to prevail on their failure-to-adopt theory,
Plaintiffs needed to show Cleveland was deliberately indifferent to
the high likelihood of violations in the absence of a policy. See Jackson, 2017 WL 3336607, at *4 (citing Miller, 408 F.3d at 816-17). As
we discuss below, Plaintiffs must make the same showing for their
failure-to-train claim.

56a
there were “formal rules or understandings—often but
not always committed to writing—that [were] intended
to, and [did], establish fixed plans of action to be followed
under similar circumstances consistently and over time.”
Pembaur v. City of Cincinnati, 475 U.S. 469, 480-81
(1986) (emphasis added).
Plaintiffs argue that GPO 19-73 reflects just such a
policy: it was a formal rule; it was promulgated by Cleveland; and it was illegal because it authorized Brady violations. Cleveland agrees that GPO 19-73 was a policy and
that it was promulgated by Cleveland but argues that
GPO 19-73 is consistent with Brady and, therefore, could
not cause Brady violations.21
GPO 19-73 read in pertinent part as follows:
TO THE MEMBERS OF THE DEPARTMENT
In a letter to this Department, County Prosecutor
John T. Corrigan has defined the legal rights of defense attorneys and courts to statements, reports
and other items in criminal cases. His letter, as a
part of this order, shall be considered an integral
part of criminal case preparations procedures and
all members shall comply with its provisions.
R. 101-7, PageID 1630.
The letter from the County Prosecutor, incorporated
into GPO 19-73, read in pertinent part as follows:
The Ohio Supreme Court has recently promulgated
Criminal Rules of Procedure . . . . Particularly, Rule

21

Cleveland also argues that Plaintiffs cannot show that GPO 19-73
caused any Brady violations because they cannot demonstrate any
Brady violations to begin with. As discussed in section II(C)(1)(a),
supra, that argument is unavailing.

57a
16 is going to be the concern of police departments
and prosecutors.
....
NO POLICE DEPARTMENT IS REQUIRED OR
SHALL GIVE TO DEFENSE COUNSEL
AND/OR ANY COURT ANY RECORD, PAPER,
STATEMENT, REPORT OR TANGIBLE OBJECT OF A CRIMINAL CASE.
Under proper circumstances under this rule, by application to the Prosecuting Attorney and/or the
court, the defense counsel may be entitled to the
following:
1.

Statement of a defendant or co-defendant,
written, recorded, or a summary of an oral
statement.

2.

Defendant’s prior felony record.

3.

Inspection of [physical evidence] material
to the preparation of the defense or intended for use by the Prosecuting Attorney as evidence.

4.

Reports of results of physical or mental
examinations, scientific tests or experiments.

5.

Names and addresses of witnesses.

6.

Evidence favorable to the defendant.

EXCEPTION TO THE FOREGOING:
The foregoing does not authorize the discovery or
the inspection of reports, memoranda, or other internal documents made by the Prosecuting Attorney or his agents (police departments are his
agents) in connection with the investigation or

58a
prosecution of the case, or of statements made by
witnesses or prospective witnesses to state agents.
Id. (emphases added).
Plaintiffs argue that GPO 19-73 is appropriately read
as providing that defendants are generally entitled to favorable evidence, but that the entitlement does not apply
if the favorable evidence is in the form of witness statements. The individual Defendants were therefore acting
in conformance with GPO 19-73 when they failed to turn
over to prosecutors Vernon’s un-coerced, exculpatory
statement that he had not seen the shooting, even though
this withholding violated Plaintiffs’ Brady rights.
In rebuttal, Cleveland argues, first, that the language
of GPO 19-73 did not permit officers to withhold exculpatory evidence from prosecutors, and, second, that even if
it did, it must be read in conjunction with other rules by
which officers were bound in order to determine whether
Cleveland had a policy of permitting the withholding of
exculpatory evidence from prosecutors.
Because a city may be liable under Monell for a policy
of permitting constitutional violations regardless of
whether the policy is written, see Pembaur, 475 U.S. at
480-81, we ask whether GPO 19-73 and the other rules
were inconsistent with a policy of withholding evidence in
violation of Brady. If they were not inconsistent, then a
genuine issue of material fact exists as to whether Cleveland had such a policy, and summary judgment was improper on Plaintiffs’ first Monell theory.
a. The Text of GPO 19-73
Cleveland notes that the only language in GPO 19-73
discussing officers’ disclosure obligations simply made it
clear that they were not permitted to give any physical
evidence directly to a defendant; it did not say officers

59a
were permitted to withhold exculpatory evidence from
prosecutors. Under this reading of GPO 19-73, the purpose of the order was to ensure that officers did not give
evidence directly to defendants and, perhaps as something of an addendum, let officers know what prosecutors
might have to do with the evidence officers gave them.
The section permitting disclosure of exculpatory witness
statements, after all, argues Cleveland, was prefaced by
the statement that “by application to the Prosecuting Attorney and/or the court, the defense counsel may be entitled” to various evidence, and that language appears to
concern the interaction between prosecutors and defendants, not officers and prosecutors.
Cleveland’s interpretation of GPO 19-73 may be plausible, but it is not the only reasonable interpretation. The
incorporated letter from the County Prosecutor informed
Cleveland police officers that “Rule 16 is going to be the
concern of police departments and prosecutors,” not just
prosecutors. (emphasis added). The incorporated letter
recreated in part the text of Rule 16, which dealt only
with what sorts of evidence required disclosure, not with
who would do the disclosing. That GPO 19-73 told officers that Rule 16 was their concern and provided the text
of that Rule, which described which evidence must be
disclosed, could suggest that GPO 19-73 was promulgated
for the purpose of ensuring officers knew what particular
evidence they had to disclose to prosecutors so that the
prosecutors could then disclose that evidence to the defense. Under this reading, GPO 19-73 did more than
simply inform officers that they should not give evidence
directly to defendants; it also served as the directive to
officers as to what evidence they should, and should not,
give to prosecutors. Particular to the last point, the
“EXCEPTION TO THE FOREGOING” provision could

60a
be read to direct officers not to turn over to prosecutors
the documents described in that provision, which included “statements made by witnesses or prospective witnesses to state agents.”
Therefore, one reasonable reading of GPO 19-73 is
that it (1) spoke to police officers about their disclosure
obligations and (2) informed them that they did not need
to disclose exculpatory witness statements to the Prosecutor’s Office. Because GPO 19-73 can be read as consistent with a policy of not disclosing exculpatory witness
statements, we turn to the other written rules to see
whether any of those foreclosed such a policy.
b. Other Rules
Cleveland’s second argument for why a reasonable jury could not read GPO 19-73 as embodying a policy of allowing officers to withhold exculpatory witness statements from prosecutors is stronger, but ultimately unavailing. Instead of looking at GPO 19-73 in a vacuum,
Cleveland urges us to consider the text of GPO 19-73 in
the context of other rules and regulations. These other
sources fall into two groups: sections of the Division of
Police’s Manual of Rules and the full text of Rule 16.
i. The Manual
The Manual contained a number of rules that were
applicable to all Cleveland police officers in 1975. Cleveland points to four rules as requiring, when read in conjunction with GPO 19-73, that officers disclose exculpatory witness statements to prosecutors. While all laudable,
each of these policies can, however, reasonably be interpreted as consistent with a reading of GPO 19-73 that
permitted officers to withhold exculpatory witness
statements from prosecutors.
Rule 14

61a
Case Preparation and Fraud Unit
....
(2) The officer in charge shall cause statements to
be taken from persons brought to the Unit in the
course of criminal investigations; and shall see that
such statements are properly filed and preserved.
These statements shall be available only to the officers and members of the Division of Police who
are interested in the presentation of a particular
case, to the office of the County Prosecutor or the
Law Department of the City of Cleveland. Under
no circumstances shall they be given or exhibited to
any other person without the written consent of the
Chief of Police.
R. 102-2, PageID 1910-11.
Rule 14 only applied to statements given by persons
brought to the Case Preparation and Fraud Unit, and
there was no requirement that all witnesses be brought
to that unit when giving a statement.22 Nor did it require
officers to affirmatively disclose exculpatory statements
to prosecutors; it required only that detectives make
statements available. This reading is consistent with testimony that it was the practice of Cleveland detectives to
withhold evidence not contained in arrest reports, witness forms, or written statements unless it was specifically requested by prosecutors.
Rule 66 [No Title]
(1) Officers and members prosecuting persons
charged with a crime shall thoroughly familiarize
themselves with all of the facts and details concern22

Vernon does not appear to have been brought to the Case Preparation and Fraud Unit.

62a
ing such case, so that all of the evidence may be
properly presented to the court.
Id. at PageID 1941.
Rule 66 said nothing about disclosure of evidence to
prosecutors, much less exculpatory evidence. More importantly, it only required familiarity with the facts and
details of a case insofar as such familiarity was required
to “properly present” those facts to a court. As discussed
above, GPO 19-73 can reasonably be interpreted as not
requiring officers to disclose exculpatory witness statements to prosecutors for disclosure in turn to defendants
(or, presumably, to courts). Read in conjunction with
GPO 19-73, then, Rule 66 can reasonably be interpreted
as not applying to exculpatory witness statements.
Rule 77 [No Title]
(1) Officers and members shall report on all matters
referred to or investigated by them. Such reports
may be either verbal or written, as the officer in
charge may direct.
(2) They shall, before reporting off duty, make such
written reports as may be required on all matters
coming to their attention or assigned to them for
investigation. If the investigation has not been
completed before he reports [sic] off duty, he shall
make a report stating the progress made.
(3) He shall address his written reports to his superior officer and shall sign the reports, giving his full
name and rank, title or number. When required,
such reports shall be examined and signed by a superior officer. Written reports shall be forwarded
to the commanding officer.
Id. at PageID 1945-46.

63a
Rule 77 required that officers make reports concerning their cases. It did not require that such reports contain all exculpatory information that they may have
learned. Importantly, it did not require that any reports
be disclosed to prosecutors, and it allowed reports to be
made verbally to a superior officer, a method well suited
to the withholding of information from prosecutors.
Rule 78 [No Title]
Written and verbal reports, testimony in court and
conversation of any kind affecting the Division of
Police, its officers, members, employees or persons
under its jurisdiction shall be truthful and unbiased.
Id. at PageID 1946.
Even read in conjunction with GPO 19-73 and the other rules discussed herein, the limitations of Rule 78 render it incapable of carrying the weight with which Cleveland burdens it. It required not that all reports be complete but only that they be truthful and unbiased.23 Nor
did it require that any reports, which may have been
made verbally to a superior officer, be disclosed to prosecutors.
None of the rules contained within the Manual, taken
individually or collectively, are inconsistent with an interpretation of GPO 19-73 that permits officers to with23

Consider, for example, two officers who have coerced a witness
into making what they believe to be a truthful statement: a report
detailing that statement but excluding the coercion would comport
with Rule 78. More insidiously, consider two officers who have coerced a witness into making a statement that they know to be false
and who file a report stating that the witness made that statement.
That report would be both true and unbiased and therefore consistent with Rule 78: the witness did, after all, make the (false)
statement contained in the report.

64a
hold exculpatory information from prosecutors. These
rules can be read by a reasonable jury as consistent with
a policy of permitting the withholding of exculpatory evidence in violation of Brady.
ii. Ohio Rule of Criminal Procedure 16
Cleveland also argues that the full text of Rule 16
made clear that defendants were entitled to all exculpatory evidence, including witness statements. The version
of Rule 16 in force in 1975 read in pertinent part as follows:
(B) Disclosure of evidence by the prosecuting attorney.
(1)

Information subject to disclosure.

....
(f ) Disclosure of evidence favorable to defendant.
[description of exculpatory evidence]
(g) In camera inspection of witness’ [sic]
statement.
[description of procedure for in camera inspection of witness statements]
(2) Information not subject to disclosure.
Except as provided in subsections (B)(1)(a), (b),
(d), (f), and (g), this rule does not authorize the discovery or inspection of reports, memoranda, or other internal documents made by the prosecuting attorney or his agents in connection with the investigation or prosecution of the case, or of statements
made by witnesses or prospective witnesses to state
agents.

65a
Proposed Ohio Rules of Criminal Procedure, 46 Ohio
BAR 817, 849–52 (1973) (emphases added).
Unlike GPO 19-73 and the rules in the Manual, Rule 16
made it quite clear that defendants were entitled to exculpatory witness reports. Rule 16(B)(2) excepted witness statements from the general disclosure requirements, using language almost identical to that used in
GPO 19-73. Unlike GPO 19-73, however, Rule 16(B)(2)
included an additional clause, excepting exculpatory witness statements from the exception for witness statements generally. Rule 16(B)(2) thereby placed exculpatory witness statements back into the universe of mandatory disclosure. As a result, the full text of Rule 16 made
it clear that prosecutors were obligated to disclose all exculpatory witness statements to defendants.
This fact does not, however, save Cleveland, at least
not at this stage of the litigation. Cleveland has provided
no evidence that Cleveland required that its officers follow the official version of the Ohio Rules of Criminal Procedure, that those rules were followed by Cleveland officers, or that Cleveland officers were even aware of those
rules. There is evidence, of course, that Cleveland officers were bound by Rule 16: GPO 19-73 can reasonably be
interpreted as directing that Cleveland officers follow the
requirements of Rule 16. But GPO 19-73 could be read
as directing Cleveland officers to follow a modified version of Rule 16—the version included in GPO 19-73.24
And that version differed in at least one material way
from the official Rule 16. Both GPO 19-73 and the official
24

GPO 19-73 did not indicate that the version of Rule 16 it included
was in any way different from the official Rule 16 or suggest that
officers either consult the official text of Rule 16 or consult prosecutors as to the duties of officers or prosecutors under Rule 16.

66a
Rule 16 included a paragraph excepting witness statements from the general disclosure requirements. But
although, as mentioned, that paragraph in the official
Rule 16 contained an additional clause in paragraph
(B)(2) excepting (by reference to the requirements of
(B)(1)(f) and (g)) exculpatory witness statements from
that exception—and the paragraph in the official Rule
thereby required that exculpatory witness statements be
disclosed—the version of Rule 16 in GPO 19-73 omitted
the clause in that paragraph excepting exculpatory witness statements. The paragraph in the version of Rule 16
included in GPO 19-73 merely provided:
The foregoing [disclosure requirements] do[ ] not
authorize the discovery or inspection of reports,
memoranda, or other internal documents made by
the Prosecuting Attorney or his agents (police departments are his agents) in connection with the investigation or prosecution of the case, or of statements made by witnesses or prospective witnesses
to state agents.
R. 101-7, PageID 1630. It was this modified version of
Rule 16—the one that could plausibly be interpreted as
allowing the withholding of exculpatory witness statements—by which a reasonable jury could find Cleveland
officers were bound.
c. Conclusion
GPO 19-73 and the rules in Cleveland’s police manual,
read together, could be understood to authorize Cleveland officers to withhold exculpatory witness statements
from prosecutors. It is for a jury to consider GPO 19-73
and the rules in the Manual in light of Cleveland’s actual
practices and determine whether Cleveland had a policy
of permitting Brady violations. Because Cleveland does

67a
not contest that it promulgated GPO 19-73 or that the
individual Defendants were acting in conformance with
GPO 19-73 when they withheld Vernon’s exculpatory
statements, a reasonable jury could find Cleveland liable
under Monell. See Garner, 8 F.3d at 364-65.
Because a genuine issue of material fact exists as to
whether Cleveland had a policy of permitting Brady violations, the district court’s grant of summary judgment to
Cleveland on Plaintiffs’ first Monell theory was improper.
2. Failure to Train
Plaintiffs also argue that in 1975, Cleveland had “a policy of inadequate training or supervision” of its officers as
to their obligation to disclose exculpatory evidence under
Brady. Burgess v. Fischer, 735 F.3d 462, 478 (6th Cir.
2013).
In order to show that a municipality is liable for a failure to train its employees, a plaintiff “must establish
that: 1) the City’s training program was inadequate for
the tasks that officers must perform; 2) the inadequacy
was the result of the City’s deliberate indifference; and 3)
the inadequacy was closely related to or actually caused
the injury.” Ciminillo v. Streicher, 434 F.3d 461, 469 (6th
Cir. 2006) (citing Russo v. City of Cincinnati, 953 F.2d
1036, 1046 (6th Cir. 1992)).
Cleveland argues that Plaintiffs lack evidence sufficient for a jury to find that either of the first two requirements is met. We address each requirement in
turn.
a. Adequacy of Cleveland’s Brady Training
When determining whether a municipality has adequately trained its employees, “the focus must be on adequacy of the training program in relation to the tasks the

68a
particular officers must perform.”
Harris, 489 U.S. 378, 390 (1989).

City of Canton v.

Plaintiffs argue that Cleveland’s training program was
deficient in that it failed to train officers in their Brady
obligations and that, to the degree that those officers received training in the disclosure of evidence to prosecutors, they were trained to withhold exculpatory evidence.
Cleveland disagrees, citing deposition testimony to show
that officers received official training in their disclosure
obligations as well as unofficial on-the-job training in
their disclosure obligations. The district court agreed
with Cleveland.
It is undisputed that Cleveland officers received, and
were trained in, the Manual. But as discussed in section
II(D)(1)(b)(i), supra, those rules could be read as insufficient to inform officers of their disclosure obligations, as
none of the rules in the Manual explicitly mandated disclosure of exculpatory witness statements to prosecutors.
The only rule from the Manual that came close to requiring disclosure of witness statements to prosecutors was
Rule 14, which applied only to witness statements made
to the Case Preparation and Fraud Unit, and it only required that those statements be available to prosecutors,
not that they be proactively disclosed.
Cleveland presents deposition testimony that “in the
police academy . . . [y]ou were told to give [exculpatory
evidence] to . . . a prosecutor” and that “Cleveland police
officers are trained and instructed to turn over the entire
product of their investigation to the prosecutor.” R. 103,
PageID 3664, 3672.
Cleveland also presents evidence that officers were
trained on the job to disclose evidence. One officer testified that although the rule was not always followed, “the

69a
rule was, you should turn over all evidence acquired in an
investigation to the prosecution.” R. 104, PageID 394950. That officer also testified:
Police officers that conduct interviews are instructed to write down the statement as close to what the
witness said as possible, whether it is good or bad.
But it is part of what was said, and it needs to be,
the entire thing needs to be presented to the prosecutor, the entire thing, not parts of it, the entire
thing.
Id. at PageID 3972.
But Plaintiffs provide testimony that conflicts with
Cleveland’s account of the training received, both in the
academy and on the job. One former officer testified that
he was not “taught anything at police academy about police officers’ obligation to disclose Brady evidence” and
that he did not remember having “ever attend[ed] any
training concerning police officers’ obligation to disclose
exculpatory evidence to the defense.” R. 114-20, PageID
5127-29.
Another former officer testified that he could not recall having ever “attend[ed] any course, or receive[d] any
training in which [he] learned that officers have an obligation to disclose exculpatory evidence to criminal defendants or prosecutors.” R. 114-35, PageID 5492-93.
A third former officer testified, “As far as training, I
would have to say no” training was provided teaching officers they were required “to place any witness statements in the official file or otherwise make them available
to criminal defendants, defense counsels, and prosecutors.” R. 102, PageID 1776. He also testified that there
was “[n]o specific training” requiring police detectives “to
disclose exculpatory evidence.” Id. at PageID 1777.

70a
The district court interpreted these statements as indicating only that no official training had been provided,
not that no on-the-job training had been provided. Jackson v. City of Cleveland, CASE NO. 1:15CV989, 2017 WL
3336607, at *6 (N.D. Ohio Aug. 4, 2017). We think this a
cramped interpretation of these statements. One officer
testified that he could not recall having “receive[d] any
training in which [he] learned that officers have an obligation to disclose exculpatory evidence.” (emphasis added). Another testified that he received “no [training] to
place any witness statements in the official file.” (emphasis added). A reasonable jury could interpret this testimony as indicating that officers received no training, onthe-job or otherwise, in their Brady obligations generally
or in their obligation to provide witness statements to
prosecutors.
There is therefore a genuine issue of material fact as
to whether Cleveland’s training of its officers in their disclosure obligations was sufficient, and summary judgment was inappropriate as to this issue. See Burgess,
735 F.3d at 471.
b. Cleveland’s Deliberate Indifference
“[D]eliberate indifference is a stringent standard of
fault, requiring proof that a municipal actor disregarded
a known or obvious consequence of his action.” Bd. of
Cty. Comm’rs v. Brown, 520 U.S. 397, 410 (1997) (internal
quotation marks omitted). “In other words, the risk of a
constitutional violation arising as a result of the inadequacies in the municipal policy must be ‘plainly obvious.’”
Gregory v. City of Louisville, 444 F.3d 725, 752 (6th Cir.
2006) (quoting Bd. of Cty. Comm’rs, 520 U.S. at 412).
A plaintiff may meet this standard by showing either
(1) “prior instances of unconstitutional conduct demon-

71a
strating that the City had notice that the training was
deficient and likely to cause injury but ignored it” or (2)
“evidence of a single violation of federal rights, accompanied by a showing that the City had failed to train its employees to handle recurring situations presenting an obvious potential for such a violation.” Campbell v. City of
Springboro, 700 F.3d 779, 794 (6th Cir. 2012) (citing Plinton v. Cty. of Summit, 540 F.3d 459, 464 (6th Cir. 2008)).
Plaintiffs do not contend that they can show Cleveland’s failure to train was deliberately indifferent via the
first method.25 Instead, Plaintiffs argue that they satisfy
the second method of showing deliberate indifference because the “likelihood that the situation [i.e., a situation
requiring police to handle exculpatory evidence] will recur and the predictability that an officer lacking specific
tools to handle that situation will violate citizens’ rights”
mean that failing to train officers in their disclosure obligations demonstrates deliberate indifference to the
“highly predictable consequence” that untrained officers
will violate Brady. Jackson Br. at 65 (quoting Bd. of Cty.
Comm’rs, 520 U.S. at 409-10).
Plaintiffs cite Gregory in support of their conclusion.
In Gregory, the plaintiff presented evidence that the defendant municipality had failed to train its officers in the
handling of exculpatory evidence. See 444 F.3d at 753-54.
This court reversed a grant of summary judgment to the
municipality, holding that a “custom of failing to train its
officers on the handling of exculpatory materials is sufficient to establish the requisite fault on the part of the
25

Finding that Plaintiffs had not shown Cleveland provided inadequate training to its officers, the district court did not address
whether Plaintiffs could make out the deliberate-indifference element by either method. See Jackson, 2017 WL 3336607, at *5.

72a
[municipality]” for a deliberate-indifference claim. Id. at
754 (citing Bd. of Cty. Comm’rs, 520 U.S. at 407).
Cleveland attempts to distinguish Gregory on the
ground that in Gregory, the plaintiff had presented evidence sufficient for a jury to find that the defendant municipality had failed to train its officers, while in this case,
Cleveland argues that the “undisputed evidence in the
record establishes that the detectives in the City’s Homicide Detective Bureau received on-the-job training about
the evidence that they were required to turn over to the
prosecutor.” Cleveland Br. at 48. But, as discussed
above, the evidence is not undisputed. Plaintiffs have
provided testimony sufficient for a jury to find that
Cleveland did not in fact train its officers in their disclosure obligations. Gregory therefore controls, and there is
sufficient evidence for a reasonable jury to find that
Cleveland was deliberately indifferent to the risk of
Brady violations.
3. Conclusion
Plaintiffs having shown that there are genuine issues
of material fact both as to whether Cleveland had an official policy of permitting the withholding of exculpatory
witness statements from prosecutors and as to whether
Cleveland had a policy of failing to train its officers in
their disclosure obligations, summary judgment was inappropriate on the Monell claims. See Burgess, 735 F.3d
at 471.26 We therefore REVERSE the district court’s
grant of summary judgment to Cleveland as to those
claims.
26

A failure-to-train claim under Monell also requires showing that
the failure to train “was closely related to or actually caused [Plaintiffs’] injury,” Ciminillo, 434 F.3d at 469, but Cleveland does not dispute that element.

73a
III. CONCLUSION
In 1940, then-Attorney General Robert H. Jackson
admonished prosecutors: “Your positions are of such independence and importance that while you are being diligent, strict, and vigorous in law enforcement you can also afford to be just. Although the government technically
loses its case, it has really won if justice has been done.”27
In the present case, by contrast, one law-enforcement
officer testified that “winning the case was what it was all
about. It wasn’t about what was fair, it wasn’t about what
was honest, it was about winning.” R. 104, PageID 396768. If that sentiment explains the circumstances of Plaintiffs’ convictions, then those convictions were the result of
a process that was the very antithesis of Jackson’s famous admonition.
For the foregoing reasons, we AFFIRM the district
court’s grant of summary judgment to Stoiker as to
Plaintiffs’ § 1983 claims for conspiracy to fabricate evidence and withhold exculpatory evidence. We REVERSE and REMAND the district court’s (1) judgment
on the pleadings for Cleveland as to Plaintiffs’ indemnification claims; (2) denial of Plaintiffs’ motions to amend
their complaints to substitute the administrator of the
estates of the deceased Defendants as a party in their
place; (3) grant of summary judgment to Stoiker as to the
§ 1983 claims for withholding of exculpatory evidence in
violation of Brady, fabrication of evidence, and malicious
prosecution; and (4) grant of summary judgment to
Cleveland as to the Monell claims.
27

Robert H. Jackson, Attorney Gen. of the U.S., Address at the Second Annual Conference of United States Attorneys: The Federal
Prosecutor (Apr. 1, 1940).

74a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
————
NOS. 17-3840/3843
————
RICKY JACKSON (17-3840); KWAME AJAMU, FKA
RONNIE BRIDGEMAN, AND WILEY EDWARD
BRIDGEMAN (17-3843),
Plaintiffs-Appellants,
v.
CITY OF CLEVELAND; JEROLD ENGLEHART;
KAREN LAMENDOLA, GUARDIAN AD LITEM ON
BEHALF OF FRANK STOIKER; ESTATE OF EUGENE
TERPAY, ADMINISTRATOR; ESTATE OF JAMES T.
FARMER, ADMINISTRATOR; ESTATE OF JOHN
STAIMPEL, ADMINISTRATOR,
Defendants-Appellees.
————
Appeal from the United States District Court for the
Northern District of Ohio at Cleveland,
No. 1:15-cv-00989
Christopher A. Boyko, District Judge.
————
OPINION
————
Argued: June 14, 2018
Decided and Filed: March 28, 2019
————

75a
ARGUED: ELIZABETH C. WANG, Loevy & Loevy, Boulder, Colorado, for all Appellants.
WILLIAM M. MENZALORA, City of Cleveland, Cleveland,
Ohio, for Appellee City of Cleveland.
STEPHEN W. FUNK, Roetzel & Andress, LPA, Akron,
Ohio, for Appellees Karen Lamendola and the Estates of
Eugene Terpay, James Farmer, and John Staimpel.
ON BRIEF: ELIZABETH C. WANG, Loevy & Loevy,
Boulder, Colorado, for Appellant Ricky Jackson.
TERRY H. GILBERT, JACQUELINE C. GREENE, Friedman
& Gilbert, Cleveland, Ohio, David E. Mills, The Mills
Law Office LLC, Cleveland, Ohio, for Appellants Kwame
Ajamu and Wiley Bridgeman.
WILLIAM M. MENZALORA, City of Cleveland, Cleveland,
Ohio, for Appellee City of Cleveland.
STEPHEN W. FUNK, Roetzel & Andress, LPA, Akron,
Ohio, for Appellees Karen Lamendola and the Estates of
Eugene Terpay, James Farmer, and John Staimpel.
————
Before
Keith, Circuit Judge
Rogers, Circuit Judge
Bush, Circuit Judge
BUSH, J., delivered the opinion of the court in which
ROGERS, J., joined, and KEITH, J., joined in all except
Section II(C)(2). KEITH, J., delivered a separate concurring opinion.

76a
JOHN K. BUSH, Circuit Judge:
Appellants Ricky Jackson, Wiley Bridgeman, and
Kwame Ajamu served a long time in prison for a crime
they did not commit. For Jackson, it was thirty-nine
years; for Bridgeman, thirty-seven years; for Ajamu,
twenty-five years. They each spent close to two and a
half of those years on death row.
These men cannot get back any of the time they lost or
erase the things they experienced. The best they can
hope for is a remedy of damages under 42 U.S.C. § 1983
and Ohio law. This appeal concerns whether their complaints state sufficient facts for certain claims not to be
dismissed and whether the men have presented enough
evidence for other claims to overcome summary judgment.
In 1975, Jackson, Ajamu, and Bridgeman were convicted of murder. Their convictions were based largely
on the purportedly eyewitness testimony of Edward
Vernon, who then was thirteen years old. In 2014, nearly
forty years later, Vernon recanted, disclosing that police
officers had coerced him into testifying falsely. Vernon’s
recantation led to the overturning of appellants’ convictions.
The exonerated men filed suit in the Northern District
of Ohio, alleging § 1983 claims based on alleged violations
of their constitutional rights by the officers and the City
of Cleveland (“Cleveland”), along with state-law claims
for indemnification against Cleveland. This appeal requires us to untangle a knot of legal issues surrounding
the district court’s grant of appellees’ motions for judgment on the pleadings and for summary judgment and its
denial of appellants’ motions to amend their complaints.
We AFFIRM the district court’s grant of summary
judgment as to the § 1983 claims based on conspiracy, but

77a
we REVERSE and REMAND the district court’s (1)
judgment on the pleadings as to the indemnification
claims; (2) denial of appellants’ motions to amend their
complaints to substitute the administrator of the estates
of the deceased officers as a party in their place; (3)
summary judgment as to § 1983 claims arising from violations of Brady v. Maryland, 373 U.S. 83 (1963), fabrication of evidence, and malicious prosecution; and (4) summary judgment as to claims against Cleveland based on
Monell v. Department of Social Services, 436 U.S. 658
(1978).
I. BACKGROUND
A. Factual Background
As befits this stage of the litigation, we recite the relevant facts in the light most favorable to the plaintiffs,
who are appellants here. See Ciminillo v. Streicher, 434
F.3d 461, 464 (6th Cir. 2006).
In 1973, the Cleveland Division of Police promulgated
General Police Order 19-73 (“GPO 19-73”), entitled
“PRETRIAL DISCOVERY RIGHTS OF DEFENSE
ATTORNEYS AND COURTS IN CRIMINAL
CASES.” R. 101-7, PageID 1630.1 GPO 19-73 provided
that “defense counsel may be entitled” to several types of
evidence, including “[e]vidence favorable to the defendant.” Id. But it also included a section entitled “EXCEPTION TO THE FOREGOING,” which contained the following provision: “The foregoing does not authorize the
discovery or the inspection of . . . statements made by
witnesses or prospective witnesses to state agents.” Id.
The Manual of Rules used by the Division of Police (the
1

All record citations are citations to the record in No. 17-3840 (Jackson’s suit) unless otherwise indicated. Citations to the record in
Ajamu and Bridgeman’s suit will be prefaced by “No. 17-3843.”

78a
“Manual”) did not otherwise instruct officers in handling
potentially exculpatory information and did not mention
Brady, as the Manual’s last update had occurred before
Brady was decided.
As described later in this opinion, some testimony
suggests that Cleveland police officers may have received
no formal training in their Brady obligations, and may
not have known that Brady imposed any obligations upon
them.
Deposition testimony also reveals that, regardless of
how officers understood their obligations under Brady,
violations of those obligations were common. Although it
was generally understood that anything in a detective’s
file that was pertinent to a case “should go to the prosecutor,” it was up to individual officers whether they followed this policy, and they did not always do so. R. 103,
PageID 3794. The general practice at the time, followed
in “every case,” was for detectives to provide prosecutors
with only “arrest reports, witness forms and written
statements taken by the Statement Unit,” and “photos,”
while omitting to turn over other evidence, including potentially exculpatory evidence, unless it was specifically
requested by the prosecutor. Id. at PageID 3672-75.
Deposition testimony describes this as a “practice,”
which “happened more than it should,” of “detectives not
[turning] over all the evidence to prosecutors.” R. 104,
PageID 3970.
Some detectives took a more proactive role by “manipulating the evidence” before giving it to prosecutors.
Id. at PageID 3967. This was done, one officer testified,
“because winning the case was what it was all about. It
wasn’t about what was fair, it wasn’t about what was honest, it was about winning.” Id. at PageID 3967-68.

79a
Against this backdrop of evidence of incomplete Brady
knowledge and frequent Brady violations, the record
tells the following story.
On May 19, 1975, Edward Vernon, then twelve years
old, was riding the bus home from school when he heard
two gunshots. Being twelve, Vernon exited the bus at the
earliest opportunity and ran to where he believed the
shots originated. Coming upon the scene, Vernon found
a gunshot victim, but nothing to indicate who was responsible for the shooting. After police had secured the
area, Vernon left and met up with a friend who told
Vernon that the perpetrators were Ricky Jackson,
Kwame Ajamu (then known as Ronnie Bridgeman), and
Wiley Bridgeman (collectively, “Plaintiffs”). Vernon, a
civic-minded youth, returned to the crime scene and told
an officer that he knew who had committed the shooting,
whereupon the officer recorded Vernon’s contact information.
The next day, Detectives Eugene Terpay and James
Farmer went to Vernon’s house and requested that he go
down to the station to give a statement. As Vernon later
recounted, when his mother asked to accompany him to
the station, the officers “told her, no, he’ll be all right,
he’ll be all right.” R. 99-1, PageID 1183. At the station,
Vernon told Terpay and Farmer that Plaintiffs had committed the shooting and gave their descriptions, which he
was able to do because he knew them from the neighborhood. The following day, Terpay and Farmer again went
to Vernon’s house and asked him for Plaintiffs’ addresses.
Detective John Staimpel, along with his partner Frank
Stoiker, was working the case with Terpay and Farmer.
On May 25, Staimpel and another detective, whose name
Vernon cannot remember, picked Vernon up at his house

80a
to bring him to a line-up. Vernon’s mother again asked to
accompany him, and Vernon recalls the detectives saying,
“[N]o, he’ll be all right. We’ll bring him back after the
lineup.” Id. at PageID 1189. The detectives brought
Vernon to the line-up and, as he recollects, asked him if
“I see anybody that I recognize up there,” which Vernon
interpreted as asking whether he had seen anyone in the
line-up commit the shooting. Id. at PageID 1190.
Vernon replied that he had not. Ricky Jackson and Wiley
Bridgeman, who had been arrested earlier in the day,
were in that line-up. From Vernon’s point of view, he had
been forthright up until this point: he had honestly told
the detectives that (he thought) he knew who had committed the crime, but he had never said that he had actually witnessed the crime, and so when he was asked at
the line-up whether he saw anyone whom he had seen
commit the crime, he said no.
The two detectives then brought Vernon into a room,
whereupon Staimpel accused Vernon of lying, threatened
to send his parents to jail for perjury, banged on a table,
and used racial pejoratives to describe Vernon. (Vernon
and Plaintiffs are African-Americans.) After Vernon began to cry, Staimpel said, “[W]e’ll fix it,” and the detectives left the room. Id. at PageID 1191. When the detectives returned, they gave Vernon a piece of paper, explained to him that it said he had failed to identify Jackson and Bridgeman in the line-up because he had been
scared of their retaliating, and told Vernon to sign it,
which Vernon did.
Stoiker signed a police report dated May 25, 1975,
which described Stoiker and Staimpel’s picking Vernon
up and taking him to the line-up, Vernon’s failing to identify Jackson and Bridgeman, and Vernon’s explaining

81a
this failure as due to his being “very afraid” of Plaintiffs.
R. 114-19, PageID 5113.
The day after the line-up, Terpay and Farmer again
spoke with Vernon. The detectives brought Vernon to
the station, where he told them that he had not witnessed
the crime and that he had never said that he had witnessed the crime. Terpay was wroth, yelling at Vernon
and accusing him of having lied when he had gone to the
line-up and said “that this is not them.” R. 99-1, PageID
1194. Terpay threatened to send Vernon’s parents to jail
for perjury, and Vernon agreed to testify that he had
seen Plaintiffs commit the crime.
A police report dated May 28, 1975 indicates that
Stoiker and Staimpel “[c]onsulted with [the prosecutor]
who issued papers charging [Plaintiffs] with [homicide].”
R. 114-28, PageID 5321.
Prior to Jackson’s trial, Terpay coached Vernon regarding his testimony and afterwards reviewed the trial
transcript with Vernon to ensure that his testimony in
the trials of Bridgeman and Ajamu was consistent.
Plaintiffs were convicted at separate trials. They were
sentenced to death, but their sentences were later reduced to life imprisonment.
For nearly forty years, Vernon struggled with the
knowledge that his testimony had put Plaintiffs in prison.
He later testified, “Through out [sic] the years this case
has . . . be[en] heavy on my emotion, my everything.” R.
99-2, PageID 1234. “I wanted to come forward throughout the years, but I was scared, scared to come forward
and tell the truth . . . with this battle in my mind, battle in
my spirit, battle in my heart . . . . I’m battling with this
. . . pretty much all my life . . .” R. 99-1, PageID 1203.
The years did not lessen the turmoil in Vernon’s mind.

82a
One day in 2013, Vernon finally disburdened his conscience. He was lying in a hospital bed, stricken with hypertension and kidney failure, when his pastor visited
and told him that Innocence Project attorneys were seeking to exonerate Plaintiffs. Vernon testified:
So, after he stated that and I said, okay, well, you
know what—I got up out of the bed and I just broke
down and I cried on his shoulder and I said, well,
I’m ready to tell the truth, I’m ready to come forward and tell the truth that Ricky Jackson did not
commit the crime that he went to prison for.
Id. at PageID 1203-04.
Vernon formally recanted his testimony against each
of the three Plaintiffs in November 2014. After the recantation, the prosecutor for Cuyahoga County, where
Cleveland is located, admitted that there was “no evidence tying any of the three convicted defendants to the
crimes” and that “[t]hey have been victims of a terrible
injustice.” R. 116, PageID 6302-03.
B. Procedural History
On May 19, 2015, Jackson filed suit against Terpay,
Farmer, Stoiker,2 Staimpel, and Cleveland (collectively,
“Defendants”), as well as others,3 alleging a multitude of
state and federal claims. Bridgeman and Ajamu filed suit
against the same defendants on July 2, 2015. On October

2

Karen Lamendola is acting as guardian ad litem on behalf of Stoiker
and is therefore the named defendant-appellee representing Stoiker’s
interests. We continue to refer to Stoiker as a Defendant for narrative convenience.
3
Plaintiffs also named another former officer, Jerold Englehart, in
their notices of appeal. However, in their appellate briefs, they expressly abandon their claims against Englehart. Jackson Br. at 33;
Ajamu & Bridgeman Br. at 6.

83a
1, 2015, Cleveland moved for judgment on the pleadings,
under Federal Rule of Civil Procedure 12(c), as to the
state-law claims in both complaints. The district court
granted both motions.
In November 2015, Jackson, and Bridgeman and
Ajamu in their parallel lawsuit, all moved for leave to file
amended complaints substituting the administrator of the
estates of the deceased Defendants (the “administrator”)
for those Defendants. (J. Reid Yoder is the administrator of all of the estates.) The district court denied those
motions as futile, reasoning that a § 1983 claim brought in
Ohio does not survive a defendant’s death.
On January 27, 2017, Stoiker (the only living individual
Defendant) moved for summary judgment in both lawsuits, arguing that he was not involved in any unconstitutional activity and that, even if he was, he is protected by
qualified immunity. On the same date, Cleveland also
moved for summary judgment as to the Monell claims,
arguing that Plaintiffs had failed to provide evidence sufficient for a jury to find Cleveland liable. The district
court granted both motions for summary judgment.
II. DISCUSSION
We review de novo a judgment on the pleadings under
Federal Rule of Civil Procedure 12(c), applying the same
standard we apply to review the grant of a motion to
dismiss under Rule 12(b)(6). Warrior Sports, Inc. v.
Nat’l Collegiate Athletic Ass’n, 623 F.3d 281, 284 (6th
Cir. 2010). We therefore “construe the complaint in the
light most favorable to the plaintiff and accept all allegations as true” to determine whether the “complaint . . .
contain[s] sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.” Doe v.
Miami Univ., 882 F.3d 579, 588 (6th Cir. 2018) (citations
and internal quotation marks omitted).

84a
Federal Rule of Civil Procedure 15(a)(2) provides that
leave to amend “should [be] freely give[n] . . . when justice so requires.” “We review a district court’s order
denying a Rule 15(a) motion to amend for an abuse of
discretion.” Rose v. Hartford Underwriters Ins. Co., 203
F.3d 417, 420 (6th Cir. 2000) (citing Gen. Elec. Co. v. Sargent & Lundy, 916 F.2d 1119, 1130 (6th Cir. 1990)). “A
district court abuses its discretion when it relies on clearly erroneous findings of fact, uses an erroneous legal
standard, or improperly applies the law.” United States
v. Arny, 831 F.3d 725, 730 (6th Cir. 2016) (citation and
internal quotation marks omitted).
“We review a district court’s grant of summary judgment de novo.” Adair v. Charter Cty. of Wayne, 452 F.3d
482, 486 (6th Cir. 2006) (quoting Allen v. Mich. Dep’t of
Corr., 165 F.3d 405, 409 (6th Cir. 1999)). Summary
judgment is appropriate when “no genuine dispute as to
any material fact” exists and the moving party “is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). “A genuine dispute of material fact exists ‘if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.’” Peffer v. Stephens,
880 F.3d 256, 262 (6th Cir. 2018) (quoting Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)). At the
summary judgment stage, “the evidence is construed and
all reasonable inferences are drawn in favor of the nonmoving party.” Burgess v. Fischer, 735 F.3d 462, 471
(6th Cir. 2013) (citing Hawkins v. Anheuser-Busch, Inc.,
517 F.3d 321, 332 (6th Cir. 2008)).
Numerous decisions by the district court are now on
appeal: (1) the district court’s dismissal, with prejudice,
of Plaintiffs’ claims against Cleveland for indemnification
under state law; (2) the district court’s denial of Plaintiffs’
motions to substitute the administrator of the deceased

85a
Defendants’ estates as a defendant; (3) the district
court’s grant of summary judgment to Stoiker on the
§ 1983 claims; and (4) the district court’s grant of summary judgment to Cleveland on the Monell claims. We
address each issue in turn.
A. Indemnification Claims
The claims against Cleveland under Ohio Revised
Code § 2744.07(B)4 seek indemnification for damages
based on the alleged torts of the individual Defendants,
who are former employees of Cleveland.
Section
2744.07(B) provides that “a political subdivision shall indemnify and hold harmless an employee” found liable for
that employee’s acts, so long as the employee was “acting
in good faith” and “within the scope of employment.”5
The district court granted Cleveland’s motions for judgment on the pleadings, reasoning that § 2744.07(B) provides only a tortfeasor employee, and not a tort victim,
with the right to bring a claim of indemnification against
the tortfeasor’s employer.
Plaintiffs argue that the district court erred in dismissing their indemnification claims with prejudice be-

4

At the time of the district court’s opinion, the relevant language
appeared in § 2744.07(A)(2), so the district court cited that provision.
See Jackson v. City of Cleveland, No. 1:15CV989, 2016 WL 3952117,
at *2 (N.D. Ohio July 20, 2016). Because the Ohio Revised Code has
since been amended, we cite the subsection in which the relevant
language now appears, subsection (B). The language has not been
changed in any way that would affect the district court’s, or our,
analysis.
5
Cleveland’s brief does not address whether the defendant officers
were acting “in good faith” and within the scope of their employment
for purposes of the indemnification claims, and the district court did
not consider those issues. We will not address unargued principles
of Ohio law on which the district court did not rule.

86a
cause the claims were not yet ripe and unripe claims, if
they are to be dismissed, should only be dismissed without prejudice.
Generally, a claim may not be adjudicated on its merits unless it is ripe. See Nat’l Rifle Ass’n of Am. v. Magaw, 132 F.3d 272, 284 (6th Cir. 1997). A claim is unripe
when it “is anchored in future events that may not occur
as anticipated, or at all.” Id. (citing Pac. Gas & Elec. Co.
v. State Energy Res. Conservation & Dev. Comm’n, 461
U.S. 190, 200-01 (1983); Dames & Moore v. Regan, 453
U.S. 654, 689 (1981)). This prohibition comes both from
the case or controversy requirement of Article III and
from prudential considerations. See Brown v. Ferro
Corp., 763 F.2d 798, 801 (6th Cir. 1985) (noting that a
ripeness analysis includes a discretionary determination
beyond the Article III standing considerations).
The ripeness doctrine exists “to prevent the courts,
through premature adjudication, from entangling themselves in abstract disagreements.” Thomas v. Union
Carbide Agric. Prods. Co., 473 U.S. 568, 580 (1985) (quoting Abbott Labs. v. Gardner, 387 U.S. 136, 148 (1967)).
Application of this doctrine “requires that the court exercise its discretion to determine if judicial resolution
would be desirable under all of the circumstances.”
Brown, 763 F.2d at 801. Of primary importance is
“whether the issues tendered are appropriate for judicial
resolution,” and, if so, the degree of “hardship to the parties if judicial relief is denied” before the claim is allowed
to ripen further. Young v. Klutznick, 652 F.2d 617, 625
(6th Cir. 1981) (quoting Toilet Goods Ass’n v. Gardner,
387 U.S. 158, 162 (1967)).
Indemnification claims are frequently brought while
unripe, depending as they often do on the favorable adjudication of underlying tort claims. Because of this, as a

87a
general matter, a claim for indemnification for damages
that may be awarded on an underlying tort claim should
not be adjudicated on the merits until the underlying
claim is adjudicated. See, e.g., Safety Nat’l Cas. Corp. v.
Am. Special Risk Ins. Co., 99 F. App’x 41, 43 (6th Cir.
2004) (finding unripe a claim of indemnification for
fraudulent conveyance because, among other reasons, the
underlying claim for fraudulent conveyance had not yet
been adjudicated); see also Armstrong v. Ala. Power Co.,
667 F.2d 1385, 1388-89 (11th Cir. 1982) (affirming dismissal of indemnity suits as premature prior to entry of
judgment in underlying lawsuit); A/S J. Ludwig
Mowinckles Rederi v. Tidewater Constr. Co., 559 F.2d
928, 932 (4th Cir. 1977) (holding indemnification issue not
ripe prior to adjudication of underlying claims).
Because the ripeness doctrine is discretionary, courts
sometimes apply an exception for indemnification claims
that have no possibility of success, regardless of the merits of the underlying claims. See, e.g., Cincinnati Ins. Co.
v. Grand Pointe, LLC, No. 1:05-CV-161, 2006 WL
1806014, at *9 (E.D. Tenn. June 29, 2006) (collecting cases in support of the proposition that “a court may grant
summary judgment on the issue of indemnification if it
can determine the allegations in the complaint could under no circumstances lead to a result which would trigger
the duty to indemnify” (citations and internal quotation
marks omitted)).
The Sixth Circuit has not analyzed the propriety of
this exception, and we need not do so now because, even
if it is permissible for district courts to adjudicate indemnification claims with no possibility of success prior to the
adjudication of underlying tort claims, this is not such a
case.

88a
If Plaintiffs’ indemnification claims have no possibility
of success, that would be because Ohio law provides that
only the tortfeasor employees, and not the parties injured by them, may bring claims under Ohio Revised
Code § 2744.07(B). The district court did an admirable
job analyzing Ohio court cases before holding that Ohio
law does so provide. See Jackson v. City of Cleveland,
No. 1:15CV989, 2016 WL 3952117, at *2 (N.D. Ohio July
20, 2016). But the only cases available to the district
court were from the Ohio courts of appeal, as the Ohio
Supreme Court had yet to opine on the issue.
The judgments of Ohio appellate courts not being
binding on the Ohio Supreme Court, there remains a possibility that Plaintiffs’ indemnification claims could succeed: Plaintiffs would need to win their underlying tort
action and, while that action was pending, the Ohio Supreme Court would need to adopt their interpretation of
Ohio Revised Code § 2744.07(B). Although the latter
eventuality may seem remote, it is far from impossible
and, as it happens, the Ohio Supreme Court has accepted
an appeal addressing this very issue. See Ayers v. Cleveland, 106 N.E.3d 65 (Ohio 2018) (Table).
Because it is not impossible for Plaintiffs to prevail on
their indemnification claims, those claims are not ripe for
adjudication. As discussed above, in evaluating whether
a claim is ripe, courts should determine (1) whether a
matter is “appropriate for judicial resolution” and (2)
whether the parties would undergo hardship “if judicial
relief is denied” on their claim before it ripens further.
Young, 652 F.2d at 625. Neither factor supports finding
the indemnification claims are ripe here.
First, interpreting Ohio Revised Code § 2744.07(B) is
best avoided unless necessary. Federal courts generally
avoid interpreting unsettled state law because state

89a
“courts are in the better position to apply and interpret”
their own jurisdiction’s law. Travelers Indem. Co. v.
Bowling Green Prof’l Assocs., PLC, 495 F.3d 266, 272
(6th Cir. 2007). As the Supreme Court said in Railroad
Commission of Texas v. Pullman Co., 312 U.S. 496
(1941) and repeated in Louisiana Power & Light Co. v.
City of Thibodaux, 360 U.S. 25 (1959):
Had we or they (the lower court judges) no choice
in the matter but to decide what is the law of the
state, we should hesitate long before rejecting their
forecast of [state] law. But no matter how seasoned
the judgment of the district court may be, it cannot
escape being a forecast rather than a determination.
Thibodaux, 360 U.S. at 27 (quoting Pullman, 312 U.S. at
499). Where, as here, adjudicating an issue of state law
is unnecessary because the litigation is in its early stages, and state law is unsettled, the inappropriateness of
deciding the issue in federal court weighs in favor of finding the claim unripe for adjudication in federal court.
Second, that no harm will befall Cleveland if “judicial
relief is denied” for the time being also weighs in favor of
finding the indemnification claims unripe. Young, 652
F.2d at 625. The district court’s grant of Cleveland’s motions for judgment on the pleadings as to Plaintiffs’ indemnification claims did not release Cleveland from the
litigation, as Plaintiffs still have Monell claims outstanding against Cleveland. The only effect that denying
Cleveland’s motions, or holding them in abeyance, would
have on the litigation would be to delay adjudication of
the indemnification claims until a later stage in the litigation. At that point, the district court may be able to avoid
interpreting Ohio Revised Code § 2744.07(B), because the
Ohio Supreme Court may already have done so. The dis-

90a
trict court should interpret Ohio law only if the Ohio Supreme Court has not done so by the time the underlying
§ 1983 claims have been properly adjudicated on remand,
and if those claims are found to have merit.
The ripeness doctrine therefore requires that the indemnification claims not be adjudicated on the merits at
the pleading stage, given the unsettled condition of state
law. Because “a dismissal with prejudice operates as a
rejection of the plaintiff’s claims on the merits,” the district court erred in dismissing those claims with prejudice. Mich. Surgery Inv., LLC v. Arman, 627 F.3d 572,
575 (6th Cir. 2010) (quoting United States v. One Tract of
Real Prop., 95 F.3d 422, 425-26 (6th Cir. 1996)).
B. Plaintiffs’ Motions to Substitute
Plaintiffs sought leave to amend their complaints to
substitute the administrator of the estates of Defendants
Terpay, Staimpel, and Farmer as a party in place of
those Defendants, as they are now deceased. District
courts “should freely give leave” to amend a complaint
pre-trial “when justice so requires.” Fed. R. Civ. P.
15(a)(2). One permissible reason to deny leave is the “futility of [the] amendment[s].” Foman v. Davis, 371 U.S.
178, 182 (1962).
The district court denied leave to amend, reasoning
that § 1983 claims brought in Ohio do not survive the
deaths of the tortfeasors, and, therefore, the requested
amendments would be futile.6 On appeal, Defendants argue that the district court was correct, but also suggest
an alternative ground for affirming—that Plaintiffs did

6

The district court also denied leave to amend on futility grounds
with regard to Plaintiffs’ state-law claims against the deceased Defendants, but Plaintiffs do not appeal that ruling.

91a
not timely present their claims to the estates of the deceased Defendants. We address the survivability and
timeliness arguments in turn.
1. Survival of § 1983 Claims
Defendants first argue that the denial of Plaintiffs’
motions to amend should be affirmed because § 1983
claims do not survive the death of the tortfeasor in Ohio.
42 U.S.C. § 1988(a) provides that in actions to protect
civil rights, where “the laws of the United States . . . are
deficient in the provisions necessary to furnish suitable
remedies and punish offenses against law, the common
law, as modified and changed by the constitution and
statutes of the State wherein the court having jurisdiction of such civil or criminal cause is held,” shall be applied, “so far as the same is not inconsistent with the
Constitution and laws of the United States.”
The Supreme Court has interpreted this statutory
language as requiring a three-step process for determining which jurisdiction’s procedural law, such as provisions concerning statutes of limitations or the abatement
of claims, is used in § 1983 suits. See Robertson v.
Wegmann, 436 U.S. 584, 588-89 (1978). First, a district
court must determine whether there is an applicable federal law that covers the issue, and, if there is, apply it.
See id. Second, if there is no relevant federal law, then
the district court must determine what the appropriate
rule is in the state where the district court sits. See id. at
588. Third, the district court must determine whether
the law of that state is “inconsistent with the Constitution
and laws of the United States;” if there is no inconsistency, the state law is used, but if inconsistency exists, a federal common-law rule is used. Id. at 588-89.

92a
Because “[n]o federal statute or rule says anything
about the survivorship of § 1983 claims,” Crabbs v. Scott,
880 F.3d 292, 294 (6th Cir. 2018), we turn to the relevant
Ohio law, which provides:
In addition to the causes of action which survive at
common law, causes of action for mesne profits, or
injuries to the person or property, or for deceit or
fraud, also shall survive; and such actions may be
brought notwithstanding the death of the person
entitled or liable thereto.
Ohio Rev. Code § 2305.21 (West 2019). Plaintiffs argued
before the district court that their claims fall within “injuries to the person,” while Defendants argued that “injuries to the person” encompasses only physical injuries,
and not the violation of rights alleged in this case.
The district court agreed with Defendants, citing a
district court case holding that under Ohio law, § 1983
claims similar to those brought by Plaintiffs did not involve “injuries to the person.” Tinney v. Richland Cty.,
No. 1:14 CV 703, 2014 WL 6896256, at *2 (N.D. Ohio Dec.
8, 2014), aff’d, 678 F. App’x 362 (6th Cir. 2017).
After the district court’s judgment, however, Tinney
was superseded by a published opinion of this circuit
holding precisely the opposite. Crabbs expressly rejected
the holding in Tinney, deciding instead that § 1983 claims
are subject to the procedural rules of the state where
they are brought that relate to personal injury actions,
regardless of the specific type of injury alleged in the
suit. See 880 F.3d at 296.
When hearing a direct appeal, this court evaluates the
merits of the case based on current law, not the law existing when the district court entered its judgment. See
Chaz Concrete Co., LLC v. Codell, 545 F.3d 407, 409 (6th

93a
Cir. 2008). After Crabbs, all claims brought under § 1983
are to be treated as actions sounding in personal injury
tort. Because Ohio Revised Code § 2305.21 provides that
actions for personal injury survive the deaths of the tortfeasors, and that statute does not conflict with the laws of
the United States, see Crabbs, 880 F.3d at 295, § 1983 actions brought in Ohio survive the deaths of the tortfeasors.
Therefore, through no fault of its own, the district
court was in error as to its grounds for finding that the
proposed amendments, substituting the administrator of
the estates of Terpay, Staimpel, and Farmer for those
Defendants, would be futile.
2. Timeliness of Plaintiffs’ Claims Against the
Estates
Defendants argue that we should affirm the district
court on alternative grounds—namely, that the claims
against the estates were not timely brought. Proper adjudication of this issue requires analysis of both Ohio and
federal law. Defendants argue that Ohio estate law regarding the timely filing of claims defines which entities
have the capacity to be sued, while Plaintiffs argue that
those provisions are merely statutes of limitations. See
Ohio Rev. Code §§ 2117.06, 2117.37.
The points of contention do not end there, however. If
Plaintiffs are correct that Ohio estate law merely establishes statutes of limitations, the parties also dispute
whether those statutes or the general Ohio statute of limitations applies to § 1983 suits. On the other hand, if Defendants are correct that Ohio estate law defines which
entities have the capacity to be sued, the parties also disagree over whether federal courts hearing § 1983 actions
are bound by that definition, as well as whether an excep-

94a
tion to that definition, provided in Ohio Revised Code
§ 2117.06(G), applies to the facts of this case.
The district court did not address these issues, instead
relying on its holding that the § 1983 claims did not survive the deaths of the deceased Defendants.7 “It is the
general rule that a federal appellate court does not consider an issue not passed upon below.” Lindsay v. Yates,
498 F.3d 434, 441 (6th Cir. 2007) (quoting United States
v. Henry, 429 F.3d 603, 618 (6th Cir. 2005)). This directive is not jurisdictional, however, and “a departure
from this general rule may be warranted when ‘the issue
is presented with sufficient clarity and completeness and
its resolution will materially advance the progress of this
already protracted litigation.’ ” Katt v. Dykhouse, 983
F.2d 690, 695 (6th Cir. 1992) (quoting Pinney Dock &
Transp. Co. v. Penn Cent. Corp., 838 F.2d 1445, 1461 (6th
Cir. 1988)).
We will follow the general rule and decline to address
these issues in the first instance. These are thorny issues
of first impression in this circuit, and because the district
court has not yet addressed them, we do not believe they
are “presented with sufficient clarity and completeness”
for our review. Id.
3. Conclusion
The district court erred in finding that Plaintiffs’ proposed amendments would be futile on the ground that
7

The district court did address timeliness with regard to Plaintiffs’
state-law claims, but Plaintiffs do not challenge that analysis on appeal. The timeliness analysis required for the § 1983 claims differs
from that required for the state-law claims: the former involves a
three-step analysis to determine the applicable law, as described in
section II(B)(1), supra. See Robertson, 436 U.S. at 588-89. The district court did not conduct this analysis.

95a
§ 1983 claims brought in Ohio do not survive the deaths of
the tortfeasors, and we decline to address whether Defendants have presented an alternative ground on which
the district court’s denial of Plaintiffs’ motions to amend
could be affirmed. Because applying the wrong legal
standard constitutes reversible error on abuse of discretion review, United States v. Arny, 831 F.3d 725, 730 (6th
Cir. 2016), the district court’s denial of the motions to file
amended complaints is REVERSED and REMANDED
for further proceedings.
C. Stoiker’s Motion for Summary Judgment
We next address the district court’s grant of summary
judgment to Stoiker on the § 1983 claims that Stoiker violated Plaintiffs’ Fourteenth Amendment right to due process by withholding exculpatory evidence, fabricating evidence, and conspiring to do the same, and Plaintiffs’
Fourth Amendment right to be free of malicious prosecution.
If a police officer violates the Constitution, “42 U.S.C.
§ 1983 provides a civil remedy for those” injured by the
violation. Peffer v. Stephens, 880 F.3d 256, 263 (6th Cir.
2018). But officers sued under the aegis of § 1983 are
protected from liability by the doctrine of qualified immunity “insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a
reasonable person would have known.” Pearson v. Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified immunity
does not apply if (1) “on the plaintiff’s facts,” a constitutional violation occurred, and (2) the alleged violation was
of “clearly established constitutional rights of which a
reasonable person would have known.” Hoover v. Radabaugh, 307 F.3d 460, 465 (6th Cir. 2002) (quoting Dickerson v. McClellan, 101 F.3d 1151, 1158 (6th Cir. 1996)).

96a
The district court found that there was insufficient evidence for a reasonable jury to find that Stoiker had
committed any of the alleged constitutional violations.
We address each of the appealed determinations in turn.
1. Constitutional Violations
a. Withholding Exculpatory Evidence
The Due Process Clause of the Fourteenth Amendment provides that no state may “deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.” U.S. Const. amend. XIV, § 1. In
Brady v. Maryland, 373 U.S. 83, 87 (1963), the Supreme
Court held “that the suppression by the prosecution of
evidence favorable to an accused upon request violates
due process where the evidence is material either to guilt
or to punishment, irrespective of the good faith or bad
faith of the prosecution.” Prosecutors are not the only
state actors bound by Brady, and “police can commit a
constitutional deprivation analogous to that recognized in
Brady by withholding or suppressing exculpatory material.” Moldowan v. City of Warren, 578 F.3d 351, 379
(6th Cir. 2009).
Brady claims have three elements: “[1] the evidence at
issue must be favorable to the accused, either because it
is exculpatory, or because it is impeaching; [2] that evidence must have been suppressed by the State, either
willfully or inadvertently; and [3] prejudice must have
ensued.” Strickler v. Greene, 527 U.S. 263, 281-82 (1999).
The district court granted summary judgment to
Stoiker on the ground that Plaintiffs had failed to present
evidence sufficient for a reasonable jury to find the second element—that Stoiker had suppressed evidence. It
did so for two reasons. First, it held that there was insuf-

97a
ficient evidence for a jury to find that Stoiker was involved with the unconstitutional activity at all, noting that
Vernon had never identified Stoiker as one of the officers
involved.8 Second, even if Stoiker were involved, the district court held, there was insufficient evidence that he
was aware of any exculpatory evidence, and an officer
unaware of exculpatory evidence cannot suppress that
evidence.
We disagree with the district court’s reasoning. Given
the evidence in the record, although a jury might ultimately find that Stoiker did not suppress evidence, it
would not be unreasonable in finding that he had.
Consider the following evidence. Vernon testified that
Staimpel and another officer led him into a room after he
failed to identify Plaintiffs at a line-up and coerced him
into signing a false statement about that line-up. Staimpel testified at trial that (1) Stoiker was his partner and
(2) Stoiker was present for the line-up. Based on Staimpel’s testimony, a reasonable jury could infer that (3)
Stoiker was present during the post-line-up interview of
Vernon and (4) Stoiker was present when Vernon signed
his false statement explaining his “fear” of Plaintiffs.
In addition, the record contains a police report, signed
by Stoiker and dated the day that Vernon testified he
was coerced into signing a false statement by two detectives, detailing the version of the line-up and subsequent

8

“The only evidence that points to Stoiker’s involvement are the signatures on the statement and the report. However, even if those are
Stoiker’s signatures, Plaintiff has not cited to any policy, practice, or
procedure about the meaning or effect of signature [sic]. Therefore,
the Court is left to speculate as to what the signature meant.” Jackson v. City of Cleveland, CASE NO. 1:15CV989, 2017 WL 3380456, at
*3 (N.D. Ohio Aug. 4, 2017).

98a
interview that Vernon alleges were fabricated. The district court is correct that the report does not say that
Stoiker was involved in that line-up and interview, but a
jury is “allowed to make reasonable inferences from facts
proven in evidence having a reasonable tendency to sustain them,” Galloway v. United States, 319 U.S. 372, 396
(1943), and it is reasonable to infer that a detective who
signs a report was involved in the events recounted in
that report.
Because of this proof, a reasonable jury could find that
Stoiker was present when Vernon was coerced into signing the allegedly false statement, in which he claimed
that he had failed to identify Jackson and Bridgeman in
the line-up because he was afraid of them. And if Stoiker
was present when Vernon was coerced into signing the
allegedly false statement, he knew that Vernon had not
given fear of Plaintiffs as his true reason for not identifying them—in other words, that the statement was false.
That knowledge was exculpatory evidence. See Giglio v.
United States, 405 U.S. 150, 154 (1972) (“When the reliability of a given witness may well be determinative of
guilt or innocence, nondisclosure of evidence affecting
credibility falls within [Brady’s disclosure] rule.” (citation
and internal quotation marks omitted)). If Stoiker was
present, he also knew that detectives coerced Vernon’s
statement, which was a related, but separate, piece of exculpatory evidence. See id.
In addition, a reasonable jury could find that Stoiker
was aware of a third piece of exculpatory evidence.
While his possible awareness of this evidence is less
clear-cut than of the above-mentioned pieces of exculpatory evidence, it would not be unreasonable for a jury to
infer that Stoiker knew Vernon had said he had not seen
Plaintiffs commit the crime with which they were

99a
charged. Whether or not Stoiker was told by other officers that Vernon had not seen Plaintiffs commit the murder, Vernon stated that he was asked at the line-up “if I
could recognize anyone there who was at the shooting”
and that he answered that question in the negative.9 R.
99-3, PageID 1236.
Stoiker and the district court interpret that question
as asking whether Vernon recognized anyone in the lineup. Vernon interpreted it as asking whether he had seen
anyone in the line-up commit the crime.10 If Vernon’s interpretation is correct, then the officers present—which
a reasonable jury could find included Stoiker—knew that
Vernon was claiming he had not seen Plaintiffs commit
the crime when he answered “No” to their question. A
reasonable jury could find that Vernon, the only witness
to the events who has testified to the contents of that
conversation, interpreted the question correctly.
As Stoiker did not disclose any of this evidence to
prosecutors, a reasonable jury could find that Stoiker
suppressed exculpatory evidence in violation of Brady.
As to the third element of a Brady claim, a reasonable
jury could find that Plaintiffs suffered prejudice as a result of the alleged suppression. To show prejudice, Plaintiffs must show that the allegedly suppressed evidence
was “material;” in other words, “that there is a reasonable probability that the suppressed evidence would have
produced a different verdict.” Strickler, 527 U.S. at 280,
281. Because Vernon’s coerced statement formed the
9

As mentioned in section I(A), supra, Vernon alternatively recalled
that he may have been asked if “I see anybody that I recognize up
there.” R. 99-1, PageID 1190.
10
Vernon later explained that he answered in the negative because “I
didn’t seen happen [sic] on May 19, 1975.” R. 99-2, PageID 1233.

100a
core of the prosecution’s case, there is a reasonable likelihood that, had the juries in Plaintiffs’ trials known that
that statement was fabricated and coerced, or that
Vernon had orally stated that he had not seen the shooting, the juries would not have convicted Plaintiffs.
Therefore, a reasonable jury could find all three elements
of a Brady claim satisfied.
b. Fabricating Evidence
The Due Process Clause of the Fourteenth Amendment is also “violated when evidence is knowingly fabricated and a reasonable likelihood exists that the false evidence would have affected the decision of the jury.”
Gregory v. City of Louisville, 444 F.3d 725, 737 (6th Cir.
2006) (citing Stemler v. City of Florence, 126 F.3d 856,
872 (6th Cir. 1997)).
Stoiker presents two arguments for why summary
judgment was appropriate on this issue. First, he contends there was insufficient evidence that he was involved in the fabrication of Vernon’s statement. Second,
Stoiker argues there was insufficient evidence that the
fabricated statement affected the decision of the jury.
The district court agreed with both of Stoiker’s arguments.
Turning to the first argument, a reasonable jury could
find, as discussed in section II(C)(1)(a), supra, that
Stoiker was in the room when Vernon was initially intimidated, left the room with Staimpel, and then returned to
the room with Staimpel, at which point Staimpel coerced
Vernon into signing the statement. This does not necessarily entail that Stoiker participated in the creation of
the false statement, but a reasonable jury could infer that
Stoiker either drafted, or assisted Staimpel in drafting,
the false statement. If Stoiker was actively involved in

101a
the fabrication of the false statement, he knowingly fabricated evidence.
As for the second argument, there is, in fact, sufficient
evidence for a reasonable jury to conclude that the false
statement influenced the juries at Plaintiffs’ trials. True,
as the district court noted, although the statement was
introduced in evidence by the defense at Jackson’s trial,
it was used only by defense counsel in an attempt to impeach Vernon’s testimony and “it is unclear whether the
jury in the Jackson trial had the statement while they
were deliberating.”11 Jackson v. City of Cleveland,
CASE NO. 1:15CV989, 2017 WL 3380456, at *3 (N.D.
Ohio Aug. 4, 2017). Also, the statement was not admitted
in evidence at Bridgeman’s or Ajamu’s trial at all. And it
is fair to conclude, as the district court reasoned, that
“Vernon’s live testimony,” not the statement, “led to the
conviction[s] in all three trials.” Id.
But the relevant question is not whether the fabricated evidence was shown to the jury; it is whether the
statement affected the decision of the jury. For example,
a fabricated search warrant affidavit, used to obtain evidence later shown to the jury, can form the basis for a
fabrication-of-evidence suit. See Webb v. United States,
789 F.3d 647, 670 (6th Cir. 2015). And fabricated evidence that “is used as [the] basis for a criminal charge”
can form the basis for a § 1983 claim because, absent that
evidence, there would have been no jury. Halsey v.
Pfeiffer, 750 F.3d 273, 294 n.19 (3d Cir. 2014).

11

Although the possibility is ultimately unnecessary to our holding
on the fabrication-of-evidence claims, we note that because Vernon’s
statement was introduced in evidence at Jackson’s trial, a reasonable
jury could infer that the jury that convicted Jackson had access to
the statement at some point in their deliberations.

102a
A reasonable jury in the present case could find that
the fabricated statement impacted the juries’ decisions in
the criminal trials in at least two ways. First, the prosecutor testified that his understanding of Vernon’s statement was based on the copy in the police report and that,
if he had known what had actually happened on the day
of the line-up, he would have declined to prosecute: he
does not, as he put it, “believe in prosecuting innocent
people.” R. 114-29, PageID 5350. The prosecutor did not
speak to Vernon prior to bringing charges, and so the
false statement constituted the entire basis for his understanding of Vernon’s involvement. If Staimpel and
Stoiker had not fabricated Vernon’s statement, therefore,
charges would not have been brought, and, of course, a
jury that is never empaneled is a jury that does not return a guilty verdict.
A jury in the present case also could find that the falsified statement caused the criminal verdicts because the
statement coerced Vernon to testify in conformance with
it. Unlike Staimpel’s baseless threat to prosecute
Vernon’s parents if Vernon failed to sign a statement saying that he had seen Plaintiffs commit the crime, Vernon
would have faced a real threat of prosecution for perjury
had his testimony conflicted with his earlier signed
statement. See Osburn v. State, 7 Ohio 212, 214-15 (1835)
(admitting as evidence of perjury a paper signed by the
defendant).
A reasonable jury could therefore find both that
Stoiker participated in the fabrication of Vernon’s statement and that there is a reasonable probability the
statement affected the juries at Plaintiffs’ trials.

103a
c. Conspiracy to Withhold and Fabricate Evidence
To make out a claim for conspiracy to deprive them of
their due process rights, Plaintiffs must show “that (1) a
single plan existed, (2) the conspirators shared a conspiratorial objective to deprive the plaintiffs of their constitutional rights, and (3) an overt act was committed in furtherance of the conspiracy that caused the injury.” Robertson v. Lucas, 753 F.3d 606, 622 (6th Cir. 2014) (internal quotation marks omitted) (quoting Revis v. Meldrum,
489 F.3d 273, 290 (6th Cir. 2007)).
For the reasons discussed above, a reasonable jury
could find that Stoiker and Staimpel planned to draft a
false statement and coerce Vernon into signing that
statement and that they committed an overt act in furtherance of that plan. Further supporting the conspiracy
claim, it would not be unreasonable for a jury to infer
that the detectives planned to withhold the existence of
their acts from prosecutors for the purpose of tipping the
scales against Plaintiffs, as informing prosecutors of the
coercion would have rendered their actions meaningless.
However, the inquiry does not end there. We must also determine whether an individual can be held liable for
conspiracy when the alleged conspiracy was undertaken
by agreement with another individual or individuals employed by the same entity as the defendant.
The intracorporate conspiracy doctrine, which states
that if “all of the defendants are members of the same
collective entity, there are not two separate ‘people’ to
form a conspiracy,” has been applied to 42 U.S.C.
§ 1985(3) by this court. Johnson v. Hills & Dales Gen.
Hosp., 40 F.3d 837, 839-40 (6th Cir. 1994) (quoting Hull v.
Cuyahoga Valley Joint Vocational Sch. Dist. Bd. of

104a
Educ., 926 F.2d 505, 510 (6th Cir. 1991)). Section 1985(3)
creates a cause of action for a conspiracy between two or
more persons to deprive another of the equal protection
of the laws.
We have also held that the doctrine applies in § 1985(2)
suits. Doherty v. Am. Motors Corp., 728 F.2d 334, 339
(6th Cir. 1984). 42 U.S.C. § 1985(2) creates a cause of action for a conspiracy to, among other actions, obstruct
justice or to intimidate a party, witness, or juror.
But this circuit has never decided whether the intracorporate conspiracy doctrine also applies to suits under
§ 1983. See DiLuzio v. Vill. of Yorkville, 796 F.3d 604,
615 (6th Cir. 2015) (noting that “the Sixth Circuit has
never held that the intracorporate conspiracy doctrine
applies to municipal government officials in a § 1983 action and the district courts within our circuit are split on
this question”). To determine whether there is a genuine
dispute of material fact as to whether Stoiker conspired
to violate Plaintiffs’ constitutional rights, therefore, we
must resolve this issue of first impression.
We are aware of only one circuit, the Eleventh, that
has squarely addressed the issue and has determined
that the intracorporate conspiracy doctrine applies in
§ 1983 actions as in § 1985 actions. See Grider v. City of
Auburn, 618 F.3d 1240, 1261 (11th Cir. 2010); Rehberg v.
Paulk, 611 F.3d 828, 854 (11th Cir. 2010). By contrast,
we are aware of no circuit that has applied the doctrine in
§ 1985 actions but declined to apply it in § 1983 actions.12

12

Some courts have held that the doctrine does not apply in the civil
rights context at all. See, e.g., Brever v. Rockwell Int’l Corp., 40 F.3d
1119, 1126-27 (10th Cir. 1994).

105a
We join the Eleventh Circuit and hold that the intracorporate conspiracy doctrine applies in § 1983 suits to
bar conspiracy claims where two or more employees of
the same entity are alleged to have been acting within the
scope of their employment when they allegedly conspired
together to deprive the plaintiff of his rights. See Grider,
618 F.3d at 1261-62; cf. Johnson, 40 F.3d at 841 (“[W]hen
employees act outside the course of their employment,
they and the corporation may form a conspiracy under 42
U.S.C. § 1985(3).”). We so hold because the considerations that support applying the intracorporate conspiracy
doctrine in § 1985 suits pertain equally to the § 1983 context, and we discern no logical distinction upon which to
treat § 1983 conspiracy claims differently. Cf. Hull, 926
F.2d at 509-10 (holding that the intracorporate conspiracy doctrine applies to § 1985(3) claims and stating “that
this court’s opinion in Doherty [which applied the doctrine to § 1985(2)—not § 1985(3)—claims] is dispositive of
this issue”). Recognizing that district courts within this
circuit have split on the question,13 we will explain why

13

Compare Vaduva v. City of Xenia, No. 3:17-cv-41, 2017 WL
4773076, at *3 (S.D. Ohio Oct. 23, 2017) (applying the intracorporate
conspiracy doctrine in § 1983 suit); Gillespie v. City of Battle Creek,
100 F. Supp. 3d 623, 631-32 (W.D. Mich. 2015) (same); Wright v.
Bloomfield Twp., No. 12-15379, 2014 WL 5499278, at *15-16 (E.D.
Mich. Oct. 30, 2014) (same); Pardi v. Cty. of Wayne, No. 12-12063,
2013 WL 1011280, at *14-15 (E.D. Mich. Mar. 14, 2013) (same); Audio Visual Equip. & Supplies, Inc. v. Cty. of Wayne, No. 06-10904,
2007 WL 4180974, at *5-6 (E.D. Mich. Nov. 27, 2007) (same); Adcock
v. City of Memphis, No. 06-2109, 2007 WL 784344, at *4-5 (W.D.
Tenn. Mar. 13, 2007) (same); Turner v. Viviano, No. 04-CV-70509DT, 2005 WL 1678895, at *13 (E.D. Mich. July 15, 2005) (same), with
Tinney v. Richland Cty., No. 1:14 CV 703, 2015 WL 542415, at *12
(N.D. Ohio Feb. 10, 2015) (declining to apply the doctrine in a § 1983
suit), aff’d on other grounds, 678 F. App’x 362 (6th Cir. 2017); Kin-

106a
the reasons for applying the doctrine to § 1983 outweigh
the reasons for not doing so.
The intracorporate conspiracy doctrine was recognized in antitrust and civil rights cases based on the legal
notion of corporations as “persons.” See Copperweld
Corp. v. Indep. Tube Corp., 467 U.S. 752, 769 n.15 (1984);
Doherty, 728 F.2d at 339. When employees of a corporation act to further the purposes of that “person,” principles from the law of agency dictate that those employees
be treated not as separate “persons” but as part of the
same “person.” See Hull, 926 F.2d at 509-10; Doherty,
728 F.2d at 339. We have recognized the relevance of
these principles to suits against employees of local government entities as well as against employees of private
corporations. See Hull, 926 F.2d at 509-10. Furthermore, the Supreme Court has made clear that municipalities are “persons” for purposes of § 1983. Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 690 (1978).
Because the intracorporate conspiracy doctrine follows from the legal definition of “person,” which includes
local governments, the doctrine has been developed to
deal with the question whether there are two separate
persons to form a conspiracy. See Hull, 926 F.2d at 510.
The doctrine’s application to other civil rights statutes
has not been premised upon any factor unique to those
statutes. We therefore see no reason to decline to apply
the doctrine to § 1983. Section 1983 creates a cause of
action against any “person” who deprives a plaintiff of his
rights, just like § 1985. Therefore, if § 1985 cannot be violated by an alleged conspiracy where the alleged con-

kus v. Vill. of Yorkville, 476 F. Supp. 2d 829, 839-40 (S.D. Ohio 2007)
(same), rev’d on other grounds, 289 F. App’x 86 (6th Cir. 2008).

107a
spirators are all employees of the same entity acting
within the scope of their employment, neither can § 1983.
Furthermore, we decline to adopt the rationale that
because “[§]1985 is in its essence a conspiracy statute[,]
[while] [§]1983 is not,” the intracorporate conspiracy doctrine applies to the former but not the latter. Kinkus v.
Vill. of Yorkville, 476 F. Supp. 2d 829, 840 (S.D. Ohio
2007). Although § 1983 does not expressly contemplate a
cause of action for conspiracy, once we have recognized
such a cause of action—which we have, see, e.g., DiLuzio,
796 F.3d at 615-16—the question whether a conspiracy
can exist where all alleged conspirators work for the
same entity, and are alleged to have been acting in the
scope of their employment, naturally arises. That inquiry
is identical under § 1983 and § 1985. After all, we did not
apply the intracorporate conspiracy doctrine in § 1985
actions on a theory that the text of that particular statutory provision demanded it. Instead, we simply adopted
a conspiracy jurisprudence that developed outside the
civil rights context. See Hull, 926 F.2d at 509.
Nor do we see any reason to limit application of the
doctrine to cases in which a municipality is alleged to
have conspired with one or more of its employees, in contrast to cases in which two or more employees are alleged
only to have conspired with each other. We have made
clear that “members of the same legal entity cannot conspire with one another as long as their alleged acts were
within the scope of their employment.” Jackson v. City
of Columbus, 194 F.3d 737, 753 (6th Cir. 1999) (emphasis
added) (citing Johnson, 40 F.3d at 840), abrogated on
other grounds by Swierkiewicz v. Sorema N. A., 534 U.S.
506 (2002); accord Hull, 926 F.2d at 510. In Hull, we applied the doctrine to bar the plaintiff’s § 1985(3) claim alleging conspiracy against “a school district superinten-

108a
dent, the executive director of the district, and a school
administrator, all of whom [were] employees or agents of
the Board [of Education].” 926 F.2d at 510. The plaintiff
did not allege that the school board itself was a conspirator, but we noted that “[s]ince all of the defendants
[were] members of the same collective entity, there
[were] not two separate ‘people’ to form a conspiracy.”
Id.
Finally, we have recognized an exception to the intracorporate conspiracy doctrine in § 1985(3) suits where the
defendants were alleged to have been acting outside the
scope of their employment, see Johnson, 40 F.3d at 841,
and we have indicated that the exception would apply
equally in the § 1983 context were we to apply the doctrine in § 1983 suits, see DiLuzio, 796 F.3d at 616. Accordingly, the intracorporate conspiracy doctrine applies
to § 1983, and we assume that adopting the doctrine entails adopting the exception. Cf. DiLuzio, 796 F.3d at
616. But the scope-of-employment exception is unsupported by the record here because Plaintiffs have alleged
that Stoiker and the other individual Defendants were
acting “within the scope of their employment.” R. 86,
PageID 1018; No. 17-3843, R. 53, PageID 707.
Therefore, as a matter of law, Stoiker cannot be liable
for conspiracy in violation of § 1983 where he is alleged to
have conspired with other employees of the same government entity, in the scope of their employment, to violate Plaintiffs’ rights. The district court’s grant of summary judgment to Stoiker on the conspiracy claims is
AFFIRMED.
d. Malicious Prosecution
The Fourth Amendment begins: “The right of the
people to be secure in their persons, houses, papers, and

109a
effects, against unreasonable searches and seizures, shall
not be violated.” U.S. Const. amend. IV. Amongst other
protections, this guarantee affords people the right to be
free of unjust prosecution. See Mills v. Barnard, 869
F.3d 473, 479-80 (6th Cir. 2017).14
A malicious-prosecution claim has four elements: “(1)
that a criminal prosecution was initiated against the
plaintiff and that the defendant ma[d]e, influence[d], or
participate[d] in the decision to prosecute; (2) that there
was a lack of probable cause for the criminal prosecution;
(3) that, as a consequence of a legal proceeding, the plaintiff suffered a deprivation of liberty . . . apart from the
initial seizure; and (4) that the criminal proceeding must
have been resolved in the plaintiff’s favor.”15 Id. at 480

14

Although we now analyze constitutional claims for malicious prosecution under the Fourth Amendment, “[p]rior to January 1994 . . .
this circuit analyzed [such claims] as accruing under the Fourteenth
rather than the Fourth Amendment.” Spurlock v. Satterfield, 167
F.3d 995, 1006 (6th Cir. 1999) (citations omitted). We ceased doing
so after the Supreme Court held in Albright v. Oliver, 510 U.S.
266, 271, 273-75 (1994) that malicious-prosecution claims must be
asserted under the Fourth Amendment rather than the Fourteenth. In so holding, the Albright Court recognized “the Fourth
Amendment’s relevance to the deprivations of liberty that go
hand in hand with criminal prosecutions.” Id. at 274 (citing Gerstein v. Pugh, 420 U.S. 103, 114 (1975)).
15

There are two types of § 1983 claims, both sounding in the Fourth
Amendment, that are sometimes referred to as “malicious prosecution” claims. One is for the wrongful institution of legal process
(which is the type most properly called a “malicious prosecution”
claim) and the other is for continued detention without probable
cause. See Cleary v. Cty. of Macomb, 409 F. App’x 890, 898 (6th Cir.
2011); see also Gregory, 444 F.3d at 747-49 (stating that claims for
continued detention without probable cause are not properly considered “malicious prosecution” claims, but recognizing that courts’ use
of terminology varies). Although Plaintiffs are not always clear as to

110a
(alterations in original) (internal quotation marks omitted) (quoting Sykes v. Anderson, 625 F.3d 294, 308-09
(6th Cir. 2010)).
There being no dispute that Plaintiffs suffered a deprivation of liberty or that the criminal proceedings were
resolved in their favor, we need only address the first two
elements.
i. Stoiker Influenced or Participated in
the Decision to Prosecute
The first element of the malicious-prosecution claim is
met when an officer “could reasonably foresee that his
misconduct would contribute to an independent decision
that results in a deprivation of liberty” and the misconduct actually does so. Sykes, 625 F.3d at 316 (quoting
Higazy v. Templeton, 505 F.3d 161, 177 (2d Cir. 2007)).
This element is met when an officer includes “misstatements and falsehoods in his investigatory materials” and
those materials influence a prosecutor’s decision to bring
charges. Id.
A reasonable jury could find that Stoiker’s misconduct
influenced the decision to bring charges against Plaintiffs
for two reasons. First, Stoiker and Staimpel “[c]onsulted
with [the prosecutor] who issued papers charging [Plaintiffs] with [homicide].” R. 114-28, PageID 5321. Although the record does not indicate the contents of that
consultation, it is reasonable to infer that it involved false
statements about Vernon’s identification of Plaintiffs and
that this consultation influenced the prosecutor’s decision
to bring charges against Plaintiffs.

their intended theory of liability, they and Stoiker state the test for,
and perform their analysis under, the wrongful institution of legal
process theory, and we will do the same.

111a
Second, the prosecutor’s only knowledge of Vernon’s
involvement when deciding to bring charges was based
on Vernon’s statement, a statement that a jury could reasonably find to have been fabricated by Stoiker. And the
prosecutor later testified that had he known about what
actually happened on the day of the line-up—because
Stoiker and Staimpel had told him during conversation,
or because they had drafted an accurate statement for
Vernon, or because Stoiker had drafted an accurate report concerning that day’s events—the prosecutor would
not have proceeded to trial.
ii. There Was a Lack of Probable Cause for
the Criminal Prosecution
When a grand jury returns an indictment against a defendant, this creates a “presumption of probable cause,”
which is rebuttable by showing that:
(1) [A] law-enforcement officer, in the course of setting a prosecution in motion, either knowingly or
recklessly ma[de] false statements (such as in affidavits or investigative reports) or falsifie[d] or fabricate[d] evidence; (2) the false statements and evidence, together with any concomitant misleading
omissions, [we]re material to the ultimate prosecution of the plaintiff; and (3) the false statements, evidence, and omissions d[id] not consist solely of
grand-jury testimony or preparation for that testimony (where preparation has a meaning broad
enough to encompass conspiring to commit perjury
before the grand jury).
King v. Harwood, 852 F.3d 568, 587-88 (6th Cir. 2017).
As discussed above, a reasonable jury could find that
Stoiker falsified or fabricated evidence, and that the evidence did not consist solely of grand-jury testimony or

112a
preparation for that testimony. Stoiker argues, however,
that even if he fabricated Vernon’s false statement, that
statement could not have been material to the grand jury’s determination of probable cause, as it was not presented to the grand jury. Although Vernon may have
testified to the grand jury in conformance with his fabricated statement, Stoiker argues, it was Vernon’s testimony, not the earlier statement, that impacted the grand
jury’s decision.
But a careful reading of King shows that fabricated
evidence can be material to a grand jury’s determination
of probable cause without being presented to the grand
jury. If only evidence presented to a grand jury could be
material to that grand jury’s decision, plaintiffs would be
faced with the Scylla and Charybdis of either admitting
that the fabricated evidence was not material or claiming
that it was material because it was presented to the
grand jury, thereby gracing the fabricator with the absolute immunity afforded to grand jury testimony. See id.
at 589.
Instead, plaintiffs can show that a fabrication was material to the grand jury’s determination by showing “that
the officer has made knowing or reckless false statements or has falsified or fabricated evidence in the course
of setting a prosecution in motion.” Id. Here, according
to the prosecutor, had Stoiker not fabricated Vernon’s
statement, there would have been no grand jury. But
even had there been one, Vernon would not have testified
falsely before it. Stoiker’s fabrication was therefore material to the grand jury’s determination because it “was

113a
material to the ultimate prosecution” of Plaintiffs.16 Id.
at 587-88.
2. Qualified Immunity
The statute now codified at 42 U.S.C. § 1983 was originally passed in 1871. It was not until the second half of
the twentieth century that the Supreme Court recognized that § 1983 admitted of an implicit doctrine, born of
the common law, known as qualified immunity. See
Pierson v. Ray, 386 U.S. 547, 555, 557 (1967). Since then
this doctrine has grown considerably, but not without its
critics. See, e.g., Kisela v. Hughes, 138 S. Ct. 1148, 1162
(2018) (Sotomayor, J., dissenting) (arguing that a “onesided approach to qualified immunity transforms the doctrine into an absolute shield for law enforcement officers,
gutting the deterrent effect of the Fourth Amendment”).
Qualified immunity has outgrown its original justifications, which were “rooted in historical analogy” and
“based on the existence of common-law rules in 1871.”
Wyatt v. Cole, 504 U.S. 158, 170 (1992) (Kennedy, J., concurring).
Responding to the many and varied suits brought under § 1983, the judiciary recrafted that limited version of
the doctrine of qualified immunity in an effort to protect
public officials “from undue interference with their duties
and from potentially disabling threats of liability.” Elder
v. Holloway, 510 U.S. 510, 514 (1994) (quoting Harlow v.
Fitzgerald, 457 U.S. 800, 806 (1982)). We therefore no
longer “attempt[ ] to locate [the qualified immunity]
standard in the common law as it existed in 1871,” Ziglar
v. Abbasi, 137 S. Ct. 1843, 1871 (2017) (Thomas, J., concurring), but instead attempt to determine whether a de16

Stoiker does not argue that there was sufficient evidence to find
probable cause to prosecute Plaintiffs absent Vernon’s testimony.

114a
fendant, by his conduct, “violate[d] clearly established
statutory or constitutional rights of which a reasonable
person would have known,” Harlow, 457 U.S. at 818.
At issue in this appeal is whether, in 1975, the constitutional rights allegedly violated by Stoiker were sufficiently clearly established to deprive him of the protection of qualified immunity. It is a plaintiff’s burden to
show that the right at issue was clearly established.
Harris v. Klare, 902 F.3d 630, 637 (6th Cir. 2018). Although the Supreme Court “do[es] not require a case directly on point for a right to be clearly established, existing precedent must have placed the statutory or constitutional question beyond debate.” White v. Pauly, 137 S.
Ct. 548, 551 (2017) (alteration in original) (internal quotation marks omitted) (quoting Mullenix v. Luna, 136 S.
Ct. 305, 308 (2015)). In examining “existing precedent,”
“we may rely on decisions of the Supreme Court, decisions of this court and courts within this circuit, and in
limited instances, on decisions of other circuits.” Spurlock v. Satterfield, 167 F.3d 995, 1006 (6th Cir. 1999) (citations omitted); accord Hearring v. Sliwowski, 712 F.3d
275, 280 (6th Cir. 2013).
The Supreme Court has recognized “that officials can
still be on notice that their conduct violates established
law even in novel factual circumstances” and has “rejected a requirement that previous cases be ‘fundamentally
similar’” to the facts in a case to render qualified immunity inapplicable. Hope v. Pelzer, 536 U.S. 730, 741 (2002)
(quoting United States v. Lanier, 520 U.S. 259, 263
(1997)); see also id. at 753-54 (Thomas, J., dissenting)
(“Certain actions so obviously run afoul of the law that an
assertion of qualified immunity may be overcome even
though court decisions have yet to address materially
similar conduct.” (internal quotation marks omitted)).

115a
And we have noted that “‘[g]eneral statements of the law’
are capable of giving clear and fair warning to officers
even where ‘the very action in question has [not] previously been held unlawful.’” Smith v. Cupp, 430 F.3d 766,
776-77 (6th Cir. 2005) (second alteration in original)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)).
a. Withholding Exculpatory Evidence
In 1975, it was clearly established law that prosecutorial withholding of exculpatory evidence violates a criminal defendant’s Fourteenth Amendment right to due process. See Brady v. Maryland, 373 U.S. 83, 86-87 (1963).
Multiple circuits had also recognized by that time that
“Brady-derived” claims could be based on the conduct of
law-enforcement officers—as distinct from prosecutors—
who had allegedly withheld exculpatory evidence. See
Clarke v. Burke, 440 F.2d 853, 855 (7th Cir. 1971) (“This
is not to say that there can never be a due process violation if the prosecutor does not know that the police has in
its possession evidence possibly favorable to the defendant . . . . It has been held . . . that knowledge of the police
is knowledge of the prosecutor . . . . ” (citations omitted));
Smith v. Florida, 410 F.2d 1349, 1351 (5th Cir. 1969)
(“[I]t makes no difference if the withholding is by the
prosecutor or by officials other than the prosecutor.” (citing Barbee v. Warden, Md. Penitentiary, 331 F.2d 842
(4th Cir. 1964))); Barbee, 331 F.2d at 846; cf. Jackson v.
Wainwright, 390 F.2d 288, 295, 298 (5th Cir. 1968) (noting that “lower federal courts” applying Brady “ha[d]
emphasized the harm to the defendant rather than the
prosecutor’s motive in failing to disclose exculpatory evidence” and finding a violation of the “duty to disclose . . .
exculpatory statements” where “there was no evidence of
the prosecutor’s bad faith or of overreaching by the pros-

116a
ecution” (emphasis added)); Curran v. Delaware, 259
F.2d 707, 713 (3d Cir. 1958) (finding a violation of the
Fourteenth Amendment when a police officer perjured
himself at trial, regardless of whether the prosecutor was
aware of the perjury).
In Barbee, decided the year after Brady, the Fourth
Circuit addressed the habeas claim of a man who argued
his conviction violated due process because lawenforcement officers had not disclosed the existence of
ballistics and fingerprint reports that “cast grave doubt
upon” his guilt. Barbee, 331 F.2d at 844. Responding to
the state’s argument that the man was required, and had
failed, to show that the prosecutor knew about the reports, the court stated:
Nor is the effect of the nondisclosure neutralized
because the prosecuting attorney was not shown to
have had knowledge of the exculpatory evidence.
Failure of the police to reveal such material evidence in their possession is equally harmful to a defendant whether the information is purposely, or
negligently, withheld. And it makes no difference if
the withholding is by officials other than the prosecutor. The police are also part of the prosecution,
and the taint on the trial is no less if they, rather
than the State’s Attorney, were guilty of the nondisclosure. If the police allow the State’s Attorney
to produce evidence pointing to guilt without informing him of other evidence in their possession
which contradicts this inference, state officers are
practicing deception not only on the State’s Attorney but on the court and the defendant . . . . If the
police silence as to the existence of the reports resulted from negligence rather than guile, the deception is no less damaging.

117a
The duty to disclose is that of the state, which
ordinarily acts through the prosecuting attorney;
but if he too is the victim of police suppression of
the material information, the state’s failure is not on
that account excused.
Id. at 846 (footnotes omitted).
The above cases, decided prior to Plaintiffs’ trials,
make clear that the duty to disclose evidence falls on the
state as a whole and not on one officer of the state particularly, and it was therefore clearly established by the
time of those trials that Stoiker had a Fourteenth
Amendment obligation to disclose exculpatory evidence.
It was also clearly established that impeachment evidence, such as the fact that a witness was coerced into
making a fabricated statement, qualifies as exculpatory.
See Giglio v. United States, 405 U.S. 150, 153-55 (1972)
(holding that evidence that the government had procured
an informant’s testimony by suggesting he could escape
prosecution through cooperating was “material” evidence
“affecting credibility” that should have been disclosed to
the defense under Brady).
Stoiker argues that a Seventh Circuit case shows that
it is not clearly established even now that officers are under a Brady obligation to disclose their own or fellow officers’ fabrication of evidence. In Saunders-El v. Rohde,
778 F.3d 556, 558 (7th Cir. 2015), the plaintiff sued police
officers under Brady, alleging that the officers failed to
disclose that they had severely beaten the plaintiff and
planted his blood at a crime scene. The Seventh Circuit
held that the plaintiff had not alleged a violation of Brady
because “Brady does not require the creation of exculpatory evidence, nor does it compel police officers to accu-

118a
rately disclose the circumstances of their investigations
to the prosecution.” Id. at 562.
Even if we were bound by Saunders-El, which we are
not, it would not foreclose our holding. Because Brady
and its progeny are concerned only with ensuring that a
defendant receives a fair trial, “Brady is concerned only
with cases in which the government possesses information which the defendant does not.” United States v.
Graham, 484 F.3d 413, 417 (6th Cir. 2007) (citation omitted). And so if a defendant knows at the time of trial that
the government has fabricated evidence, as in SaundersEl,17 officers do not violate Brady by failing to tell prosecutors that evidence has been fabricated.18 Had Plaintiffs
argued that Stoiker violated Brady only by failing to disclose that Vernon’s statement was inaccurate, Stoiker’s
reliance on Saunders-El might be appropriate, as Plaintiffs already knew that Vernon’s statement was inaccurate. But Plaintiffs did not know that Vernon’s statement
had been coerced, and that fact could have been used to
impeach Vernon’s testimony at trial. Therefore, Stoiker
had an obligation to disclose that fact to Plaintiffs.
Finally, as discussed in section II(C)(1)(a), supra, an
additional piece of exculpatory evidence that Stoiker may
have possessed was the knowledge of Vernon’s uncoerced statement to Terpay and Farmer that he had not
seen the shooting at all. That statement was exculpatory
evidence separate from the fact that Vernon’s signed

17

In describing the circumstances of the alleged fabrication of crimescene evidence underlying his Brady claim, the Saunders-El plaintiff
indicated that he had known about the fabrication all along. See
Saunders-El, 778 F.3d at 558.
18
This does not necessarily entail that such a situation would involve
no other constitutional violations, of course.

119a
statement was false, and there is no evidence that Plaintiffs knew of Vernon’s exculpatory statement. Therefore,
even if Saunders-El were controlling, we would hold that
Plaintiffs had alleged a violation of clearly established
rights with regard to Stoiker’s alleged withholding of exculpatory evidence of which Plaintiffs were not aware.
Stoiker is not entitled to qualified immunity on the
withholding-of-evidence claims.
b. Fabricating Evidence
It is difficult to countenance any argument that a lawenforcement officer in 1975 would not be “on notice [his]
conduct [was] unlawful” when coercing a witness into
perjuring himself in a capital trial. Hope, 536 U.S. at 739
(citation omitted). The obvious injustice inherent in fabricating evidence to convict three innocent men of a capital offense put Stoiker on notice that his conduct was unlawful. Cf. id. at 745 (stating, in evaluating qualified immunity in the Eighth Amendment context, that “[t]he obvious cruelty inherent in [tying a prisoner to a hitching
post “for an extended period of time in a position that
was painful, and under circumstances that were both degrading and dangerous”] should have provided respondents with some notice that their alleged conduct violated
[the prisoner’s] constitutional protection against cruel
and unusual punishment”).
More concretely, as far back as 1935, the Supreme
Court recognized that the introduction of fabricated evidence violates “the fundamental conceptions of justice
which lie at the base of our civil and political institutions.”
Mooney v. Holohan, 294 U.S. 103, 112 (1935) (citing
Hebert v. Louisiana, 272 U.S. 312, 316 (1926)). And in
1942, the Supreme Court held that when a witness perjures himself because of threats from police officers, the

120a
defendant suffers “a deprivation of rights guaranteed by
the Federal Constitution.” Pyle v. Kansas, 317 U.S. 213,
216 (1942).
The only difference between those cases and the present one is that those cases involved the use of fabricated
evidence at trial, whereas this one involves the use of fabricated evidence to affect a jury in a manner other than
by introducing the evidence at trial.19 However, we have
recognized that a Fourth Amendment claim based on the
fabrication of evidence does not require that “false testimony [have been] given at trial.” Spurlock, 167 F.3d at
1007. And we can see no principled distinction, for purposes of qualified immunity, between such a claim and
Plaintiffs’ claims here that they were deprived of their
Fourteenth Amendment due process rights through the
use of fabricated evidence. The alleged misconduct here
is the use of the falsified statement to procure testimony
in conformance with it—the same type of misconduct that
we have previously found supported recovery for a constitutional tort, irrespective of the stage at which the fabrication tainted the proceeding. See id.
As far as clearly established law in 1975 is concerned,
several months before the events at issue in this case,
this court stated that Mooney “made it clear that the
Fourteenth Amendment right to due process prohibits a
knowing and deliberate use by a state of perjured evidence in order to obtain a conviction.” Burks v. Egeler,
512 F.2d 221, 224 (6th Cir. 1975). More recently, we have

19

Although we assume for the purpose of this analysis that the allegedly fabricated evidence did not affect the proceedings through being used at trial, we again note that Vernon’s statement was used by
defense counsel at Jackson’s trial, and a reasonable jury could find
that the statement was considered by Jackson’s jury in some way.

121a
cited Brady, Pyle, and Mooney in finding that a defendant officer could not “seriously contend that a reasonable
police officer would not know that [his] actions [including
fabricating evidence] were inappropriate and performed
in violation of an individual’s constitutional . . . rights.”
Spurlock, 167 F.3d at 1005-06 (also citing Albright v. Oliver, 510 U.S. 266, 274 (1994)). In Spurlock (a maliciousprosecution case), the defendant argued that Albright,
and the Sixth Circuit case explicitly finding that malicious prosecution violated clearly established rights, had
been decided after his conduct and therefore did not put
him on notice. See Spurlock, 167 F.3d at 1006 n.19 (discussing generally Albright and Smith v. Williams, 78
F.3d 585, 1996 WL 99329 (6th Cir. 1996) (unpublished table opinion)). Rejecting that argument, we stated that
“the fundamental principle that an individual has a constitutional right to be free from malicious prosecution . . .
was clearly established well before either of [the] cases
[cited by the defendant] was decided.” Id. The reasoning
in Spurlock is sound, and we follow it in holding that
Stoiker was on notice in 1975 that it was unlawful for him
to fabricate evidence.
Stoiker is not entitled to qualified immunity on the
fabrication-of-evidence claims.
c. Malicious Prosecution
Stoiker argues that he is entitled to qualified immunity because Plaintiffs “fail to identify a pre-1975 case that
would clearly establish that a police officer could be held
liable for malicious prosecution where he did not actively
participate in the prosecution [and] did not testify before
the grand jury or at trial.” Stoiker Br. at 51. Stoiker’s
argument admits of two interpretations, one of which is
possibly valid but has false premises and the other of
which has true premises but is invalid.

122a
Stoiker might be arguing that the state of malicious
prosecution law in 1975 was in flux and that it was not
clear at that time that he could be liable under a malicious prosecution cause of action. That may be true, but
it does not follow that he is protected by qualified immunity. Whether a defendant is protected by qualified immunity turns not on whether the defendant was on notice
that his actions satisfied the elements of a particular
cause of action, but instead on whether the defendant
was on notice that his actions violated the laws of the
United States. Recently, when presented with a similar
argument to Stoiker’s, we responded:
[The defendant] spends a considerable portion of
his brief illustrating why it is not clear that he
should be liable for malicious prosecution, thus reasoning that he is entitled to qualified immunity.
Yet, his claim that the contours of our jurisprudence concerning malicious prosecution are not entirely clear misses the point. Our inquiry is whether [the defendant’s] alleged actions—arresting and
detaining [the plaintiff] based on false pretenses
and then seeking an arrest warrant based on these
false statements—violated [the plaintiff’s] clearly
established constitutional rights. We conclude that
they did.
Miller v. Maddox, 866 F.3d 386, 395 (6th Cir. 2017), cert.
denied, 138 S. Ct. 2622 (2018). In short, “the sine qua
non of the ‘clearly established’ inquiry is ‘fair warning,’”
Baynes v. Cleland, 799 F.3d 600, 612-13 (6th Cir. 2015)
(quoting Hope, 536 U.S. at 741), and we ask only “whether it would be clear to a reasonable officer that his conduct was unlawful in the situation he confronted,” id. at
610 (quoting Saucier v. Katz, 533 U.S. 194, 202 (2001)).

123a
Stoiker’s argument may, on the other hand, be that it
was not clear in 1975 that an officer who fabricated evidence but did not testify for the prosecution had violated
the laws of the United States. If this were true, he would
be protected by qualified immunity. It is not, and he is
not.
For Plaintiffs’ claims to survive summary judgment, it
must have been clearly established that where an officer
fabricates evidence against a defendant and then withholds exculpatory evidence from the prosecution, but
does not testify at trial or a grand jury hearing, he is “influenc[ing]” the decision to initiate the prosecution in a
way that violates the defendant’s constitutional rights.
Mills v. Barnard, 869 F.3d 473, 480 (6th Cir. 2017).
Stoiker cites no case requiring testimony as an element of a § 1983 claim for malicious prosecution and no
case suggesting that testifying is required in order to influence the decision to prosecute. To the contrary, this
court held long before 1975 that if officers arrested a
suspect without a warrant (in violation of state law), and
“subjected [that suspect] to fraudulent trial in a criminal
case” that resulted in wrongful conviction, the officers
caused the suspect “a deprivation of [her] liberty without
due process of law.” McShane v. Moldovan, 172 F.2d
1016, 1019 (6th Cir. 1949). The court in McShane made
no mention of whether the officers had testified against
the suspect, and with good cause: the crux of the violation
is the institution of judicial processes without probable
cause, which does not require a testimonial act.
In conjunction with the cases cited in section
II(C)(2)(b), supra, McShane is sufficient to have clearly
established before May 1975 that an officer need not testify in order to violate a defendant’s right to due process.
That the phrase “malicious prosecution” was not used in

124a
that case to describe the cause of action is immaterial;
what matters are the actions allegedly taken by Stoiker,
not the name we give to the claim used to seek redress
for those actions. Stoiker is therefore not entitled to
qualified immunity on the malicious-prosecution claims.
3. Conclusion
For the foregoing reasons, we REVERSE the district
court’s grant of summary judgment to Stoiker as to the
Fourteenth Amendment claims for fabrication of evidence and for withholding of exculpatory evidence in violation of Brady, and the Fourth Amendment claims for
malicious prosecution.20 But we AFFIRM the grant of
summary judgment as to the conspiracy claims.

20

The concurring opinion argues that we should not reach the qualified immunity question at this stage because “[t]his case fits into the
narrow category of fact intensive cases where it is appropriate for
the jury to decide the issue of qualified immunity only after they decide which party they believe.” Concurring Opinion at 53. We respectfully disagree. Although it is true that a genuine dispute of material fact exists as to whether Stoiker was “present and involved in”
withholding exculpatory evidence, fabricating evidence, or initiating
a malicious prosecution, Concurring Opinion at 54, it is also true that
if the jury finds he was involved, the only question remaining will be
a purely legal one: whether Plaintiffs’ rights were clearly established. See Mitchell v. Forsyth, 472 U.S. 511, 526 (1985) (recognizing
that “whether the conduct of which the plaintiff complains violate[s]
clearly established law” is an “essentially legal question”); see also
Brandenburg v. Cureton, 882 F.2d 211, 215 (6th Cir. 1989) (noting
that the question whether a defendant’s conduct violates clearly established rights “is a legal question to be decided by the court” (citation omitted)). Indeed, the concurring opinion appears to agree that
“the law of withholding exculpatory evidence, fabricating evidence,
and malicious prosecution was clearly established in this context as
of 1975.” Concurring Opinion at 54. Because the legal question
whether Plaintiffs’ rights were clearly established in 1975 has been
answered, and because if the evidence is viewed in the light most

125a
D. Cleveland’s Motion for Summary Judgment
The cause of action created by § 1983 may be exercised
only against a “person who . . . causes to be subjected,
any citizen of the United States or other person within
the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and
laws.” 42 U.S.C. § 1983. The Supreme Court has interpreted the word “person” broadly, and certain polities,
including municipalities, are considered persons for purposes of § 1983 liability. Monell v. Dep’t of Soc. Servs.,
436 U.S. 658, 690 (1978).
Although “person” has been given a wide meaning under § 1983, when the person is a municipality, liability attaches only under a narrow set of circumstances: “A municipality may not be held liable under § 1983 on a respondeat superior theory—in other words, ‘solely because it employs a tortfeasor.’ ” D’Ambrosio v. Marino,
747 F.3d 378, 388-89 (6th Cir. 2014) (quoting Monell, 436
U.S. at 691). Instead, a plaintiff must show that “through
its deliberate conduct, the municipality was the ‘moving
force’ behind the injury alleged.” Alman v. Reed, 703
F.3d 887, 903 (6th Cir. 2013) (quoting Bd. of Cty.
Comm’rs v. Brown, 520 U.S. 397, 404 (1997)). A plaintiff
does this by showing that the municipality had a “policy
or custom” that caused the violation of his rights. Monell, 436 U.S. at 694.
There are four methods of showing the municipality
had such a policy or custom: the plaintiff may prove “(1)
the existence of an illegal official policy or legislative enfavorable to Plaintiffs, Stoiker violated those rights, it is appropriate
for this court to deny Stoiker qualified immunity at this stage of the
litigation. See Harlow, 457 U.S. at 816 n.26, 818-19; Heflin v. Stewart Cty., 958 F.2d 709, 717 (6th Cir. 1992).

126a
actment; (2) that an official with final decision making authority ratified illegal actions; (3) the existence of a policy
of inadequate training or supervision; or (4) the existence
of a custom of tolerance or acquiescence of federal rights
violations.” Burgess v. Fischer, 735 F.3d 462, 478 (6th
Cir. 2013) (citation omitted).
Plaintiffs argue that they have provided evidence sufficient to make out a Monell claim under the first theory,
as GPO 19-73 caused the violation of their Brady rights,
and the third theory, as Cleveland’s failure to train its
officers in Brady caused the violation of their Brady
rights. Cleveland disagrees, as did the district court.21

21

Plaintiffs also argue that they have a third Monell claim based on
Cleveland’s failure to adopt an adequate policy to prevent Brady
violations. The district court ruled against Plaintiffs on this theory,
finding that they had not established that Cleveland had failed to
adopt adequate policies to train officers in Brady’s requirements.
Jackson v. City of Cleveland, CASE NO. 1:15CV989, 2017 WL
3336607, at *4 (N.D. Ohio Aug. 4, 2017). We decline to analyze this
theory separately. Plaintiffs cite no Sixth Circuit or Supreme Court
case in support of their theory that they have a Monell claim—
separate from their failure-to-train claim—based on Cleveland’s unconstitutional failure to adopt a policy. Instead, the relevant cases
they cite are failure-to-train cases. See City of Canton v. Harris, 489
U.S. 378, 391 (1989); Gregory v. City of Louisville, 444 F.3d 725, 755
(6th Cir. 2006); Miller v. Calhoun Cty., 408 F.3d 803, 816-17 (6th Cir.
2005). That makes sense: the harm alleged and the analysis required
under the failure-to-train theory are functionally indistinguishable
from the harm Plaintiffs allege and the analysis they wish us to conduct under the failure-to-adopt-a-policy theory. Indeed, the district
court stated that to prevail on their failure-to-adopt theory, Plaintiffs
needed to show Cleveland was deliberately indifferent to the high
likelihood of violations in the absence of a policy. See Jackson, 2017
WL 3336607, at *4 (citing Miller, 408 F.3d at 816-17). As we discuss
below, Plaintiffs must make the same showing for their failure-totrain claim.

127a
1. Official Policy
“[T]o satisfy the Monell requirements a plaintiff must
‘identify the policy, connect the policy to the city itself
and show that the particular injury was incurred because
of the execution of that policy.’ ” Garner v. Memphis Police Dep’t, 8 F.3d 358, 364 (6th Cir. 1993) (quoting Coogan
v. City of Wixom, 820 F.2d 170, 176 (6th Cir. 1987)).
When proceeding under the first theory of Monell liability, under which a plaintiff must show an official policy
or legislative enactment, the plaintiff must show that
there were “formal rules or understandings—often but
not always committed to writing—that [were] intended
to, and [did], establish fixed plans of action to be followed
under similar circumstances consistently and over time.”
Pembaur v. City of Cincinnati, 475 U.S. 469, 480-81
(1986) (emphasis added).
Plaintiffs argue that GPO 19-73 reflects just such a
policy: it was a formal rule; it was promulgated by Cleveland; and it was illegal because it authorized Brady violations. Cleveland agrees that GPO 19-73 was a policy and
that it was promulgated by Cleveland but argues that
GPO 19-73 is consistent with Brady and, therefore, could
not cause Brady violations.22
GPO 19-73 read in pertinent part as follows:
TO THE MEMBERS OF THE DEPARTMENT
In a letter to this Department, County Prosecutor
John T. Corrigan has defined the legal rights of defense attorneys and courts to statements, reports
22

Cleveland also argues that Plaintiffs cannot show that GPO 19-73
caused any Brady violations because they cannot demonstrate any
Brady violations to begin with. As discussed in section II(C)(1)(a),
supra, that argument is unavailing.

128a
and other items in criminal cases. His letter, as a
part of this order, shall be considered an integral
part of criminal case preparations procedures and
all members shall comply with its provisions.
R. 101-7, PageID 1630.
The letter from the County Prosecutor, incorporated
into GPO 19-73, read in pertinent part as follows:
The Ohio Supreme Court has recently promulgated
Criminal Rules of Procedure . . . . Particularly, Rule
16 is going to be the concern of police departments
and prosecutors.
....
NO POLICE DEPARTMENT IS REQUIRED OR
SHALL GIVE TO DEFENSE COUNSEL
AND/OR ANY COURT ANY RECORD, PAPER,
STATEMENT, REPORT OR TANGIBLE OBJECT OF A CRIMINAL CASE.
Under proper circumstances under this rule, by application to the Prosecuting Attorney and/or the
court, the defense counsel may be entitled to the
following:
1.

Statement of a defendant or co-defendant,
written, recorded, or a summary of an oral
statement.

2.

Defendant’s prior felony record.

3.

Inspection of [physical evidence] material to
the preparation of the defense or intended for
use by the Prosecuting Attorney as evidence.

4.

Reports of results of physical or mental examinations, scientific tests or experiments.

5.

Names and addresses of witnesses.

129a
6.

Evidence favorable to the defendant.

EXCEPTION TO THE FOREGOING:
The foregoing does not authorize the discovery or
the inspection of reports, memoranda, or other internal documents made by the Prosecuting Attorney or his agents (police departments are his
agents) in connection with the investigation or
prosecution of the case, or of statements made by
witnesses or prospective witnesses to state agents.
Id. (emphases added).
Plaintiffs argue that GPO 19-73 is appropriately read
as providing that defendants are generally entitled to favorable evidence, but that the entitlement does not apply
if the favorable evidence is in the form of witness statements. The individual Defendants were therefore acting
in conformance with GPO 19-73 when they failed to turn
over to prosecutors Vernon’s un-coerced, exculpatory
statement that he had not seen the shooting, even though
this withholding violated Plaintiffs’ Brady rights.
In rebuttal, Cleveland argues, first, that the language
of GPO 19-73 did not permit officers to withhold exculpatory evidence from prosecutors, and, second, that even if
it did, it must be read in conjunction with other rules by
which officers were bound in order to determine whether
Cleveland had a policy of permitting the withholding of
exculpatory evidence from prosecutors.
Because a city may be liable under Monell for a policy
of permitting constitutional violations regardless of
whether the policy is written, see Pembaur, 475 U.S. at
480-81, we ask whether GPO 19-73 and the other rules
were inconsistent with a policy of withholding evidence in
violation of Brady. If they were not inconsistent, then a
genuine issue of material fact exists as to whether Cleve-

130a
land had such a policy, and summary judgment was improper on Plaintiffs’ first Monell theory.
a. The Text of GPO 19-73
Cleveland notes that the only language in GPO 19-73
discussing officers’ disclosure obligations simply made it
clear that they were not permitted to give any physical
evidence directly to a defendant; it did not say officers
were permitted to withhold exculpatory evidence from
prosecutors. Under this reading of GPO 19-73, the purpose of the order was to ensure that officers did not give
evidence directly to defendants and, perhaps as something of an addendum, let officers know what prosecutors
might have to do with the evidence officers gave them.
The section permitting disclosure of exculpatory witness
statements, after all, argues Cleveland, was prefaced by
the statement that “by application to the Prosecuting Attorney and/or the court, the defense counsel may be entitled” to various evidence, and that language appears to
concern the interaction between prosecutors and defendants, not officers and prosecutors.
Cleveland’s interpretation of GPO 19-73 may be plausible, but it is not the only reasonable interpretation. The
incorporated letter from the County Prosecutor informed
Cleveland police officers that “Rule 16 is going to be the
concern of police departments and prosecutors,” not just
prosecutors. (emphasis added). The incorporated letter
recreated in part the text of Rule 16, which dealt only
with what sorts of evidence required disclosure, not with
who would do the disclosing. That GPO 19-73 told officers that Rule 16 was their concern and provided the text
of that Rule, which described which evidence must be
disclosed, could suggest that GPO 19-73 was promulgated
for the purpose of ensuring officers knew what particular
evidence they had to disclose to prosecutors so that the

131a
prosecutors could then disclose that evidence to the defense. Under this reading, GPO 19-73 did more than
simply inform officers that they should not give evidence
directly to defendants; it also served as the directive to
officers as to what evidence they should, and should not,
give to prosecutors. Particular to the last point, the
“EXCEPTION TO THE FOREGOING” provision could
be read to direct officers not to turn over to prosecutors
the documents described in that provision, which included “statements made by witnesses or prospective witnesses to state agents.”
Therefore, one reasonable reading of GPO 19-73 is
that it (1) spoke to police officers about their disclosure
obligations and (2) informed them that they did not need
to disclose exculpatory witness statements to the Prosecutor’s Office. Because GPO 19-73 can be read as consistent with a policy of not disclosing exculpatory witness
statements, we turn to the other written rules to see
whether any of those foreclosed such a policy.
b. Other Rules
Cleveland’s second argument for why a reasonable jury could not read GPO 19-73 as embodying a policy of allowing officers to withhold exculpatory witness statements from prosecutors is stronger, but ultimately unavailing. Instead of looking at GPO 19-73 in a vacuum,
Cleveland urges us to consider the text of GPO 19-73 in
the context of other rules and regulations. These other
sources fall into two groups: sections of the Division of
Police’s Manual of Rules and the full text of Rule 16.
i. The Manual
The Manual contained a number of rules that were
applicable to all Cleveland police officers in 1975. Cleveland points to four rules as requiring, when read in con-

132a
junction with GPO 19-73, that officers disclose exculpatory witness statements to prosecutors. While all laudable,
each of these policies can, however, reasonably be interpreted as consistent with a reading of GPO 19-73 that
permitted officers to withhold exculpatory witness
statements from prosecutors.
Rule 14
Case Preparation and Fraud Unit
....
(2) The officer in charge shall cause statements to
be taken from persons brought to the Unit in the
course of criminal investigations; and shall see that
such statements are properly filed and preserved.
These statements shall be available only to the officers and members of the Division of Police who
are interested in the presentation of a particular
case, to the office of the County Prosecutor or the
Law Department of the City of Cleveland. Under
no circumstances shall they be given or exhibited to
any other person without the written consent of the
Chief of Police.
R. 102-2, PageID 1910-11.
Rule 14 only applied to statements given by persons
brought to the Case Preparation and Fraud Unit, and
there was no requirement that all witnesses be brought
to that unit when giving a statement.23 Nor did it require
officers to affirmatively disclose exculpatory statements
to prosecutors; it required only that detectives make
statements available. This reading is consistent with testimony that it was the practice of Cleveland detectives to
23

Vernon does not appear to have been brought to the Case Preparation and Fraud Unit.

133a
withhold evidence not contained in arrest reports, witness forms, or written statements unless it was specifically requested by prosecutors.
Rule 66 [No Title]
(1) Officers and members prosecuting persons
charged with a crime shall thoroughly familiarize
themselves with all of the facts and details concerning such case, so that all of the evidence may be
properly presented to the court.
Id. at PageID 1941.
Rule 66 said nothing about disclosure of evidence to
prosecutors, much less exculpatory evidence. More importantly, it only required familiarity with the facts and
details of a case insofar as such familiarity was required
to “properly present” those facts to a court. As discussed
above, GPO 19-73 can reasonably be interpreted as not
requiring officers to disclose exculpatory witness statements to prosecutors for disclosure in turn to defendants
(or, presumably, to courts). Read in conjunction with
GPO 19-73, then, Rule 66 can reasonably be interpreted
as not applying to exculpatory witness statements.
Rule 77 [No Title]
(1) Officers and members shall report on all matters
referred to or investigated by them. Such reports
may be either verbal or written, as the officer in
charge may direct.
(2) They shall, before reporting off duty, make such
written reports as may be required on all matters
coming to their attention or assigned to them for
investigation. If the investigation has not been
completed before he reports [sic] off duty, he shall
make a report stating the progress made.

134a
(3) He shall address his written reports to his superior officer and shall sign the reports, giving his full
name and rank, title or number. When required,
such reports shall be examined and signed by a superior officer. Written reports shall be forwarded
to the commanding officer.
Id. at PageID 1945-46.
Rule 77 required that officers make reports concerning their cases. It did not require that such reports contain all exculpatory information that they may have
learned. Importantly, it did not require that any reports
be disclosed to prosecutors, and it allowed reports to be
made verbally to a superior officer, a method well suited
to the withholding of information from prosecutors.
Rule 78 [No Title]
Written and verbal reports, testimony in court and
conversation of any kind affecting the Division of
Police, its officers, members, employees or persons
under its jurisdiction shall be truthful and unbiased.
Id. at PageID 1946.
Even read in conjunction with GPO 19-73 and the other rules discussed herein, the limitations of Rule 78 render it incapable of carrying the weight with which Cleveland burdens it. It required not that all reports be complete but only that they be truthful and unbiased.24 Nor

24

Consider, for example, two officers who have coerced a witness
into making what they believe to be a truthful statement: a report
detailing that statement but excluding the coercion would comport
with Rule 78. More insidiously, consider two officers who have coerced a witness into making a statement that they know to be false
and who file a report stating that the witness made that statement.
That report would be both true and unbiased and therefore con-

135a
did it require that any reports, which may have been
made verbally to a superior officer, be disclosed to prosecutors.
None of the rules contained within the Manual, taken
individually or collectively, are inconsistent with an interpretation of GPO 19-73 that permits officers to withhold exculpatory information from prosecutors. These
rules can be read by a reasonable jury as consistent with
a policy of permitting the withholding of exculpatory evidence in violation of Brady.
ii. Ohio Rule of Criminal Procedure 16
Cleveland also argues that the full text of Rule 16
made clear that defendants were entitled to all exculpatory evidence, including witness statements. The version
of Rule 16 in force in 1975 read in pertinent part as follows:
(B) Disclosure of evidence by the prosecuting attorney.
(1) Information subject to disclosure.
....
(f ) Disclosure of evidence favorable to defendant.
[description of exculpatory evidence]
(g) In camera inspection of witness’ [sic]
statement.
[description of procedure for in camera
inspection of witness statements]
(2) Information not subject to disclosure.

sistent with Rule 78: the witness did, after all, make the (false)
statement contained in the report.

136a
Except as provided in subsections (B)(1)(a), (b),
(d), (f ), and (g), this rule does not authorize the
discovery or inspection of reports, memoranda, or
other internal documents made by the prosecuting
attorney or his agents in connection with the investigation or prosecution of the case, or of statements made by witnesses or prospective witnesses
to state agents.
Proposed Ohio Rules of Criminal Procedure, 46 Ohio
BAR 817, 849–52 (1973) (emphases added).
Unlike GPO 19-73 and the rules in the Manual, Rule 16
made it quite clear that defendants were entitled to exculpatory witness reports. Rule 16(B)(2) excepted witness statements from the general disclosure requirements, using language almost identical to that used in
GPO 19-73. Unlike GPO 19-73, however, Rule 16(B)(2)
included an additional clause, excepting exculpatory witness statements from the exception for witness statements generally. Rule 16(B)(2) thereby placed exculpatory witness statements back into the universe of mandatory disclosure. As a result, the full text of Rule 16 made
it clear that prosecutors were obligated to disclose all exculpatory witness statements to defendants.
This fact does not, however, save Cleveland, at least
not at this stage of the litigation. Cleveland has provided
no evidence that Cleveland required that its officers follow the official version of the Ohio Rules of Criminal Procedure, that those rules were followed by Cleveland officers, or that Cleveland officers were even aware of those
rules. There is evidence, of course, that Cleveland officers were bound by Rule 16: GPO 19-73 can reasonably be
interpreted as directing that Cleveland officers follow the
requirements of Rule 16. But GPO 19-73 could be read

137a
as directing Cleveland officers to follow a modified version of Rule 16—the version included in GPO 19-73.25
And that version differed in at least one material way
from the official Rule 16. Both GPO 19-73 and the official
Rule 16 included a paragraph excepting witness statements from the general disclosure requirements. But
although, as mentioned, that paragraph in the official
Rule 16 contained an additional clause in paragraph
(B)(2) excepting (by reference to the requirements of
(B)(1)(f) and (g)) exculpatory witness statements from
that exception—and the paragraph in the official Rule
thereby required that exculpatory witness statements be
disclosed—the version of Rule 16 in GPO 19-73 omitted
the clause in that paragraph excepting exculpatory witness statements. The paragraph in the version of Rule 16
included in GPO 19-73 merely provided:
The foregoing [disclosure requirements] do[ ] not
authorize the discovery or inspection of reports,
memoranda, or other internal documents made by
the Prosecuting Attorney or his agents (police departments are his agents) in connection with the investigation or prosecution of the case, or of statements made by witnesses or prospective witnesses
to state agents.
R. 101-7, PageID 1630. It was this modified version of
Rule 16—the one that could plausibly be interpreted as
allowing the withholding of exculpatory witness statements—by which a reasonable jury could find Cleveland
officers were bound.
25

GPO 19-73 did not indicate that the version of Rule 16 it included
was in any way different from the official Rule 16 or suggest that
officers either consult the official text of Rule 16 or consult prosecutors as to the duties of officers or prosecutors under Rule 16.

138a
c. Conclusion
GPO 19-73 and the rules in Cleveland’s police manual,
read together, could be understood to authorize Cleveland officers to withhold exculpatory witness statements
from prosecutors. It is for a jury to consider GPO 19-73
and the rules in the Manual in light of Cleveland’s actual
practices and determine whether Cleveland had a policy
of permitting Brady violations. Because Cleveland does
not contest that it promulgated GPO 19-73 or that the
individual Defendants were acting in conformance with
GPO 19-73 when they withheld Vernon’s exculpatory
statements, a reasonable jury could find Cleveland liable
under Monell. See Garner, 8 F.3d at 364-65.
Because a genuine issue of material fact exists as to
whether Cleveland had a policy of permitting Brady violations, the district court’s grant of summary judgment to
Cleveland on Plaintiffs’ first Monell theory was improper.
2. Failure to Train
Plaintiffs also argue that in 1975, Cleveland had “a policy of inadequate training or supervision” of its officers as
to their obligation to disclose exculpatory evidence under
Brady. Burgess v. Fischer, 735 F.3d 462, 478 (6th Cir.
2013).
In order to show that a municipality is liable for a failure to train its employees, a plaintiff “must establish
that: 1) the City’s training program was inadequate for
the tasks that officers must perform; 2) the inadequacy
was the result of the City’s deliberate indifference; and 3)
the inadequacy was closely related to or actually caused
the injury.” Ciminillo v. Streicher, 434 F.3d 461, 469 (6th
Cir. 2006) (citing Russo v. City of Cincinnati, 953 F.2d
1036, 1046 (6th Cir. 1992)).

139a
Cleveland argues that Plaintiffs lack evidence sufficient for a jury to find that either of the first two requirements is met. We address each requirement in
turn.
a. Adequacy of Cleveland’s Brady Training
When determining whether a municipality has adequately trained its employees, “the focus must be on adequacy of the training program in relation to the tasks the
particular officers must perform.” City of Canton v.
Harris, 489 U.S. 378, 390 (1989).
Plaintiffs argue that Cleveland’s training program was
deficient in that it failed to train officers in their Brady
obligations and that, to the degree that those officers received training in the disclosure of evidence to prosecutors, they were trained to withhold exculpatory evidence.
Cleveland disagrees, citing deposition testimony to show
that officers received official training in their disclosure
obligations as well as unofficial on-the-job training in
their disclosure obligations. The district court agreed
with Cleveland.
It is undisputed that Cleveland officers received, and
were trained in, the Manual. But as discussed in section
II(D)(1)(b)(i), supra, those rules could be read as insufficient to inform officers of their disclosure obligations, as
none of the rules in the Manual explicitly mandated disclosure of exculpatory witness statements to prosecutors.
The only rule from the Manual that came close to requiring disclosure of witness statements to prosecutors was
Rule 14, which applied only to witness statements made
to the Case Preparation and Fraud Unit, and it only required that those statements be available to prosecutors,
not that they be proactively disclosed.

140a
Cleveland presents deposition testimony that “in the
police academy . . . [y]ou were told to give [exculpatory
evidence] to . . . a prosecutor” and that “Cleveland police
officers are trained and instructed to turn over the entire
product of their investigation to the prosecutor.” R. 103,
PageID 3664, 3672.
Cleveland also presents evidence that officers were
trained on the job to disclose evidence. One officer testified that although the rule was not always followed, “the
rule was, you should turn over all evidence acquired in an
investigation to the prosecution.” R. 104, PageID 394950. That officer also testified:
Police officers that conduct interviews are instructed to write down the statement as close to what the
witness said as possible, whether it is good or bad.
But it is part of what was said, and it needs to be,
the entire thing needs to be presented to the prosecutor, the entire thing, not parts of it, the entire
thing.
Id. at PageID 3972.
But Plaintiffs provide testimony that conflicts with
Cleveland’s account of the training received, both in the
academy and on the job. One former officer testified that
he was not “taught anything at police academy about police officers’ obligation to disclose Brady evidence” and
that he did not remember having “ever attend[ed] any
training concerning police officers’ obligation to disclose
exculpatory evidence to the defense.” R. 114-20, PageID
5127-29.
Another former officer testified that he could not recall having ever “attend[ed] any course, or receive[d] any
training in which [he] learned that officers have an obli-

141a
gation to disclose exculpatory evidence to criminal defendants or prosecutors.” R. 114-35, PageID 5492-93.
A third former officer testified, “As far as training, I
would have to say no” training was provided teaching officers they were required “to place any witness statements in the official file or otherwise make them available
to criminal defendants, defense counsels, and prosecutors.” R. 102, PageID 1776. He also testified that there
was “[n]o specific training” requiring police detectives “to
disclose exculpatory evidence.” Id. at PageID 1777.
The district court interpreted these statements as indicating only that no official training had been provided,
not that no on-the-job training had been provided. Jackson v. City of Cleveland, CASE NO. 1:15CV989, 2017 WL
3336607, at *6 (N.D. Ohio Aug. 4, 2017). We think this a
cramped interpretation of these statements. One officer
testified that he could not recall having “receive[d] any
training in which [he] learned that officers have an obligation to disclose exculpatory evidence.” (emphasis added). Another testified that he received “no [training] to
place any witness statements in the official file.” (emphasis added). A reasonable jury could interpret this testimony as indicating that officers received no training, onthe-job or otherwise, in their Brady obligations generally
or in their obligation to provide witness statements to
prosecutors.
There is therefore a genuine issue of material fact as
to whether Cleveland’s training of its officers in their disclosure obligations was sufficient, and summary judgment was inappropriate as to this issue. See Burgess,
735 F.3d at 471.

142a
b. Cleveland’s Deliberate Indifference
“[D]eliberate indifference is a stringent standard of
fault, requiring proof that a municipal actor disregarded
a known or obvious consequence of his action.” Bd. of
Cty. Comm’rs v. Brown, 520 U.S. 397, 410 (1997) (internal
quotation marks omitted). “In other words, the risk of a
constitutional violation arising as a result of the inadequacies in the municipal policy must be ‘plainly obvious.’ ” Gregory v. City of Louisville, 444 F.3d 725, 752
(6th Cir. 2006) (quoting Bd. of Cty. Comm’rs, 520 U.S. at
412).
A plaintiff may meet this standard by showing either
(1) “prior instances of unconstitutional conduct demonstrating that the City had notice that the training was
deficient and likely to cause injury but ignored it” or (2)
“evidence of a single violation of federal rights, accompanied by a showing that the City had failed to train its employees to handle recurring situations presenting an obvious potential for such a violation.” Campbell v. City of
Springboro, 700 F.3d 779, 794 (6th Cir. 2012) (citing Plinton v. Cty. of Summit, 540 F.3d 459, 464 (6th Cir. 2008)).
Plaintiffs do not contend that they can show Cleveland’s failure to train was deliberately indifferent via the
first method.26 Instead, Plaintiffs argue that they satisfy
the second method of showing deliberate indifference because the “likelihood that the situation [i.e., a situation
requiring police to handle exculpatory evidence] will recur and the predictability that an officer lacking specific
tools to handle that situation will violate citizens’ rights”
26

Finding that Plaintiffs had not shown Cleveland provided inadequate training to its officers, the district court did not address
whether Plaintiffs could make out the deliberate-indifference element by either method. See Jackson, 2017 WL 3336607, at *5.

143a
mean that failing to train officers in their disclosure obligations demonstrates deliberate indifference to the
“highly predictable consequence” that untrained officers
will violate Brady. Jackson Br. at 65 (quoting Bd. of Cty.
Comm’rs, 520 U.S. at 409-10).
Plaintiffs cite Gregory in support of their conclusion.
In Gregory, the plaintiff presented evidence that the defendant municipality had failed to train its officers in the
handling of exculpatory evidence. See 444 F.3d at 753-54.
This court reversed a grant of summary judgment to the
municipality, holding that a “custom of failing to train its
officers on the handling of exculpatory materials is sufficient to establish the requisite fault on the part of the
[municipality]” for a deliberate-indifference claim. Id. at
754 (citing Bd. of Cty. Comm’rs, 520 U.S. at 407).
Cleveland attempts to distinguish Gregory on the
ground that in Gregory, the plaintiff had presented evidence sufficient for a jury to find that the defendant municipality had failed to train its officers, while in this case,
Cleveland argues that the “undisputed evidence in the
record establishes that the detectives in the City’s Homicide Detective Bureau received on-the-job training about
the evidence that they were required to turn over to the
prosecutor.” Cleveland Br. at 48. But, as discussed
above, the evidence is not undisputed. Plaintiffs have
provided testimony sufficient for a jury to find that
Cleveland did not in fact train its officers in their disclosure obligations. Gregory therefore controls, and there is
sufficient evidence for a reasonable jury to find that
Cleveland was deliberately indifferent to the risk of
Brady violations.

144a
3. Conclusion
Plaintiffs having shown that there are genuine issues
of material fact both as to whether Cleveland had an official policy of permitting the withholding of exculpatory
witness statements from prosecutors and as to whether
Cleveland had a policy of failing to train its officers in
their disclosure obligations, summary judgment was inappropriate on the Monell claims. See Burgess, 735 F.3d
at 471.27 We therefore REVERSE the district court’s
grant of summary judgment to Cleveland as to those
claims.
III. CONCLUSION
In 1940, then-Attorney General Robert H. Jackson
admonished prosecutors: “Your positions are of such independence and importance that while you are being diligent, strict, and vigorous in law enforcement you can also afford to be just. Although the government technically
loses its case, it has really won if justice has been done.”28
In the present case, by contrast, one law-enforcement
officer testified that “winning the case was what it was all
about. It wasn’t about what was fair, it wasn’t about what
was honest, it was about winning.” R. 104, PageID 396768. If that sentiment explains the circumstances of Plaintiffs’ convictions, then those convictions were the result of
a process that was the very antithesis of Jackson’s famous admonition.

27

A failure-to-train claim under Monell also requires showing that
the failure to train “was closely related to or actually caused [Plaintiffs’] injury,” Ciminillo, 434 F.3d at 469, but Cleveland does not dispute that element.
28
Robert H. Jackson, Attorney Gen. of the U.S., Address at the Second Annual Conference of United States Attorneys: The Federal
Prosecutor (Apr. 1, 1940).

145a
For the foregoing reasons, we AFFIRM the district
court’s grant of summary judgment to Stoiker as to
Plaintiffs’ § 1983 claims for conspiracy to fabricate evidence and withhold exculpatory evidence. We REVERSE and REMAND the district court’s (1) judgment
on the pleadings for Cleveland as to Plaintiffs’ indemnification claims; (2) denial of Plaintiffs’ motions to amend
their complaints to substitute the administrator of the
estates of the deceased Defendants as a party in their
place; (3) grant of summary judgment to Stoiker as to the
§ 1983 claims for withholding of exculpatory evidence in
violation of Brady, fabrication of evidence, and malicious
prosecution; and (4) grant of summary judgment to
Cleveland as to the Monell claims.
————
CONCURRENCE
————
KEITH, Circuit Judge, concurring. I concur in the
Court’s opinion, except for Section II(C)(2) regarding Officer Stoiker’s entitlement to qualified immunity. This
case presents many factual disputes, and we are sending
it back to the district court for trial to determine whether
Officer Stoiker committed constitutional violations. Our
circuit has been clear that the issue of qualified immunity
may be submitted to a jury only if “the legal question of
immunity is completely dependent upon which view of
the [disputed] facts is accepted by the jury.” Miller v.
Sanilac Cty., 606 F.3d 240, 247 (6th Cir. 2010) (quoting
Humphrey v. Mabry, 482 F.3d 840, 846 (6th Cir. 2007));
see Brandenburg v. Cureton, 882 F.2d 211, 216 (6th Cir.
1989) (vacating and remanding for a new trial and leaving
the issue of qualified immunity to be decided by the jury,

146a
even though the appellant raised the issue of qualified
immunity on appeal). In Brandenburg, the court stated:
[T]he jury becomes the final arbiter of appellant
Sharp’s claim of immunity, since the legal question
of immunity is completely dependent upon which
view of the facts is accepted by the jury. If the jury
determines that Sharp fired on Brandenburg without a belief that someone was in danger of serious
bodily injury, then as a legal matter no reasonable
officer could believe that such gunfire would not
violate another’s constitutional rights. On the other
hand, if the jury believes detective Sharp’s version
of the facts, he will be entitled to qualified immunity.
882 F.2d at 216; see also McKenna v. Edgell, 617 F.3d
432, 437 (6th Cir. 2010) (“[W]here the legal question of
qualified immunity turns upon which version of the facts
one accepts, the jury, not the judge, must determine liability.” (quoting Champion v. Outlook Nashville, Inc.,
380 F. 3d 893, 899 (6th Cir. 2004)).
This case fits into the narrow category of fact intensive cases where it is appropriate for the jury to decide
the issue of qualified immunity only after they decide
which party they believe. The circumstances surrounding Officer Stoiker’s alleged involvement in the witness
statement and related police report of then twelve-yearold Vernon fall squarely into this category because Officer Stoiker’s liability is completely dependent upon the
jury finding that there is sufficient evidence that he was
present and involved in Vernon’s coercion. Because the
law of withholding exculpatory evidence, fabrication of
evidence, and malicious prosecution was clearly established in this context as of 1975, and we are already sending this case back to the district court, instead of the

147a
analysis this court provided in Section II(C)(2) above, a
jury instruction on immunity could have resolved this issue at trial.

148a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
October 20, 2015
————
CHRISTOPHER A. BOKYO, J.:
This matter comes before the Court upon the Motion
(ECF DKT #37) to Dismiss All Claims Against Estate of
Eugene Terpay, Estate of James Farmer, Estate of John
Staimpel and Estate of Peter Comodeca in Plaintiff’s
First Amended Complaint. For the following reasons,
the Motion is granted and the First Amended Complaint
is dismissed against the Estate Defendants without prejudice.
I. FACTUAL BACKGROUND
The captioned case was brought under 42 U.S.C.
§ 1983 and under state law against the City of Cleveland
and eight former detectives and/or sergeants who were

149a
allegedly involved in the investigation of a 1975 murder
that resulted in the prosecution and conviction of Plaintiff, Ricky Jackson. Jackson was originally sentenced to
death; but in 1978, his sentence was commuted to life in
prison. Edward Vernon, who was twelve years old at the
time of the murder, identified the perpetrators and testified at the trials of Jackson, Kwame Ajamu (formerly
Ronnie Bridgeman) and Wiley Bridgeman. In 2013,
Vernon confessed to his pastor that he was threatened
and coerced by Defendant officers into testifying falsely
against Jackson, Ajamu and Bridgeman. At an evidentiary hearing in state court, Vernon recanted and Jackson, Ajamu and Bridgeman were exonerated on November 21, 2014.
Jackson initiated the within lawsuit on May 19, 2015,
claiming Brady violations; fabrication of evidence; malicious prosecution; failure to intervene; conspiracy to deprive Plaintiff of his Constitutional rights; supervisory
liability; unconstitutional line-up procedures; intentional
infliction of emotional distress; civil conspiracy; respondeat superior liability; indemnification; and negligent, willful, wanton and/or reckless conduct.
The Complaint named the Estate of Eugene Terpay, a
detective who died on May 14, 2001. No probate estate
was opened at that time because the decedent had no assets or property that required probate administration.
The Complaint also named the Estate of James T.
Farmer, a detective who died on January 12, 2001. There
was a final distribution of assets on February 24, 2003.
Another named Defendant is the Estate of John
Staimpel, a detective who died on May 2, 1979. His Estate was closed on November 16, 1981.

150a
Jackson also sued the Estate of Peter F. Comodeca, a
sergeant who died on October 18, 2013. The Estate was
granted relief from administration on December 13, 2013.
The First Amended Complaint was filed on August 13,
2015; and that pleading named the Estates again, and not
any fiduciaries.
On August 20, 2015, the Estate Defendants filed their
Motion to Dismiss (ECF DKT #37), arguing that all of
the claims alleged against the “Estates” must be dismissed for insufficiency of service of process and for failure to state a claim. They argue that an estate is not a
legal entity with the capacity to be sued under federal
and state law. Since none of the Estates are open, none
has an administrator or executor with the capacity to be
sued or the authority to accept service of process.
II. LAW AND ANALYSIS
Standard of Review
Fed.R.Civ.P. 8 (a) requires that the complaint contain
“a short and plain statement of the claim showing that
the pleader is entitled to relief.” Hensley Mfg. v. ProPride, Inc., 579 F.3d 603, 609 (6th Cir. 2009). In deciding
a motion to dismiss under Fed.R.Civ.P. 12(b)(6), the
court must accept as true all of the factual allegations
contained in the complaint. Erickson v. Pardus, 551 U.S.
89, 93-94 (2007). The court need not, however, accept
conclusions of law as true:
Under Federal Rule of Civil Procedure 8(a)(2), a
pleading must contain a “short and plain statement
of the claim showing that the pleader is entitled to
relief.” As the Court held in [Bell Atlantic v.]
Twombly, 550 U.S. 544, 127 S.Ct. 1955 [(2007)], the
pleading standard Rule 8 announces does not require “detailed factual allegations,” but it demands

151a
more than an unadorned, the-Defendantunlawfully-harmed-me accusation. Id. at 555. A
pleading that offers “labels and conclusions” or “a
formulaic recitation of the elements of a cause of action will not do.” Id. at 555. Nor does a complaint
suffice if it tenders “naked assertion[s]” devoid of
“further factual enhancement.” Id. at 557.
To survive a motion to dismiss, “the plaintiff must allege facts that, if accepted as true, are sufficient to raise a
right to relief above the speculative level . . .” and must
do more than allege the elements of a cause of action and
come to legal conclusions. Id. Additionally, the plaintiff
must “state a claim to relief that is plausible on its face.”
Id. To state a claim that is plausible on its face, the plaintiff must plead facts that would allow the court to reasonably infer that the defendant is liable for the conduct the
plaintiff alleges. In determining whether this standard is
met, the court must accept the factual allegations as true,
but need not accept legal conclusions. Id.
Normally, the Court is restricted to the “four corners”
of the pleading; but the Sixth Circuit permits consideration of public records (such as relevant probate court
proceedings) or other materials that are appropriate for
the taking of judicial notice. See New England Health
Care Employees Pension Fund v. Ernst & Young, LLP,
336 F.3d 495, 501 (6th Cir. 2003).
The question of whether a defendant is a proper party,
with the capacity to be sued in federal court, is governed
by “the law of the state where the court is located.” Medlen v. Estate of Meyers, 273 F.App’x 464, 470 (6th Cir.
2008) (“[t]o determine whether the Estate was a proper
party with the capacity to be sued, we must look to Ohio
law . . .”); Fed.R.Civ.P. 17(b)(3). See also, Ward v. City of

152a
Norwalk, Case No. 3:13CV2210, 2014 WL 7175223
(N.D.Ohio July 3, 2014).
“An estate cannot sue or be sued; any action for or
against it must be brought by or against the executor or
personal representative of the decedent. West v. West,
Case No. 96APE11-1587, 1997 WL 559477 at *5 (Ohio
App. 10th Sept. 2, 1997).
In the within case, the Estates of Terpay, Farmer,
Staimpel and Comodeca are closed, or were never
opened. There are no executors or administrators with
the capacity to be sued. Because the status of the Estates is a matter of public record, Plaintiff was on notice
at the time the original Complaint was filed on May 19,
2015. When the First Amended Complaint was filed, on
August 13, 2015, Plaintiff again named the Estates and
not any fiduciary representatives. By Plaintiff’s own admission, he did not file the Applications to Reopen
Farmer’s, Staimpel’s and Comodeca’s Estates nor the
Application to Appoint an Administrator for Terpay’s Estate until September 1, 2015. The Cuyahoga County
Probate Court has scheduled a hearing; but no decision
on those applications has yet been made.
III. CONCLUSION
The four named Estate Defendants are not entities
with the capacity to be sued under Ohio law. Therefore,
the Motion (ECF DKT #37) to Dismiss All Claims
Against Estate of Eugene Terpay, Estate of James
Farmer, Estate of John Staimpel and Estate of Peter
Comodeca in Plaintiff’s First Amended Complaint is
granted and the First Amended Complaint is dismissed
against the Estate Defendants without prejudice.
IT IS SO ORDERED.

153a
s/ Christopher A. Boyko

Dated: October 20, 2015

CHRISTOPHER A. BOYKO
United States District Judge

154a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
June 30, 2016
————
CHRISTOPHER A. BOKYO, J.:
This matter comes before the Court upon the Motion
(ECF DKT #68) of Plaintiff, Ricky Jackson, for Leave to
File a Second Amended Complaint. For the following
reasons, the Motion is denied because the amendment
would be futile.
I. BACKGROUND
This case was brought under 42 U.S.C. § 1983 and under state law against the City of Cleveland and eight
former detectives and/or sergeants who were allegedly
involved in the investigation of a 1975 murder that resulted in the prosecution and conviction of Plaintiff,
Ricky Jackson. Jackson was originally sentenced to

155a
death; but in 1978, his sentence was commuted to life in
prison. Edward Vernon, who was twelve years old at the
time of the murder, identified the perpetrators and testified at the trials of Jackson, Kwame Ajamu (formerly
Ronnie Bridgeman) and Wiley Bridgeman. In 2013,
Vernon confessed to his pastor that he was threatened
and coerced by Defendant officers into testifying falsely
against Jackson, Ajamu and Bridgeman. At an evidentiary hearing in state court, Vernon recanted and Jackson, Ajamu and Bridgeman were exonerated on November 21, 2014.
Jackson initiated this lawsuit on May 19, 2015, claiming Brady violations; fabrication of evidence; malicious
prosecution; failure to intervene; conspiracy to deprive
Plaintiff of his constitutional rights; supervisor liability;
unconstitutional line-up procedures; intentional infliction
of emotional distress; civil conspiracy; respondeat superior liability; indemnification; and negligent, willful, wanton and/or reckless conduct. The Complaint listed City of
Cleveland, the Estate of Eugene Terpay, the Estate of
James T. Farmer, the Estate of John Staimpel, the Estate of Peter F. Comodeca, as well as several other former Cleveland police officers. Plaintiff filed the First
Amended Complaint on August 13, 2015 and this Complaint again listed the Estates of the deceased police officers, not their fiduciaries.
On August 20, 2015, the Estate Defendants filed their
Motion to Dismiss, arguing that all claims alleged against
the “Estates” must be dismissed for insufficiency of process and for failure to state a claim. They argued that an
estate is not a legal entity with the capacity to be sued
under state or federal law. Since none of the Estates
were open, none of them had an administrator or executor with the capacity to be sued or the authority to accept

156a
service of process. On October 20, 2015, this Court
granted Estate Defendants’ Motion to Dismiss without
prejudice.
On November 19, 2015, Plaintiff submitted a Motion
for Leave to File a Second Amended Complaint. (ECF
DKT #68). Specifically, Plaintiff seeks to add J. Reid
Yoder, Esq., who was recently appointed Administrator
of the Estates of Eugene Terpay, Peter F. Comodeca,
John T. Staimpel and James T. Farmer, as a defendant
for the purpose of accepting service of process in this
lawsuit. On October 21, 2015, Plaintiff had submitted a
motion to the Probate Court of Cuyahoga County, seeking to reopen the above Estates and appoint an administrator. On November 17, 2015, the Probate Court signed
an order appointing J. Reid Yoder, Esq. as Administrator
of the Estates for the limited purpose of accepting service of process in this lawsuit and Ajamu v City of Cleveland, et al., 1:15 CV 1320, and receiving the claims of
Plaintiff, Kwame Ajamu and Wiley Bridgeman against
the Estates in relation to these lawsuits.
Defendants argue that leave to amend a second time
should not be granted because such amendment would be
futile on the grounds that Plaintiff did not file his claims
against the Estates within the proper statutory deadline.
Plaintiff argues that an exception to the statutory deadline applies when a judgment can be satisfied by something other than the assets of the estate.
II. LAW AND ANALYSIS
A. Standard of Review
Rule 15(a) of the Federal Rules of Civil Procedure
provides that when a party, not entitled to amend as a
matter of course, seeks leave to amend their complaint,
the court should give leave freely when justice so re-

157a
quires. In Foman v Davis, the Supreme Court further
held that if a plaintiff’s claims rest upon facts that may be
a proper subject for relief, then he should be given the
chance to test his claims on the merits. 371 U.S. 178, 182
(1962). Further, the Court held that “in the absence of
any apparent or declared reason -such as undue delay,
bad faith, or dilatory motive on the part of the movant,
repeated failure to cure deficiencies by amendments previously allowed, undue prejudice to the opposing party by
virtue of allowance of the amendment, futility of the
amendment, etc.-the leave sought should, as the rules require, be freely given.” Id. The court in Williams v City
of Cleveland held that when a court denies a motion to
amend on the ground that the amendment would be futile, the basis for its denial is the purely legal conclusion
that the proposed amendment would be unable to withstand a motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil Procedure. 771 F. 3d 945, 949 (6th Cir.
2014). The Williams court further held that the dispositive question is whether the plaintiff’s second amended
complaint contains sufficient factual matter, accepted as
true, to state a claim for relief that is plausible upon its
face. Id.
B. Survival Statutes
Ohio Revised Code § 2305.21 provides that “in addition
to the causes of action which survive at common law,
causes of action for mesne profits, or injuries to the person or property, or for deceit or fraud, also shall survive;
and such actions may be brought notwithstanding the
death of the person entitled or liable thereto.” In Tinney
v Richland County, the court held that the plaintiff’s
§ 1983 claims involved violations of the plaintiff’s personal
rights, not physical injuries; as such, the individual capacity § 1983 claims did not survive the defendant’s death

158a
under Ohio law. No. 1:14 CV 703, 2014 WL 6896256, at
*2 (N.D. Ohio Dec. 8, 2014). Similarly, the court in Murray v. State held that a claim for wrongful imprisonment
did not qualify as injuries to the person, rather the injury
is the violation of one’s personal rights. 2002-Ohio-664,
2002 WL 337732, *3 (Ohio App. 8 Dist. 2002).
Similarly, the court in State ex rel. Crow v Weygandt
held that claims for malicious prosecution do not survive
death. 170 Ohio St. 81, 84, 162 N.E.2d 845, 848 (1959).
i. Plaintiff’s § 1983 and Malicious Prosecution
Claims
Plaintiff alleges a number of § 1983 claims and a malicious prosecution claim against a number of defendants
and in this motion, Plaintiff seeks to name the Administrator as a defendant for these claims. Plaintiff alleges
that these § 1983 violations of his personal rights resulted
in physical and emotional injury, however, as the Tinney
and Murray courts held, violations of Plaintiff’s personal
rights do not qualify as injuries to the person. Plaintiff’s
claims arise from violations of his personal rights, not
from harm to his person, and as such, they do not survive
the death of the decedent officers. Because these claims
do not survive, the Court finds that Plaintiff’s amendment to assert § 1983 claims against the Estates is futile
and denies leave to amend. Similarly, the Court finds
that Plaintiff’s malicious prosecution claims do not survive the death of the decedent officers and denies leave to
amend.
C. Statute of Limitations
Ohio Revised Code § 2117.06(B) provides that all
claims shall be presented within six months after the
death of the decedent, whether or not the estate is released from administration or an executor or administra-

159a
tor is appointed during
§ 2117.06(G) provides that

that

six-month

period.

“Nothing in this section or in § 2117.07 shall be construed to reduce the periods of limitations or periods prior to repose in § 2125.02 or Chapter 2305 of
the Revised Code, provided that no portion of any
recovery on a claim brought pursuant to that section or any section in that chapter shall come from
the assets of an estate unless the claim has been
presented against the estate in accordance with
Chapter 2117 of the Revised Code.”
Ohio Revised Code § 2117.37 provides that
“if a claim is contingent at the time of a decedent’s
death and a cause of action subsequently accrues on
the claim, it shall be presented to the executor, in
the same manner as other claims, before the expiration of six months after the date of death of the decedent, or before the expiration of two months after
the cause of action accrues, whichever is later.”
The court in Meinberg v Glaser explained that the
part of the paragraph before the word ‘provided’ unmistakably specifies that nothing in § 2117.06 or § 2117.07 is
intended to reduce the two-year time within which a personal injury action might be brought. 14 Ohio St. 2d 193,
197, 237 N.E. 2d 605, 608 (1968). Further, the court explained that the provision limits the application of the
amendment so that ‘no portion of any recovery on a
claim’ for injury to person or property is to ‘come from
the assets of the estate’. Id. The court later defined ‘assets of the estate’ as assets
“which ‘may lawfully’ be ‘paid out or distributed’ by
the executor or administrator; from which ‘payment
or distribution’ may be made to ‘creditors, legatees,

160a
and distributees’ or to a surviving spouse; or which
may be lawfully sold or otherwise encumbered or
disposed of by the executor or administrator.” Id.
at 609.
In Meinberg, the plaintiff sought to recover against
the decedent’s automobile liability insurance policy due
to injuries stemming from an automobile accident with
the decedent prior to his demise. The court found that an
automobile insurance policy might, to the extent required
to satisfy the claim, constitute an ‘asset of the estate’ if
the claim were presented within the four-month time period specified by § 2117.06 or the nine-month period specified by § 2117.07. Id. Because the plaintiff presented the
claim beyond the nine-month time period, the court found
that the policy was not an ‘asset of the estate’ within the
meaning of § 2117. The court also held that a plaintiff
“who seeks to avoid the claim requirements and the
four- and nine-month time limitations of § 2117.06
and § 2117.07 must allege and prove that there is
something other than an asset of the estate, such as
liability insurance, against which any judgment in
his favor may be enforced.” Id.
The court in In re George’s Estate held that actions for
personal injury may be brought against an estate within
two years, so long as recovery from the action will not
subject the assets of the estate to any liability. 24 Ohio
St. 2d 18, 20, 262 N.E. 2d 872, 873 (1907). Further, the
court held that this provides an injured plaintiff a method
of proceeding against the decedent’s estate to the extent
that there is a policy of liability insurance in force from
which recovery may be had, even though the claim has
not been presented to the administrator within the time
limit set forth in § 2117.06. Id.

161a
D. Indemnification
Ohio Revised Code § 2744.07(A)(2) provides that:
“except as otherwise provided in this division, a political subdivision shall indemnify and hold harmless
an employee in the amount of any judgment, other
than a judgment for punitive or exemplary damages, that is obtained against the employee in a state
or federal court or as a result of a law of foreign jurisdiction and that is for damages from injury,
death, or loss to person or property caused by an
act or omission in connection with a governmental
or proprietary function, if at the time of the act or
omission the employee was acting in good faith and
within the scope of employment or official responsibilities.”
The court in Piro v Franklin Twp. held that this section does not remove a political subdivision’s immunity;
rather, it obligates the political subdivision to indemnify
its employees if they are found liable for a good faith act
that is related to a governmental or proprietary function.
102 Ohio App. 3d 130, 141, 656 N.E. 2d 1035, 1042 (1995).
The court further held that “requiring the subdivision to
indemnify its employees is entirely different from imposing direct liability on the subdivision. Id. Similarly, the
court in Maruschak v City of Cleveland held that “the
right of indemnification is the right of the employee; it
does not create a cause of action or any enforceable right
against the city in favor of a Plaintiff who sues a municipal employee.” No. 1:09 CV 1680, 2010 WL 2232669, at
*6, fn. 8 (N.D. Ohio May 28, 2010).

162a
ii. Plaintiff’s Civil Conspiracy and Intentional Infliction of Emotional Distress Claims
Plaintiff alleges two state law tort claims and in this
motion, Plaintiff seeks to amend these claims to name the
Administrator as a defendant. Plaintiff alleges his cause
of action arose on November 21, 2014. Plaintiff presented his claims to the Administrator on November 19, 2015.
Typically, Plaintiff would have needed to present his
claims within six months of the death of each of the decedent officers. However, the Court finds that because
Plaintiff’s claims are contingent, arising after the death
of the officers involved, Plaintiff should have instead presented his claims within two months of the accrual of his
cause of action, by January 21, 2015. R.C. 2117.37 Plaintiff argues that he should be allowed to file within two
years of the accrual of his cause of action under the rule
articulated in Meinberg, alleging that a judgment in his
favor can be satisfied against the City of Cleveland’s obligation to indemnify its employees. The Court finds that
Plaintiff’s argument fails, as the City’s obligation to indemnify its employees is not the same thing as a policy of
liability insurance. Rather, as the court in Maruschak
held, the right to indemnification is a right of the employee; it does not create a separate cause of action for a
plaintiff who sues a municipal employee. Moreover, the
Cuyahoga County Probate Court specifically declined to
decide whether a claim for indemnification would be considered an “asset” of the Estates. Because Plaintiff cannot establish that there is something other than an asset
of the estate against which any judgment in his favor may
be enforced, the Court finds that his amendment would
be futile and denies leave to amend.

163a
III. CONCLUSION
Plaintiff seeks to amend to add the Administrator for
the decedent officers’ Estates as a Defendant in his Second Amended Complaint. The Court finds that Plaintiff’s
proposed amendment would be futile, in part because his
§ 1983 claims do not survive the death of the decedent officers and in part because he has not filed his remaining
state law claims within the appropriate statutory time
line. Because Plaintiff’s amendments would be futile, the
Court denies Plaintiff leave to amend his Complaint.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: June 30, 2016

164a
APPENDIX E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
July 20, 2016
————
CHRISTOPHER A. BOKYO, J.:
This matter comes before the Court upon the Motion
(ECF DKT #60) of Defendant, City of Cleveland, for
Judgment on the Pleadings on Counts VII through XI of
the First Amended Complaint. For the following reasons, the Motion is granted.
I. BACKGROUND
The captioned case was originally brought under 42
U.S.C. § 1983 and under state law against the City of
Cleveland and eight former detectives and/or sergeants
who were allegedly involved in the investigation of a 1975
murder that resulted in the prosecution and conviction of
Plaintiff, Ricky Jackson. Jackson was sentenced to

165a
death; but in 1978, his sentence was commuted to life in
prison. Edward Vernon, who was twelve years old at the
time of the murder, identified the perpetrators and testified at the trials of Jackson, Kwame Ajamu (formerly
Ronnie Bridgeman) and Wiley Bridgeman. In 2013,
Vernon confessed to his pastor that he was threatened
and coerced by Defendant officers into testifying falsely
against Jackson, Ajamu and Bridgeman. At an evidentiary hearing in state court, Vernon recanted and Jackson, Ajamu and Bridgeman were exonerated on November 21, 2014.
Plaintiff filed this lawsuit on May 19, 2015. On October 1, 2015, Defendant City of Cleveland moved for dismissal of Counts VII through XI of Plaintiff’s First
Amended Complaint pursuant to Fed.R.Civ.P. 12(c).
Those Counts are:
Count VII: Ohio State Law – Malicious Prosecution
Count VIII: Ohio State Law – Intentional Infliction of
Emotional Distress
Count IX: Ohio State Law – Civil Conspiracy
Count X: Ohio State Law – Respondeat Superior
Count XI: Ohio State Law – Indemnification
Defendant City argues that all these claims fail as a
matter of law. The Motion has been fully briefed and is
ripe for decision.
II. LAW AND ANALYSIS
Motion for Judgment on the Pleadings
After the pleadings are closed, but within such time as
not to delay the trial, any party may move for judgment
on the pleadings. Fed.R.Civ.P. 12(c). In this jurisdiction,
“[t]he standard of review for a judgment on the pleadings
is the same as that for a motion to dismiss under Federal

166a
Rule of Civil Procedure 12(b)(6) . . . . We ‘construe the
complaint in the light most favorable to the plaintiff, accept all of the complaint’s factual allegations as true, and
determine whether the plaintiff undoubtedly can prove
no set of facts in support of the claims that would entitle
relief.’ ” Roger Miller Music, Inc. v. Sony/ATV Publishing, LLC, 477 F.3d 383, 389 (6th Cir.2007) (citations omitted). The court’s decision “rests primarily upon the allegations of the complaint;” however, “‘exhibits attached to
the complaint[ ] also may be taken into account.’”
Barany-Snyder v Weiner, 539 F.3d 327, 332 (6th
Cir.2008) (citation omitted) (brackets in the original).
Lastly, a Rule 12(c) motion “is granted when no material
issue of fact exists and the party making the motion is
entitled to judgment as a matter of law.” Paskvan v. City
of Cleveland Civil Serv. Comm’n, 946 F.2d 1233, 1235
(6th Cir.1991).
With regard to the state law claims of malicious prosecution, intentional infliction of emotional distress and civil
conspiracy, Plaintiff contends that he pled these claims
against the individual Defendants only and “did not intend to assert these claims directly against the City, but
only under respondeat superior.” (Plaintiff’s Response
Brief, ECF DKT #66 at 1). Therefore, the Motion for
Judgment on the Pleadings is granted as to Counts VII,
VIII and IX as unopposed.
Defendant argues that Chapter 2744 of the Ohio Revised Code provides the City with immunity from respondeat superior liability for its employees’ actions with
respect to Plaintiff’s state law claims. Moreover, as the
Ohio Supreme Court has held, “there are no exceptions
for intentional torts” such as malicious prosecution, intentional infliction of emotional distress and civil conspiracy in R.C. § 2744.02(B). Wilson v. Stark Cnty. Dept. of

167a
Human Svcs., 70 Ohio St.3d 450, 452 (1994). In light of
existing Ohio case law, Plaintiff does not oppose dismissal
of his respondeat superior claim (Count X). (Plaintiff’s
Response Brief, ECF DKT #66 at 2).
Defendant lastly moves for dismissal of Plaintiff’s indemnification claim (Count XI). R.C. § 2744.07(A)(2) provides:
Except as otherwise provided in this division, a political subdivision shall indemnify and hold harmless
an employee in the amount of any judgment, other
than a judgment for punitive or exemplary damages, that is obtained against the employee in a state
or federal court or as a result of a law of a foreign
jurisdiction and that is for damages from injury,
death, or loss to person or property caused by an
act or omission in connection with a governmental
or proprietary function, if at the time of the act or
omission the employee was acting in good faith and
within the scope of employment or official responsibilities.
In Piro v Franklin Twp., the court held that the foregoing section does not remove a political subdivision’s
immunity; rather, it obligates the political subdivision to
indemnify its employees if they are found liable for a
good faith act that is related to a governmental or proprietary function. 102 Ohio App. 3d 130, 141 (9th Dist.1995).
The Piro court further held that “requiring the subdivision to indemnify its employees is entirely different from
imposing direct liability on the subdivision.” Id. Similarly, the court in Maruschak v City of Cleveland held that
“the right of indemnification is the right of the employee;
it does not create a cause of action or any enforceable
right against the city in favor of a plaintiff who sues a
municipal employee.” No. 1:09 CV 1680, 2010 WL

168a
2232669, at *6, fn. 8 (N.D. Ohio May 28, 2010). Also, R.C.
§ 2744.07(A)(2) “does not provide [plaintiff] with a cause
of action against the City or anyone . . . ” Shoup v. Doyle,
974 F.Supp.2d 1058, 1093 (S.D. Ohio 2013).
When faced with the question of whether Plaintiff
could amend his Complaint a second time and assert an
indemnification claim against the Estates of the deceased
Defendant officers, the Court ruled that the amendment
would be futile. (Opinion and Order, ECF DKT #82).
Consistent with the Court’s prior rationale, and in accordance with Ohio federal and state case law, Plaintiff’s
Count XI for Indemnification asserted against the City of
Cleveland fails.
III. CONCLUSION
For all these reasons, the Motion (ECF DKT #60) of
Defendant, City of Cleveland, for Judgment on the
Pleadings is granted as to Counts VII through XI of the
First Amended Complaint. Accordingly, Plaintiff shall
file an amended complaint within fourteen (14) days of
this Order reflecting the dismissal of Counts VII through
XI, as well as the voluntary dismissal of Defendant Michael Cummings and Defendant James White (ECF
DKT ##79 & 80) and the substitution of Karen
Lamendola, Guardian ad Litem for Defendant Frank
Stoiker (Non-document Order of 8/25/2015).
IT IS SO ORDERED.
DATE: July 20, 2016
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge

169a
APPENDIX F
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
November 10, 2016
————
CHRISTOPHER A. BOKYO, J.:
This matter comes before the Court upon the Motion
(ECF DKT #85) of Plaintiff, Ricky Jackson, for Reconsideration, or in the alternative, to Certify Interlocutory
Appeal or Final Judgment under Rule 54(b) on Claims
against Administrator of Estates. For the following reasons, the Motion is denied.
I. BACKGROUND
The instant case was brought under 42 U.S.C. § 1983
and under state law against the City of Cleveland and
eight former detectives and/or sergeants who were allegedly involved in the investigation of a 1975 murder that
resulted in the prosecution and conviction of Plaintiff,
Ricky Jackson. Jackson was originally sentenced to

170a
death; but in 1978, his sentence was commuted to life in
prison. Edward Vernon, who was twelve years old at the
time of the murder, identified the perpetrators and testified at the trials of Jackson, Kwame Ajamu (formerly
Ronnie Bridgeman) and Wiley Bridgeman. In 2013,
Vernon confessed to his pastor that he was threatened
and coerced by Defendant officers into testifying falsely
against Jackson, Ajamu and Bridgeman. At an evidentiary hearing in state court, Vernon recanted and Jackson, Ajamu and Bridgeman were exonerated on November 21, 2014.
Jackson initiated this lawsuit on May 19, 2015, claiming Brady violations; fabrication of evidence; malicious
prosecution; failure to intervene; conspiracy to deprive
Plaintiff of his constitutional rights; supervisor liability;
unconstitutional line-up procedures; intentional infliction
of emotional distress; civil conspiracy; respondeat superior liability; indemnification; and negligent, willful, wanton and/or reckless conduct. On November 19, 2015,
Jackson submitted a Motion for Leave to File a Second
Amended Complaint (ECF DKT #68), seeking to add J.
Reid Yoder, Esq., who was recently appointed Administrator of the Estates of Defendants, Eugene Terpay, Peter F. Comodeca, John T. Staimpel and James T.
Farmer.
In its June 30, 2016 Opinion and Order (ECF DKT
#82), the Court denied Plaintiff leave to add the Administrator of the Estates on the § 1983 and malicious prosecution claims because the injuries alleged were not physical injuries and the causes of action did not survive under
R.C. § 2305.21. R.C.§ 2305.21 provides in pertinent part
that, “in addition to the causes of action which survive at
common law, causes of action for mesne profits, or injuries to the person or property, or for deceit or fraud, also

171a
shall survive; and such actions may be brought notwithstanding the death of the person entitled or liable thereto.” (Emphasis added).
In his current Motion, Jackson asserts that it was a
clear error of law to find that Plaintiff’s federal claims
against the deceased Defendants did not survive their
deaths. Jackson argues that allowing these claims to
abate is contrary to the purpose of § 1983 and is inconsistent with the federal policy underlying the cause of action. The Court disagrees.
II. LAW AND ANALYSIS
Reconsideration
“District courts possess the authority and discretion to
reconsider and modify interlocutory judgments any time
before final judgment.” Rodriguez v. Tenn. Laborers
Health & Welfare Fund, 89 F.App’x 949, 952 (6th
Cir.2004). See also Moses H. Cone Mem'l Hosp. v. Mercury Constr. Corp., 460 U.S.1, 12 (1983) (“every order
short of a final decree is subject to reopening at the discretion of the district judge”). “District courts have authority both under common law and Rule 54(b) to reconsider interlocutory orders and to reopen any part of a
case before entry of final judgment.” Rodriguez, 89
F.App’x at 959.
“Traditionally, courts will find justification for reconsidering interlocutory orders when there is (1) an intervening change of controlling law; (2) new evidence available; or, (3) a need to correct a clear error or prevent manifest injustice.” Id. (citing Reich v. Hall Holding Co., 990
F.Supp. 955, 965 (N.D.Ohio 1998)). However, as announced in Davie v. Mitchell, 291 F. Supp. 2d 573 (N.D.
Ohio 2003): “Motions for reconsideration are disfavored,
and a motion for reconsideration is unfounded unless it

172a
either calls . . . attention to an argument or controlling
authority that was overlooked or disregarded in the original ruling, presents evidence or argument that could not
previously have been submitted, or successfully points
out a manifest error of fact or law.” Id. at 634.
At the outset, it is important to note that Jackson’s argument was never raised before and that new matters
are inappropriately addressed for the first time on a motion for reconsideration. See Robinson v. Select Portfolio
Servicing, Inc., 522 F.App’x 309, 313 (6th Cir. 2013).
Nevertheless, after carefully reviewing the briefs submitted and the authorities cited, the Court finds that its determination that the federal claims against the deceased
Defendants, Terpay, Farmer, Staimpel and Comodeca,
do not survive pursuant to R.C. § 2305.21 was not erroneous.
By its clear language, 42 U.S.C. § 1983 does not provide for the survival of civil rights actions. “Indeed, the
Supreme Court has definitively held that § 1983 is deficient in not providing for survivorship.” Estate of
Gilliam ex rel. Waldroup v. City of Prattville, 639 F.3d
1041, 1045 (11th Cir. 2011), citing Robertson v.
Wegmann, 436 U.S. 584, 588 (1978). Where federal law is
“deficient,” the state law of the forum applies as long as it
is “not inconsistent with the Constitution and the laws of
the United States.” 42 U.S.C. § 1988(a); Robertson, 436
U.S. at 588-89.
In order to determine whether R.C. § 2305.21 is inconsistent with federal law in the context of § 1988(a), the
Court must look at the federal statute at issue and the
policies underlying it. “Two important policies underlying § 1983 include ‘compensation of persons injured by
deprivation of federal rights and prevention of abuses of

173a
power by those acting under color of state law.’ ”
Gilliam, 639 F.3d at 1046-47; Robertson, 436 U.S. at 590.
A state statute cannot be considered “inconsistent”
with federal law merely because the statute causes
the plaintiff to lose the litigation. . . . § 1988 quite
clearly instructs us to refer to state statutes; it does
not say that state law is to be accepted or rejected
based solely on which side is advantaged thereby.
Id. at 593.
Furthermore, there is “nothing in [§ 1983] to indicate that
a state law causing abatement of a particular action
should invariably be ignored in favor of absolute survivorship.” Id. at 590.
The very unique facts of the instant case involve police
conduct that occurred forty years ago and Defendant police detectives or sergeants who have long since died.
This Court believes that applying R.C. § 2305.21 in the
great majority of § 1983 cases will adequately provide
compensation for constitutional injuries and deter state
actors who violate the Constitution.
Jackson contends that he did, indeed, suffer physical
injury; and claims for physical injuries do survive the
death of the defendant. However, violation of personal
rights is not a physical injury. Tinney v. Richland County, No. 1:14CV703, 2014 WL 6896256 at *2 (N.D. Ohio
Dec. 8, 2014); Witcher v. Fairlawn, 113 Ohio App.3d 214
(1996); Murray v. State, 2002-Ohio-664, 2002 WL 337732,
*3 (Ohio App. 8 Dist. 2002). Allegations of physical or
emotional harm, even due to egregiously long wrongful
incarceration, do not convert civil rights violations into
the type of tort causes of actions that are not abated by
defendant’s death.

174a
Simply because application of the Ohio statute on survival of actions, in this unusual instance, defeats Plaintiff’s claim against the Estates of the deceased Defendants does not mean that the Ohio law is “inconsistent”
with federal law.
The Court finds there is no “need to correct a clear error or prevent manifest injustice.” Plaintiff’s Motion for
Reconsideration is therefore denied.
Interlocutory Appeal
Under 28 U.S.C. § 1292(b), a district judge has discretion to certify a non-final order for an interlocutory appeal if the judge believes the petitioner has adequately
shown that:
(1) the question involved is one of law; (2) the question is controlling; (3) there is substantial ground
for difference of opinion respecting the correctness
of the district court’s decision; and (4) an immediate
appeal would materially advance the ultimate termination of litigation.
In re Allstate Ins. Co., 2010 U.S. App. LEXIS 27325, *1
(6th Cir. 2010) (citing 28 U.S.C. § 1292(b) and Cardwell v.
Chesapeake & Ohio Ry. Co., 504 F.2d 444, 446 (6th Cir.
1974)) (quotations omitted).
Although discretionary, “review under § 1292(b)
should be sparingly granted and then only in exceptional
cases.” In re Allstate, 2010 U.S. App. LEXIS at *2 (citing Kraus v. Bd. of County Rd. Comm’rs for Kent County, 364 F.2d 919, 922 (6th Cir. 1966)). Thus, “doubts regarding appealability . . . [should be] resolved in favor of
finding that the interlocutory order is not appealable.”
United States v. Stone, 53 F.3d 141, 143-44 (6th Cir.1995)
(citation omitted).

175a
Plaintiff contends that there is substantial ground for
difference of opinion as to the survival of his § 1983
claims. He points to the Supreme Court’s decision in
Robertson v. Wegmann, but that case dealt with Louisiana survivorship statutes. Moreover, in contrast with
Plaintiff’s position, the Robertson Court held:
Our holding today is a narrow one, limited to situations in which no claim is made that state law generally is inhospitable to survival of § 1983 actions
and in which the particular application of state survivorship law, while it may cause abatement of the
action, has no independent adverse effect on the
policies underlying § 1983.
Plaintiff also asks this Court to look to the case of Jaco
v. Bloechle, 739 F.2d 239 (6th Cir. 1984). However, quite
distinct from the instant fact pattern, in Jaco, the plaintiff’s son (decedent) was shot by police officers and killed
instantaneously. The Sixth Circuit was critical of the
Ohio survival statute because it would have permitted
survival of the civil rights cause of action if the death had
not been instantaneous.
To show a substantial ground for difference of opinion
under 28 U.S.C. § 1292(b), Jackson must illustrate that:
(1) the question is difficult, novel and either a question on which there is little precedent or one whose
correct resolution is not substantially guided by
previous decisions; (2) the question is difficult and
of first impression; (3) a difference of opinion exists
within the controlling circuit; or (4) the circuits are
split on the question.
In re Miedzianowski, 735 F.3d 383, 384 (6th Cir. 2013)
(citation omitted). “The ‘substantial ground’ requirement
has been characterized as a genuine doubt or conflicting

176a
precedent as to the correct legal standard.” Hurley v.
Deutsche Bank Trust Co. Americas, No. 1:08cv361, 2009
U.S. Dist. LEXIS 33654 at *11-12 (W.D. Mich. April 21,
2009) (citation omitted).
Jackson has cited no precedent which calls into question this Court’s interpretation of the Ohio statute on
survival of actions. Further, Jackson has demonstrated
no difference of opinion within this Circuit nor any split
among the circuits on this issue.
Also, when applying the 28 U.S.C. § 1292(b) factors, an
immediate appeal is said to advance the ultimate termination of litigation if it would “appreciably shorten the
time, effort, and expense exhausted between the filing of
a lawsuit and its termination.” Trimble v. Bobby, No.
5:10cv14, 2011 U.S. Dist. LEXIS 54142 at *6 (N.D. Ohio
May 20, 2011) (citing Berry v. Sch. Dist. of City of Benton
Harbor, 467 F. Supp. 721, 727 (W.D. Mich. 1978)). However, “when litigation will be conducted in substantially
the same manner regardless of [the Court’s] decision, the
appeal cannot be said to materially advance the ultimate
termination of the litigation.” In re City of Memphis, 293
F.3d 345, 351 (6th Cir. 2002).
Certainly, in the within matter, allowing an interlocutory appeal will not shorten the litigation. The remaining
Defendants represent that they stand ready to file motions for summary judgment whether or not an appeal is
permitted. An interlocutory appeal, in the instant case,
will not minimize the time, effort or expense of the litigation.
Plaintiff’s Motion to Certify an Interlocutory Appeal
under 28 U.S.C. § 1292(b) is denied.
Fed.R.Civ.P. 54(b)
Fed.R.Civ.P. 54(b) states in pertinent part:

177a
When an action presents more than one claim for
relief–whether as a claim, counterclaim, crossclaim,
or third-party claim–or when multiple parties are
involved, the court may direct entry of a final judgment as to one or more, but fewer than all, claims or
parties, only if the court expressly determines that
there is no just reason for delay.
The Sixth Circuit has outlined a number of factors a district court must consider before entering an order of final
judgment permitting appeal of fewer than all the claims
in a multi-claim action. These factors include:
(1) the relationship between the adjudicated and
unadjudicated claims; (2) the possibility that the
need for review might or might not be mooted by
future developments in the district court; (3) the
possibility that the reviewing court might be
obliged to consider the same issue a second time;
(4) the presence or absence of a claim or counterclaim which could result in set-off against the
judgment sought to be made final; (5) miscellaneous
factors such as delay, economic and solvency considerations, shortening the time of trial, frivolity of
competing claims, expense, and the like. Depending
upon the facts of the particular case, all or some of
the above factors may bear upon the propriety of
the trial court's discretion in certifying a judgment
as final under Rule 54(b).
Corrosioneering, Inc. v. Thyssen Environmental Systems, Inc. 807 F.2d 1279, 1283 (6th Cir.1986).
Rule 54(b) facilitates the entry of judgment, “where
the parties demonstrate[ ] a need for making review
available on some of the claims or parties before entry of
final judgment as to all.” Id. at 1282. However, Callahan

178a
v. Alexander, 810 F. Supp. 884, 886 (E.D.Mich. 1993) instructs:
The Sixth Circuit has mandated that certification
under Fed.R.Civ.P. 54(b) be a rare and extraordinary event. It is available only in unique situations
where the moving party illustrates that, but for the
certification, he would suffer some extreme hardship.
After consideration of these factors and the arguments
of the parties, the Court disagrees with Plaintiff and declines to find that there is no just reason for delay. Federal courts do not favor piecemeal appeals. Thus, the
Court finds that this is not the extreme, rare, extraordinary or unique harsh case where an interlocutory appeal
would be appropriate.
III. CONCLUSION
For the foregoing reasons, the Motion (ECF DKT
#85) of Plaintiff, Ricky Jackson, for Reconsideration, or
in the alternative, to Certify Interlocutory Appeal or Final Judgment under Rule 54(b) on Claims against Administrator of Estates is denied.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: November 10, 2016

179a
APPENDIX G
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
August 4, 2017
————
CHRISTOPHER A. BOKYO, J:
The matter comes before the Court upon the Motion
of Karen Lamendola (ECF DKT #99) for Summary
Judgment on Plaintiff’s claims pursuant to Fed. R. Civ P.
56. For the following reasons, Defendant’s Motion for
Summary Judgment is GRANTED, in part.
FACTUAL AND PROCEDURAL HISTORY
Plaintiff Ricky Jackson filed his original Complaint on
May 19, 2015 against Frank Stoiker, as well as several
other former detectives and the City of Cleveland, alleging constitutional violations by the detectives caused by
the City’s unconstitutional policies and lack of training.
Plaintiff filed his Second Amended Complaint on August
13, 2016. On January 27, 2017, Defendant Karen

180a
Lamendola, Guardian ad Litem for Frank Stoiker, filed a
Motion for Summary Judgment on all claims against him.
In 1975, Ricky Jackson, Kwame Ajamu and Wiley
Bridgeman were arrested and imprisoned for the murder
of Harold Franks. They were found guilty based on the
testimony of then-twelve-year-old Edward Vernon, who
claimed to have witnessed the crime. Nearly forty years
later, after many of the detectives involved in the case
were deceased, Vernon recanted his testimony, claiming
he had been coerced by Cleveland police officers into saying that he had witnessed the crime. The State of Ohio
dismissed the charges against Plaintiff and he filed suit
against the City of Cleveland, several former detectives
and the estates of several deceased detectives. The cases
against the estates were dismissed, leaving only the
claims against the City of Cleveland and former Detectives Frank Stoiker and Jerold Englehart. However,
Stoiker has Alzheimer’s-type Dementia and is represented by Guardian ad Litem Karen Lamendola.
On May 25, 1975, Vernon was taken to a police lineup
by two detectives. The lineup was conducted by a third
police officer. When asked if he recognized anyone in the
lineup, Vernon said no. Vernon had previously identified
Ricky Jackson and Wiley Bridgeman, who were both in
the lineup. After the lineup, two detectives took Vernon
to another room. Vernon later identified one of the detectives as Detective John Staimpel, but Vernon was unable to identify the other detective. Vernon says that
Staimpel got angry, beat the table and yelled at Vernon
for lying. Then Staimpel told Vernon that he would “fix
this” and both detectives left the room for a while. When
they returned, Staimpel gave Vernon a statement to sign,
which said that Vernon recognized Jackson and Bridgeman in the lineup and that Vernon hadn’t identified them

181a
because Vernon was afraid of them. Vernon never told
those detectives that he was afraid and never told them
any of the details of the crime.
In 1975, Frank Stoiker was partnered with John
Staimpel in the Homicide Unit of the Cleveland Police
Department. Stoiker and Staimpel were assigned to the
Franks homicide investigation.
Detectives Eugene
Terpay and James Farmer were the lead detectives on
the case and Stoiker and Staimpel worked the second
shift on the case. Vernon’s only alleged interaction with
Staimpel was on May 25, 1975, and Vernon never alleged
that he met Detective Stoiker and did not recognize
Stoiker’s name or photograph. However, Stoiker signed
a statement dated May 25, 1975, which was also signed
by Staimpel and Vernon.1 Dkt 82-31. This statement
contained a series of questions that Vernon was supposedly asked, along with Vernon’s answers. The statement
covers both the details of the crime and the May 25
lineup.
Stoiker also signed a report dated May 25, 1975, in
which Stoiker said that he and Staimpel picked up
Vernon and another witness to review the lineup, where
Vernon did not identify anyone in the lineup. Dkt. 82-25.2
The report states that Vernon, outside the lineup room,
identified Jackson and Bridgeman and told Stoiker that
Vernon was afraid of the men in the lineup. Stoiker’s
1

Defendant argues that Lamendola was not able to authenticate
Stoiker’s signatures. However, as Lamendola also testified that the
signature on the police report resembles Stoiker’s, this creates an
issue of fact for the jury to determine their authenticity.
2
Defendant objects to this report as hearsay in her Reply Brief.
However, this report would not be offered for the truth of the matter
asserted, as Plaintiffs allege that the statements within are, in fact,
false.

182a
name is on another report, dated May 28, 1975, which
states that he and Staimpel consulted with “Police Prosecutor A. Johnson who issued papers charging the two arrested males . . . ” Dkt. 82-34. This report is unsigned,
but has Stoiker’s name printed on it.
Plaintiff filed suit alleging seven counts under 42
U.S.C. § 1983 against Defendant for withholding exculpatory evidence, fabrication of evidence, malicious prosecution, failure to intervene to prevent a constitutional violation, conspiracy to violate Plaintiffs’ constitutional rights,
supervisory liability improper lineup procedure and three
state law claims for negligence, malicious prosecution and
conspiracy. Defendant moves for summary judgment on
all counts.
Plaintiff argues that Stoiker’s signatures show that he
was present at the lineup and present when Detective
Staimpel threatened Vernon.
Plaintiff argues that
Stoiker left the room, created or helped create the false
statement and forced Vernon to sign it. Defendant argues that there is insufficient evidence to place Stoiker in
the room with Vernon after the lineup and, even if
Stoiker were present, Stoiker did not fabricate or withhold any evidence. Defendant also argues that Stoiker is
entitled to qualified immunity on all counts.
LAW AND ANALYSIS
I. Standard of Review for Summary Judgment
Summary judgment is proper if the movant can show
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). The Court must view the evidence and draw all reasonable inferences in favor of the
nonmoving party. Ciminillo v. Striecher, 434 F.3d 461,
464 (6th Cir. 2006). A dispute is genuine if it is based on

183a
facts on which a reasonable jury could find for the nonmoving party. Tysinger v. Police Dep’t of City of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006). A fact is material if the resolution of the dispute might affect the outcome of the suit. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). To meet its burden, the moving party can either present evidence showing the lack of genuine dispute as to material facts, or it may show the absence of evidence to support the nonmoving party’s
claims. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
Once the moving party has met its burden, the nonmoving party cannot rest on its pleadings; rather, the nonmoving party must point to specific facts in the record
that show that there is a genuine issue for trial. Liberty
Lobby, 477 U.S. at 248-49; Celotex Corp., 477 U.S. at 324.
No matter how sympathetic one may be to Plaintiff’s
plight, the Court is still under an obligation to apply the
law to the evidence Plaintiff submits. Neither time nor
death abrogates Plaintiff’s obligation to support his
claims.
II. Standard for Qualified Immunity
Officials who perform discretionary functions are generally entitled to qualified immunity from individual liability for civil damages unless they violate clearly established rights. Harlow v. Fitzgerald, 457 U.S. 800, 812
(1982). The Sixth Circuit, in determining whether an official is entitled to qualified immunity, applies a threepart test: 1) whether the plaintiff’s constitutional right
was violated; 2) whether that right was clearly established at the time such that a reasonable official would
have understood that he was violating that right; and 3)
whether the official’s action was objectively unreasonable
in light of the clearly established rights. Sample v. Bailey, 409 F.3d 689, 696-97 (6th Cir. 2005). “The contours

184a
of the right must be sufficiently clear that a reasonable
official would understand that what he is doing violates
that right.” Ciminillo v. Streicher, 434 F.3d 461, 468 (6th
Cir. 2006). The legal right cannot be framed in general
terms to encompass an expansive area of law. Bills v.
Aseltine, 52 F.3d 596. 602 (6th Cir. 1995). However, the
exact circumstances of the particular case need not have
been previously held illegal for the right to be “clearly
established,” but the right must be clear in a particularized way to put the official on notice that his conduct is
illegal. See Scicluna v. Wells, 345 F.3d 441, 446 (6th Cir.
2003); Bell v. Johnson, 308 F.3d 594, 602 (6th Cir. 2002).
To determine if a right is clearly established, the
Court looks first to Supreme Court decisions, then decisions from the Sixth Circuit Court of Appeals, then to
other courts within this circuit, and finally to decisions
from other circuits. Buckner v. Kilgore, 36 F.3d 536, 539
(6th Cir. 1994). Decisions from other circuits must point
unmistakably to the unconstitutionality of the act and be
so clearly foreshadowed by direct authority as to leave no
doubt in a reasonable person’s mind that the act is unconstitutional. Gean v. Hattaway, 330 F.3d 758, 767-78
(6th Cir. 2003).
Once the defense of qualified immunity has been
raised, plaintiffs have the burden of demonstrating the
defendant is not entitled to qualified immunity. Rodriquez v. Passinault, 637 F.3d 675, 689 (6th Cir. 2011).
III. Plaintiff’s § 1983 Claims Against Frank Stoiker
Fail Because There is No Evidence Stoiker Committed Constitutional Violations.
A. Fabrication of Evidence
Plaintiff alleges that Stoiker fabricated evidence by
coercing Vernon into signing a false statement and by

185a
submitting a false report to his superiors about the
lineup. Defendant contends that Stoiker was not involved in any coercion and there is no evidence that he
knowingly made any false statements.
The Sixth Circuit has held that “[a]n officer violates a
person’s constitutional rights when he knowingly fabricates evidence against them and a reasonable likelihood
exists that the false evidence would have affected the jury’s decision.” France v. Lucas, 836 F.3d 612, 629 (6th
Cir. 2016). Furthermore, in 1936, the Supreme Court
held that prisoners’ constitutional rights were violated
when police officers coerced confessions used against
them in trial. Brown v. Mississippi, 297 U.S. 278, 286
(1936).
Plaintiff fails to show that Stoiker fabricated evidence
by creating the written statement. Vernon could not
identify Stoiker and did not allege that Stoiker engaged
in any wrongdoing, or was even involved in the investigation. The only evidence that points to Stoiker’s involvement are the signatures on the statement and the report.
However, even if those are Stoiker’s signatures, Plaintiff
has not cited to any policy, practice, or procedure about
the meaning or effect of signature. Therefore, the Court
is left to speculate as to what the signature meant.
Even assuming that Stoiker fabricated the statement
and report, he still did not commit a constitutional violation. The second requirement for a fabrication of evidence claim is that a reasonable likelihood exists that the
false evidence influenced the jury’s decision. It is clear
that the statement and the report did not influence the
jury’s decision in the 1975 trials. Plaintiff cites no evidence that Stoiker’s report was ever even mentioned in
any trial. Furthermore, while parties attempted to introduce the statement in both Bridgeman’s and Ajamu’s

186a
trials, it was objected to and kept out in both. Dkt 114-17
at J2035; Dkt. 114-18 at J3760. In the Jackson trial,
Vernon was asked a series of questions about the statement. Dkt. 114-6 at J1014-16; J1029-39. The questions
concerned inconsistencies between Vernon’s testimony at
trial and the statement, such as whether the victim was
leaving the store or going into the store at the time of the
murder. However, it is unclear whether the jury in the
Jackson trial had the statement while they were deliberating.
In all three trials, there is not a reasonable likelihood
that any false evidence that Stoiker may have created
affected the jury’s decision. Vernon’s live testimony led
to the conviction in all three trials. Vernon testified at
the trial as to what he saw and Stoiker had no part in
compelling any testimony at trial. In the Bridgeman and
Ajamu trials, the statement was kept out by objections,
so the jury did not even hear about its contents. In the
Jackson trial, the statement was used by the defense to
point out inconsistencies. Because of this, it appears that
the jury convicted Jackson in spite of, rather than because of, the statement.
Because there is no evidence that Stoiker committed a
constitutional violation, Plaintiff’s claim of fabrication of
evidence against Stoiker fails. Furthermore, because
there is no evidence that Stoiker committed or knew of a
constitutional violation, there is no evidence that Stoiker
conspired to commit such a violation. Therefore, Plaintiff’s conspiracy claim also fails.
B. Withholding Exculpatory Evidence
Plaintiff alleges that Stoiker violated his Brady obligations to disclose exculpatory evidence by not disclosing
how Vernon’s signed statement was prepared.

187a
In 1963, the Supreme Court held that the prosecutor
has a constitutional obligation to disclose exculpatory evidence to the defendant. Brady v. Maryland, 373 U.S.
83, 87 (1963). Defendant asserts that the Supreme Court
did not extend this duty to police officers until 1995, while
Plaintiffs argue that the Sixth Circuit held a police officer
liable for failure to disclose exculpatory evidence in 1975.
See Kyles v. Whitley, 514 U.S. 419, 437 (1995); Hillard v.
Williams, 516 F.2d 1344, 1349-50 (6th Cir. 1975), vacated
in part, 424 U.S. 961 (1976).
In order to be liable for a Brady violation, Stoiker
must have been in possession of some exculpatory evidence which he did not disclose. Plaintiff alleges that
Stoiker knew that Vernon did not witness the crime because Vernon told police that he did not know anybody in
the lineup involved in the murder. However, that is not
what Vernon actually said. Vernon explained that he
thought the police were asking him whether he saw anyone in the lineup that had committed the crime. What
the police actually asked Vernon was whether he knew
anyone in the lineup and Vernon said no. Dkt. 82-11 at
J6452. Vernon’s personal, unspoken meaning cannot
prove what Stoiker understood or knew. Furthermore,
the officers knew that Vernon had previously identified
the men and had led Detectives Terpay and Farmer to
their houses.
Plaintiff’s other allegation of withholding exculpatory
evidence is that Stoiker did not disclose how the statement was prepared. However, as discussed above, there
is no evidence Stoiker fabricated the statement or knew
that it was fabricated. Plaintiff cannot demonstrate by a
preponderance of evidence that Stoiker had any exculpatory evidence to disclose.

188a
Furthermore, even if Stoiker had exculpatory evidence which he did not disclose, he would be entitled to
qualified immunity against the Brady claim. Defendant
argues that evidence of an officer’s wrongdoing is not exculpatory evidence, citing a recent Seventh Circuit decision, Saunders-El v. Rohde, 778 F.3d 556 (7th Cir. 2015),
in which the court held that Brady does not require police officers to disclose the circumstances of their investigations. However, as Plaintiff points out, the Seventh
Circuit has also recently held that police violate Brady
when they withhold the pressure tactics employed to
threaten witnesses. Avery v. City of Milwaukee, 847
F.3d 433, 443 (7th Cir. 2017). These cases are difficult to
reconcile, but neither constitute binding precedent and
neither indicate that the law was clearly established in
1975 as to whether evidence of police misconduct is exculpatory or impeachment evidence. A reasonable official
would not be aware that failure to disclose a constitutional violation would itself be a second constitutional violation. Without case law clearly establishing a defendant’s
right to have police misconduct disclosed to him before
trial, police would not be on notice of such a right. Plaintiff has not pointed to any case law suggesting that this
principle was clearly established in 1975.
Plaintiff cannot show that Stoiker had exculpatory evidence to disclose, or that it was clearly established in
1975 that Brady required police officers to disclose evidence of their own misconduct. Therefore, Plaintiff’s
Brady claims fails.
C. Malicious Prosecution
A person’s constitutional rights are violated if they are
maliciously prosecuted without probable cause. Gregory
v. City of Louisville, 444 F.3d 725, 750 (6th Cir. 2006). To
prove Stoiker liable for malicious prosecution, Plaintiffs

189a
must show that Stoiker influenced Plaintiffs’ arrest or
continued detention and that the influence was based on
knowing misstatements or “pressure or influence” over
the prosecutor or someone who testified at the initial
hearing. Sykes v. Anderson, 625 F.3d 294, 316. Plaintiffs
must also show a lack of probable cause for the prosecution. Id. at 308-09.
As discussed above, Plaintiff cannot show that Stoiker
made knowing misstatements. Furthermore, there is no
evidence that Stoiker influenced the prosecutor or any
witness. Prosecutor Del Balso interviewed Vernon and
found him to be a credible witness. While Stoiker’s report does indicate that he spoke to a prosecutor, the report does not have the content of that conversation and it
is not a reasonable inference that Stoiker influenced the
prosecutor, especially since Vernon was available to give
live testimony.
Plaintiff also cannot show a lack of probable cause. An
indictment by a grand jury is sufficient to show probable
cause, unless the indictment was the result of police officers knowingly presenting false evidence or testimony.
France, 836 F.3d at 626. Plaintiff was indicted by the
grand jury and there is no evidence to suggest that
Stoiker testified to the grand jury, or that his report was
used to obtain the indictment. The indictment was obtained from Vernon’s live testimony about witnessing the
crime. While Vernon says that he was coerced into testifying that he saw the crime, Stoiker played no part in
that coercion. Vernon alleges that only Detectives
Terpay and Farmer compelled Vernon’s live testimony.
There is no evidence to suggest that Stoiker influenced
Vernon’s live testimony at all. Furthermore, as discussed
above, there is no evidence to suggest that Stoiker knew
that Vernon’s testimony was false.

190a
Because Plaintiff was indicted by a grand jury and because Stoiker did not testify or present knowing misstatements to the prosecution, Plaintiff’s claim of malicious prosecution fails.
D. Plaintiff’s Remaining § 1983 Claims
There is no evidence to suggest that Stoiker committed supervisory misconduct, improperly influenced the
lineup procedure, or failed to intervene. Furthermore,
Plaintiff did not argue any of these claims in their Opposition Brief. Therefore, Plaintiff’s other § 1983 claims are
dismissed.
IV. Plaintiff ’s State Law Claims Are Dismissed Without Prejudice.
The Court declines to exercise its supplemental jurisdiction over Plaintiff’s state law claims and dismisses
them without prejudice.
CONCLUSION
Because Plaintiff failed to show that Stoiker fabricated
evidence, or knew or should have known that other officers fabricated evidence, Defendant’s Motion for Summary Judgment is GRANTED, in part.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: August 4, 2017

191a
APPENDIX H
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
August 4, 2017
————
CHRISTOPHER A. BOKYO, J:
This matter comes before the Court upon the Motion
of Defendant Jerold Englehart (ECF DKT #100) for
Summary Judgment on Plaintiff’s claims pursuant to
Fed. R. Civ P. 56. For the following reasons, Defendant’s
Motion for Summary Judgment is GRANTED, in part.
FACTUAL AND PROCEDURAL HISTORY
Plaintiff Ricky Jackson filed his original Complaint on
May 19, 2015 against Defendant Jerold Englehart, as
well as several other former detectives and the City of
Cleveland, alleging constitutional violations by the detectives caused by the City’s unconstitutional policies and
lack of training. Plaintiff filed his Second Amended
Complaint on August 3, 2016. On January 27, 2017, De-

192a
fendant Jerold Englehart filed a Motion for Summary
Judgment on all claims against him.
In 1975, Ricky Jackson, Kwame Ajamu and Wiley
Bridgeman were arrested and imprisoned for the murder
of Harold Franks. They were found guilty based on the
testimony of then-twelve-year-old Edward Vernon, who
claimed to have witnessed the crime. Nearly forty years
later, after many of the detectives involved in the case
were deceased, Vernon recanted his testimony, claiming
he had been coerced by Cleveland police officers into saying that he had witnessed the crime. The State of Ohio
dismissed the charges against Plaintiff and he filed suit
against the City of Cleveland, several former detectives
and the estates of several deceased detectives. The cases
against the estates were dismissed, leaving only the
claims against the City of Cleveland and former Detectives Frank Stoiker and Jerold Englehart.
In 1975, Jerold Englehart worked in the Criminal
Statement Unit of the Cleveland Police Department. His
duties involved taking typed statements from victims,
witnesses and defendants. Englehart testified that he
did not remember taking statements relating to the murder of Harold Franks and that he did not remember taking Vernon’s statement. Englehart testified that he never typed the statement of a witness who was not present
at the time. Englehart did not investigate Franks’ murder.
On May 25, 1975, Vernon was taken to the police station to review a lineup. After the lineup, Plaintiff alleges
that Detectives Frank Stoiker and John Staimpel gave
Vernon a prepared statement about the lineup (“Statement”) to sign and that the Statement contained false
claims. Dkt. 82-31. Plaintiff alleges that Vernon was coerced into signing it. The Statement had Englehart’s last

193a
name and badge number typed at the bottom. This is the
only piece of evidence connecting Englehart to this case.
Vernon never met Englehart and does not remember
hearing his name during the investigation. Englehart did
not sign the Statement.
Plaintiff filed suit alleging seven counts under 42
U.S.C. § 1983 against Defendant for withholding exculpatory evidence, fabrication of evidence, malicious prosecution, failure to intervene to prevent a constitutional violation, conspiracy to violate Plaintiff’s constitutional rights,
supervisory liability, improper lineup procedure and
three state law claims for negligence, malicious prosecution and conspiracy. Defendant moves for summary
judgment on all counts.
Plaintiff alleges that Defendant’s name on the Statement indicates that Defendant typed the Statement and
that Defendant prepared it without Vernon present.
Plaintiff further alleges that Defendant conspired with
Detectives Stoiker and Staimpel to prepare a false
statement for Vernon to sign, or that Defendant at least
knew or should have known that the Statement was false,
since Staimpel had Defendant create the Statement
without the witness present. Defendant argues that
Englehart’s typed name is insufficient evidence to show
that Englehart prepared the Statement and that even if
he did prepare the Statement, it is not the same statement that Vernon signed after the lineup, and thus, there
is no evidence about how the Statement was prepared.
Defendant also argues that Englehart is entitled to qualified immunity on all counts.

194a
LAW AND ANALYSIS
I. Standard of Review for Summary Judgment
Summary judgment is proper if the movant can show
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). The Court must view the evidence and draw all reasonable inferences in favor of the
nonmoving party. Ciminillo v. Striecher, 434 F.3d 461,
464 (6th Cir. 2006). A dispute is genuine if it is based on
facts on which a reasonable jury could find for the nonmoving party. Tysinger v. Police Dep’t of City of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006). A fact is material if the resolution of the dispute might affect the outcome of the suit. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). To meet its burden, the moving party can either present evidence showing the lack of genuine dispute as to material facts, or it may show the absence of evidence to support the nonmoving party’s
claims. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
Once the moving party has met its burden, the nonmoving party cannot rest on its pleadings; rather, the nonmoving party must point to specific facts in the record
that show that there is a genuine issue for trial. Liberty
Lobby, 477 U.S. at 248-49; Celotex Corp., 477 U.S. at 324.
No matter how sympathetic one may be to Plaintiff’s
plight, the Court is still under an obligation to apply the
law to the evidence Plaintiff submits. Neither time nor
death abrogates Plaintiff’s obligation to support his
claims.

195a
II. There Is Insufficient Evidence To Show That Defendant Was Involved In Fabricating Or Withholding Evidence.
Defendant argues that Englehart’s name on the
Statement is insufficient evidence to support Plaintiffs’
claim that Defendant prepared the statement. However,
Englehart testified that normally, when he prepared a
statement, he typed his name and badge number at the
bottom. This supports a reasonable inference that
Englehart prepared it. Englehart’s statement that he
does not recall preparing this statement at most creates
an issue of fact. Taking the evidence and drawing all reasonable inferences in favor of the non-moving party,
there is enough evidence that a jury could conclude that
Englehart typed the Statement.
Englehart further contends that the evidence shows
that the Statement is not the one that Detectives Stoiker
and Staimpel forced Vernon to sign. Vernon testified in
his deposition that the statement he signed after viewing
the lineup only stated that Vernon was too scared to pick
someone out of the lineup, while the Statement also contains information about the crime itself. Dkt. 64-1 at 8586. However, in Vernon’s declaration, Vernon states that
the Statement was shown to him at Plaintiff’s trial and
that Vernon recalled only signing one statement. Dkt.
82-31. Furthermore, the Statement is dated May 25,
1975, the day of the lineup. This creates an issue of fact
as to how the Statement was prepared and whether
Vernon signed it right after the lineup. Once again, viewing all evidence in the light most favorable to Plaintiffs,
there are issues of fact concerning whether the representations in the Statement accurately reflect what Vernon
told the investigating officers.

196a
However, even though there are genuine issues of fact,
these issues are not material, as even taking the evidence
in the light most favorable to Plaintiff and drawing reasonable inferences in his favor, there is not enough evidence to show that Englehart committed a constitutional
violation. The Court must draw reasonable inferences in
favor of the non-moving party, but “[t]his standard . . .
does not allow, much less require, that we draw strained
and unreasonable inferences in favor of the nonmovant.”
Willis v. Roche Biomedical Laboratories, Inc., 21 F.3d
1368, 1380 (5th Cir.1994)(emphasis in original). While the
inferences that Englehart prepared the Statement and
that the Statement were made the day of the lineup are
reasonable, Plaintiff also asks the Court to infer that because Englehart prepared the Statement without Vernon
present, Englehart knew or should have known that the
Statement was false. This inference is unreasonable.
Plaintiff cites no case law to suggest that Englehart
committed a constitutional violation by preparing the
statement without Vernon present and cites no facts in
the record to indicate what Englehart knew when preparing the Statement. Instead, Plaintiff asserts that because the Statement is false and because Englehart prepared it without the witness present, Englehart knew or
should have known that it was false. This goes beyond
reasonable inferences. There is no evidence to suggest
that Englehart conspired with any other police officers,
that Englehart knew that the information in the Statement was false, or that Englehart had any reason to
know that the information was false.
Even assuming that Englehart knew the Statement
contained false information, Plaintiff failed to establish
the elements required for fabrication of evidence. The
Sixth Circuit has held that “[a]n officer violates a per-

197a
son’s constitutional rights when he knowingly fabricates
evidence against them and a reasonable likelihood exists
that the false evidence would have affected the jury’s decision.” France v. Lucas, 836 F.3d 612, 629 (6th Cir.
2016). Vernon testified live before the grand jury and at
all three trials. Plaintiff was convicted based on that live
testimony, not Vernon’s prior written statements. The
Statement could not have been used to obtain Plaintiff’s
convictions and therefore, the Statement could not have
affected the jury’s decision.
Because Plaintiff has not demonstrated that
Englehart knew the Statement contained false information, all of Plaintiff’s federal claims against Englehart
fail.
III. Plaintiff ’s State Law Claims Are Dismissed Without Prejudice.
The Court declines to exercise its supplemental jurisdiction over Plaintiff’s state law claims and dismisses
them without prejudice.
CONCLUSION
Because Plaintiff has not alleged any facts connecting
Defendant to the Franks murder investigation or to the
fabrication of Vernon’s statements, Defendant’s Motion
for Summary Judgment is GRANTED, in part.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: August 4, 2017

198a
APPENDIX I
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
August 4, 2017
————
CHRISTOPHER A. BOKYO, J:
This matter comes before the Court upon the Motion
of the City of Cleveland for Summary Judgment (ECF
DKT # 101) on Plaintiffs’ claims pursuant to Fed. R. Civ
P. 56. For the following reasons, Defendant’s Motion for
Summary Judgment is GRANTED.
FACTUAL AND PROCEDURAL HISTORY
Plaintiff Ricky Jackson filed his original Complaint on
May 19, 2015, against Defendant City of Cleveland and
several individual former detectives, alleging constitutional violations by the detectives caused by unconstitutional policies and inadequate training by the City. Plaintiff filed his Second Amended Complaint on August 3,
2016, against Defendants City of Cleveland, former De-

199a
tective Jarold Englehart and Karen Lamendola, Guardian ad Litem on behalf of Frank Stoiker. On January 27,
2017, Defendant City of Cleveland filed a Motion for
Summary Judgment on all claims against the City.
In 1975, Plaintiff was convicted of murdering Harold
Frank. His conviction was based on the eyewitness testimony of twelve-year old Eddie Vernon. However, nearly forty years later, in 2014, Vernon recanted his testimony, claiming that he never witnessed the crime and
that he had been coerced into testifying. After being released, Plaintiff brought suit against the Investigative
Officers in the Frank murder investigation and the City
of Cleveland. Many of the detectives involved in the investigation were deceased by the time Plaintiff filed his
claims and the Court dismissed the claims against the
deceased detectives’ estates. Plaintiff’s remaining claims
are against Karen Lamendola, Detective Jerold
Englehart and the City of Cleveland.
The Cleveland Police Department in the 1970's had
two forms of written rules: the Manual of Rules of Conduct and Discipline for Officers, Members, and Employees of the Division of Police (“Manual”), and General Police Orders (“GPOs”). Defendant cites several rules in
the Manual that Defendant alleges relate to the requirement to disclose exculpatory evidence. Rule 66 requires
police officers to familiarize themselves with the facts of a
case, “so that all of the evidence may be properly presented to the court.” Dkt. 65-1 at 4. Rule 77 requires officers to report on all matters they investigate and Rule
78 requires that all written and verbal reports be truthful
and unbiased. Id. at 8-9. Plaintiff cites GPO No. 19-73,
which contains Rule 16 of the Ohio Rules of Criminal
Procedure. Dkt. 65-7. The GPO states that the police
department shall not give reports or evidence directly to

200a
defense counsel. Id. The Order also clarifies that the
rules of criminal procedure “will be employed through
the courts and through the prosecuting attorney.” Id.
The GPO does not state the obligations of the police to
disclose information to the prosecuting attorney. The
Cleveland Police Department’s rules and policies have
since been updated.
Several former detectives, along with Edward Tomba,
the Deputy Chief of Homeland Security and Special Operations for the Cleveland Police Department, testified
about the rules and training in place in the 1970's. All of
them testified that Cleveland police officers in the 70's
received both academy and on-the-job training to be police officers. Several witnesses testified that the academy
trained officers to disclose exculpatory evidence, while
others testified that the academy provided no such training. Several witnesses testified that they received onthe-job training to disclose exculpatory evidence to the
prosecutor and no witness testified that on-the-job training did not include the duty to disclose, or that they were
trained not to disclose such evidence.
Plaintiff provided several instances of alleged police
misconduct in the years leading up to their incarceration.
Plaintiff cite a 1972 memo from then-Mayor Ralph Perk,
in which Perk said that police misconduct was rampant.
Dkt 102-16 at 88. However, the misconduct involved was
failure to respond to citizen complaints and the indictment of officers for manslaughter, armed robbery and
rape. Plaintiff also cites two alleged incidents of Cleveland police coercing witness statements through force or
threat, one in 1974, and one in 1977, two years after
Plaintiffs’ incarceration. Former Detectives Ronald
Turner and William Tell, Sr. also testified that detectives

201a
often did not follow the policy of turning over all evidence
to the prosecutors.
Plaintiff brought suit against the individual officers for
violating their constitutional rights by withholding exculpatory evidence, fabricating evidence, malicious prosecution and unconstitutional lineup procedure. Plaintiff also
brought suit against the City of Cleveland under a theory
of municipal liability under 42 U.S.C. § 1983, alleging that
Defendant’s unconstitutional policies and failure to
properly train officers resulted in the violation of Plaintiff’s rights.
Defendant moves for Summary Judgment on all
claims, arguing that Plaintiff presented no facts to show
an underlying constitutional violation and arguing that
the undisputed record shows that the City had adequate
policies and training during the 70's. Plaintiff argues that
Defendant had an explicitly unconstitutional policy, that
Defendant should have had rules instructing police officers to disclose exculpatory evidence and that Defendant
failed to adequately train police officers to disclose such
evidence.
LAW AND ANALYSIS
I. Standard of Review for Summary Judgment
Summary judgment is proper if the movant can show
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). The Court must view the evidence and draw all reasonable inferences in favor of the
non- moving party. Ciminillo v. Striecher, 434 F.3d 461,
464 (6th Cir. 2006). A dispute is genuine if it is based on
facts on which a reasonable jury could find for the nonmoving party. Tysinger v. Police Dep’t of City of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006). The fact is ma-

202a
terial if the resolution of the dispute might affect the outcome of the suit. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). To meet its burden, the moving party can either present evidence showing the lack of genuine dispute as to material facts, or it may show the absence of evidence to support the nonmoving party’s
claims. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
Once the moving party has met its burden, the nonmoving party cannot rest on its pleadings; rather, the nonmoving party must point to specific facts in the record
that show that there is a genuine issue for trial. Liberty
Lobby, 477 U.S. at 248-49; Celotex Corp., 477 U.S. at 324.
No matter how sympathetic one may be to Plaintiff’s
plight, the Court is still under an obligation to apply the
law to the evidence Plaintiff submits. Neither time nor
death abrogates Plaintiff’s obligation to support his
claims.
II. Monell Claims Require an Underlying Constitutional Violation.
In order to bring a Monell claim against a municipality, there must be an underlying constitutional violation
by one of the municipality’s employees. Watkins v. City
of Battle Creek, 273 F.3d 682 (6th Cir. 2001). Plaintiffs
allege constitutional violations by Frank Stoiker and
Jarold Englehart. However, Plaintiffs also allege that,
even if the claims against the individual defendants are
dismissed, Plaintiffs’ Monell claim can still proceed as
long as they can show any constitutional violation by an
officer, even if that officer is not liable for that violation.
In Garner v. Memphis Police Department, 8 F.3d 358,
the Sixth Circuit held that, even though the claim against
the only individual defendant had been dismissed due to
qualified immunity, the Monell claim against the city
could continue. Defendant alleges that Plaintiffs have

203a
not alleged enough facts for the Court to find there was
an underlying constitutional violation.
The Court will not decide this question at this time.
Regardless of whether any of the detectives involved in
the Franks homicide investigation committed any constitutional violations, Plaintiffs’ Monell claims fail as a matter of law on an independent basis discussed below.
III. Plaintiff ’s Monell Claims Fail as a Matter of Law.
A city or municipality may only be held liable for the
constitutional violations of its own employees under 42
U.S.C. § 1983 if those actions are the result of a practice,
policy, or custom of the municipality itself. Monell v. Department of Social Services, 436 U.S. 658 (1978). There
are four types of municipal action that, if they cause the
underlying constitutional violation, can establish liability
under a Monell claim: 1) legislative enactments or official
policy; 2) actions by officials with final decision-making
authority; 3) a policy of inadequate training or supervision; or 4) a custom of tolerance of rights violations.
France v. Lucas, No. 1:07CV3519, 2012 WL 5207555, at
*12 (N.D. Ohio Oct. 22, 2012), aff'd, 836 F.3d 612 (6th Cir.
2016).
Plaintiff, in his opposition brief, did not argue that Defendant is liable under the second or fourth theory of liability. Plaintiff also did not present argument defending
his claims for fabrication of evidence, malicious prosecution, or improper lineup procedure. As discussed above,
once the party moving for Summary Judgment meets its
burden of production, the non-moving part must present
specific facts from the record that support its claim. Celotex Corp. v. Catrett, 477 U.S. 324 (1986). Since Plaintiff
failed to do so, he cannot rely on the pleadings to survive
Summary Judgment. It is not the Court’s role to “wade

204a
through” the record to find specific facts which may support the nonmoving party’s claims. United States v.
WRW Corp., 986 F.2d 138, 143 (6th Cir. 1993). Thus,
even though the record may contain evidence to support
other claims or theories, Plaintiff has waived that argument by not raising it in their opposition brief. Furthermore, Plaintiff has not pointed to any facts that would
show that the other claims were the result of an unconstitutional policy or failure to train police officers.
A. Defendant Did Not Have an Unconstitutional
Policy to Withhold Exculpatory Evidence.
Plaintiff argues that Defendant is liable under the first
method of Monell liability for two reasons. First, that
Defendant had an explicit unconstitutional policy that
forbade police officers from disclosing exculpatory evidence to defendants. Second, that Defendant lacked an
adequate policy on police officers’ obligations under
Brady v. Maryland 373 U.S. 83 (1963) and that the need
for such a policy was so significant and so obvious that
the lack of policy amounts to an deliberate indifference.
However, both of these arguments fail because Defendant did have official policies in place specifically requiring
police officers to report on everything they investigated.
1. The City Did Not Have an Explicit Unconstitutional Policy.
Under the first method of Monell liability, a municipality is liable for the constitutional violations of its employees if they are executing a “policy statement, ordinance, regulation, or decision” of the city. Monell v. Department of Social Services, 436 U.S. 658 (1978). The occasional negligent administration of an otherwise sound
policy is not enough; the policy itself must either be unconstitutional, or it must have “mandated, encouraged, or

205a
authorized” unconstitutional conduct.
Heyerman v.
Cnty. of Calhoun, 680 F3d 642, 648-49; France, 2012 WL
5207555, *10. In Brady, the Supreme Court held that
“the suppression by the prosecution of evidence favorable
to an accused upon request violates due process . . ., irrespective of the good faith or bad faith of the prosecution.”
Brady, 373 U.S. at 87.
Plaintiff alleges that GPO 19-73 was an unconstitutional policy because it forbade police officers from disclosing evidence to defense attorneys, which violates the
requirements of Brady. The GPO states that police officers shall not disclose records or evidence to defense
counsel. This order is consistent with Brady. Brady requires prosecutors to disclose exculpatory evidence to
defense counsel and requires that police officers disclose
that evidence to prosecutors. Id.; See also Kyles v. Whitley, 514 U.S. 419, 437–438. The General Police Order applies, as the name suggests, to police officers, not prosecutors. The GPO states that the rules of criminal procedure are enacted through the courts and the prosecuting
attorney. Dkt. 65-7. Since the GPO does not forbid disclosing information to the prosecutor, this policy is not
unconstitutional.1
Plaintiff claims that Defendant admitted that GPO 1973 was unconstitutional by changing the rule. This argument is meritless. First, this use of evidence is clearly
inadmissible under Fed. R. Evid. 407, which prohibits evidence of subsequent remedial measures to prove culpable conduct. Even though Defendant did not raise the
1

Even if GPO 19-73 did forbid the prosecution from disclosing exculpatory evidence, the alleged constitutional violation in this case is the
failure of police officers to disclose evidence to the prosecution,
which the GPO does not forbid.

206a
evidentiary objection, the Court has discretion to disregard inadmissible evidence in considering a motion for
summary judgment. Wiley v. U.S., 20 F.3d 222 at 226
(6th Cir. 1994); see also Capobianco v. City of N.Y., 422
F.3d 47, 55 (2d Cir. 2005); United States v. Dibble, 429
F.2d 598, 603 (9th Cir. 1970). Second, Plaintiff cites no
evidence as to the reason the rules were changed. The
mere fact that police policies have changed in the fortytwo years since 1975 is not evidence that the old policies
were unconstitutional. Third, to allow Plaintiff to make
such an inference would be plainly against public policy.
If parties could use a change of rules or policies to prove
that the old policies were unconstitutional, municipalities
would avoid updating their policies for fear of creating
liability under Monell claims. Since there is a strong
public interest in having municipalities improve out-ofdate policies, Plaintiff’s argument fails.
2. The City Was Not Deliberately Indifferent in
Not Adopting Better Policies.
Even if a municipality has not adopted an explicitly
unconstitutional policy, the municipality may be liable for
the failure to make a policy where one is needed. Jones
v. City of Chicago, 787 F.2d 200, 204 (7th Cir. 1986). The
Supreme Court held that a city’s deliberate choice not to
have a policy can be characterized as municipal policy.
City of Canton v. Harris, 489 U.S. 378 (1989). However,
it is not enough that a policy be imperfect; liability for
failure to adopt a policy requires “deliberate indifference” to a “plainly obvious danger.” Armstrong v.
Squadrito, 152 F.3d 564, 578 (7th Cir. 1998). The municipality may be deliberately indifferent if there is a pattern
of violations that puts the municipality on notice, or if the
inadequacy of the policy in preventing constitutional vio-

207a
lations is obvious. Miller v. Calhoun Cnty., 408 F.3d 803,
816-17 (6th Cir. 2005).
The Manual contains the rules regarding disclosure of
evidence to prosecutors. Rule 77 states that “[o]fficers
and members shall report on all matters referred to or
investigated by them.” Dkt 66-2 at 59. Rule 77 further
requires all police officers to submit their reports to their
superior officers. Plaintiff contends that these reports
were incomplete, but all parties agree that the reports
were required to be turned over to the prosecutors. Rule
78 requires that “[w]ritten and verbal reports . . . shall be
truthful and unbiased.” Id. at 60. The plain language of
these policies means that police officers must report
truthfully and completely on everything they investigate.
Therefore, the City did have a policy in place that addressed the Brady obligations of police officers, since
turning over everything to prosecutors would naturally
include exculpatory and impeachment evidence.
Plaintiff argues that, even if Rules 77 and 78 cover disclosing evidence to prosecutors, the rules are inadequate
to prevent constitutional violations because they are too
vague and do not instruct police officers as to what evidence might be exculpatory. In order for Plaintiffs’ argument to prevail, the policy would have to be so inadequate as to constitute deliberate indifference by the City.
Miller, 408 F.3d at 817. This requires that either the
City knew that its policy was inadequate, or that the policy was so inadequate that the danger of violation was
plainly obvious. Armstrong, 152 F.3d at 578.
Plaintiff argues that Defendant knew that the policy
was inadequate. Plaintiff points to several reports detailing concerns with the Cleveland Police Department from
the early 1970's. However, these reports concern police
officers engaging in criminal activity and failing to re-

208a
spond to calls for assistance. These reports do not show
that the City was on notice that their policy regarding
disclosing exculpatory evidence was inadequate. Plaintiff
also argues that Defendant admits that the Rules were
inadequate because the Rules have since been replaced.
As discussed above, this argument is based on subsequent remedial measures and has no merit. Therefore,
Plaintiff has not alleged facts showing that Defendant
had notice of the need for new policies.
Plaintiff also argues that the Rules were so vague and
the risk of constitutional violations so great that Defendant was deliberately indifferent to the need for better
policies. Plaintiff relies heavily on his expert witness,
Donald Anders, who testified that Rule 77 could be interpreted to mean that police officers were merely required
to report that they investigated a matter, without reporting on the details of what the officer learned. Dkt. 105 at
74-79. However, the requirement to report on “all matters” is not ambiguous. The plain language clearly requires police officers to turn over everything to prosecutors. Furthermore, as a police expert rather than a legal
expert, Anders is not qualified to testify as to how other
police officers may have interpreted the rule or as to the
legal adequacy of the rule. Liability for an insufficient
policy requires deliberate indifference, and where there
is a written policy requiring police officers to report on all
their investigations, the attempts of an expert to obfuscate the rule to show how it might be inadequate will not
suffice to show deliberate indifference.
B. Plaintiff Cannot Show That the City’s Training
of Officers was Inadequate.
Plaintiff asserts that Defendant is liable under Monell
for failing to properly train the police officers involved in
the 1975 homicide investigation. However, Plaintiff has

209a
not alleged sufficient facts to show that the on-the-job
training of officers was inadequate.
A municipality may be liable under § 1983 for failure to
train its employees, but only where such failure reflects a
deliberate or conscious choice. City of Canton v. Harris,
489 U.S. 378 (1989). To prevail on a claim for failure to
train, a plaintiff must show: 1) the training was inadequate for the tasks officers must perform; 2) the inadequacy was the result of the city’s deliberate indifference;
and 3) the inadequacy was closely related to or caused
the injury. Ciminillo v. Streicher, 434 F.3d 461, 469 (6th
Cir. 2006). There are two ways a plaintiff can show that
the inadequate training was the result of deliberate indifference. First, the plaintiff can show “prior instances of
unconstitutional conduct demonstrating that the County
has ignored a history of abuse and was clearly on notice
that the training in this particular area was deficient and
likely to cause injury.” Fisher v. Harden, 398 F.3d 837,
849 (6th Cir. 2005). Second, a plaintiff can demonstrate
deliberate indifference even where there are no prior instances of constitutional violations “by showing that officer training failed to address the handling of exculpatory materials and that such a failure has the ‘highly predictable consequence’ of constitutional violations of the
sort Plaintiff suffered.” Gregory v. City of Louisville,
444 F.3d 725, 753 (6th Cir. 2006) (citation omitted).
Plaintiff has failed to provide evidence showing that
the training given to the officers was inadequate. While
Plaintiff provided enough evidence to dispute whether
the police academy covered handling exculpatory evidence, this dispute is not material. Defendant cites multiple witnesses who stated that police officers received
on-the-job training to disclose all evidence, including exculpatory evidence to the prosecutor and Plaintiff has

210a
presented no evidence to suggest that on-the-job training
did not include handling exculpatory evidence. This
training is not insufficient merely because it is on-the-job
training rather than formal academy training, because
“failure-to-train liability is concerned with the substance
of the training, not the particular instructional format.”
Connick v. Thompson, 563 U.S. 51, 68 (2011). Plaintiff
again relies on Anders’ testimony, who stated that he believes that on-the-job training is always ineffective and
therefore, the Court should infer that the officers’ training in this case was inadequate. However, Anders’ opinion about on-the-job training in general cannot create a
genuine issue of fact where the undisputed facts on the
record shows that officers received on-the-job training to
disclose exculpatory evidence. Therefore, since Plaintiff
has not provided enough evidence to create a genuine issue of material fact as to whether police officers received
on-the-job training to disclose exculpatory evidence, he
cannot meet their burden of showing that the training
was inadequate for the tasks police officers had to perform.
Plaintiff does point to evidence in the record in the
form of testimony by former Detective Turner and Tell,
that there was a widespread custom of police committing
constitutional violations. This evidence does suggest that
there were problems with the Cleveland Police Department in the 1970's. However, this concern falls short of
supporting Plaintiff’s claims. Evidence that officers
committed violations is not evidence that those officers
were not trained, especially in the face of undisputed direct evidence that officers received on- the-job training to
disclose all evidence. “Indeed, a law enforcement officer’s choice to lie, fabricate evidence, or conceal exculpatory evidence would appear to be one that is made de-

211a
spite any training.” France v. Lucas, No. 1:07CV3519,
2012 WL 5207555, at *12 (N.D. Ohio Oct. 22, 2012), aff'd,
836 F.3d 612 (6th Cir. 2016).
C. Plaintiff Cannot Show a Widespread Custom of
Constitutional Violations.
While Plaintiff does not explicitly argue that Defendant is liable due to a widespread custom of constitutional
violations, Plaintiff does cite some evidence from the record that suggests the possibility of such a custom. However, this evidence falls short of supporting Plaintiff’s
Monell claims.
In order to establish liability for a custom of tolerating
constitutional violations, Plaintiff must prove four things:
1) a persistent pattern of illegal activity; 2) notice or constructive notice on the part of Defendant; 3) Defendant’s
tacit approval of the unconstitutional conduct; and 4) that
Defendant’s custom caused the underlying constitutional
violation. France, 2012 WL 5207555, at *12 (citing
Thomas v. City of Chattanooga, 398 F.3d 426, 429 (6th
Cir. 2005)).
Plaintiff cannot establish these elements for three reasons. First, Plaintiff relies on the testimony of former
Detectives Ronald Turner and William Tell. While both
worked for the City of Cleveland Police Department during the 1970's, neither were ever a homicide detective.
Turner worked in the Vice Unit and Tell worked in the
Auto Theft Unit. These officers cannot speak to the policies, practices and customs of the Homicide Unit.
Second, Plaintiff relies on Anders’ expert testimony
that there was a custom of constitutional violations.
However, expert testimony must be based on sufficient
facts to support the conclusion. Since Turner and Tell
lack personal knowledge of the Homicide Unit’s policies,

212a
Anders’ speculation cannot create a genuine issue of material fact.
Third, even if Plaintiff could show a widespread custom of violations, they presented no evidence that Defendant had notice of this custom. Plaintiff points to no
evidence that the Mayor or the Chief of Police were ever
informed of any failures of officers to disclose exculpatory evidence to prosecutors. Defendant had no notice or
reason to be on notice that homicide detectives failed to
disclose exculpatory evidence to prosecutors.
Because Plaintiff cannot establish the existence of a
widespread custom of constitutional violations in the
Homicide Unit and that Defendant had notice of such a
custom, Plaintiff cannot meet his burden to prove Monell
liability for a custom of constitutional violations.
CONCLUSION
Because Plaintiff has not shown that Defendant had
an unconstitutional policy and was deliberately indifferent to the need for better policies or inadequately trained
its police officers, Defendant’s Motion for Summary
Judgment is GRANTED.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: August 4, 2017

213a
APPENDIX J
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
ORDER
————
July 5, 2016
————
CHRISTOPHER A. BOKYO, J:
This matter is before the Court on the Motion to Dismiss all claims alleged against the Estate of Eugene Tarpay, the Estate of James T. Farmer, the Estate of John
Staimpel and the Estate of Peter F. Comodeca. (ECF #
19). In the companion case of Ricky Jackson v. City of
Cleveland, et al., presently pending before the Court, involving the same Defendants and arising from the same
prosecution of a murder in 1975, the Court granted the
same movants’ Motion to Dismiss, holding that Estates
are not sui juris under Ohio law. See Jackson v. City of
Cleveland, et al. Case No. 15-989 (Opinion and Order
ECF # 65). In Jackson, the Court relied on the Ohio appellate court decision in West v. West, Case No.
96APE11-1587, 1997 WL 559477 at *5, (Ohio App. 10th

214a
Sept. 2, 1997) wherein the court held “An estate cannot
sue or be sued; any action for or against it must be
brought by or against the executor or personal representative of the decedent.”). Plaintiffs in the abovecaptioned case, recognizing the procedural error in
bringing claims against the Estates which were either
closed or never opened, with no administrators or executors with the capacity to be sued, have subsequently filed
for Leave to Amend the Complaint in order to add the
duly appointed administrators of the above Estates.
Therefore, for the reasons stated in the Court’s Opinion and Order dismissing the above Estates in Jackson,
the Court grants Defendants Motion to Dismiss, without
prejudice the above named Estates in this action.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge

215a
APPENDIX K
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
July 15, 2016
————
CHRISTOPHER A. BOKYO, J:
This matter comes before the Court upon the Motion
(ECF DKT #33) of Plaintiffs, Kwame Ajamu and Wiley
Bridgeman, for Leave to File a First Amended Complaint. For the following reasons, the Motion is denied
because the amendment would be futile.
I. BACKGROUND
This case was brought under 42 U.S.C. § 1983 and under state law against the City of Cleveland and eight
former detectives and/or sergeants who were allegedly
involved in the investigation of a 1975 murder that resulted in the prosecution and conviction of Plaintiffs,
Kwame Ajamu and Wiley Bridgeman. Both Ajamu and
Bridgeman were originally sentenced to death; but in

216a
1978, their sentences were commuted to life in prison.
Edward Vernon, who was twelve years old at the time of
the murder, identified the perpetrators and testified at
the trials of Jackson, Kwame Ajamu (formerly Ronnie
Bridgeman) and Wiley Bridgeman. In 2013, Vernon confessed to his pastor that he was threatened and coerced
by Defendant officers into testifying falsely against Jackson, Ajamu and Bridgeman. At an evidentiary hearing in
state court, Vernon recanted and Jackson, Ajamu and
Bridgeman were exonerated on November 21, 2014.
Plaintiffs initiated this lawsuit on July 2, 2015, claiming Brady violations; fabrication of evidence; malicious
prosecution; failure to intervene; conspiracy to deprive
Plaintiffs of their constitutional rights; supervisor liability; malicious prosecution under Ohio law, unconstitutional line-up procedures; intentional infliction of emotional distress; civil conspiracy; respondeat superior liability; indemnification; and negligent, willful, wanton
and/or reckless conduct. The Complaint listed City of
Cleveland, the Estate of Eugene Terpay, the Estate of
James T. Farmer, the Estate of John Staimpel, the Estate of Peter F. Comodeca, as well as several other former Cleveland police officers.
On October 12, 2015, the Estate Defendants filed their
Motion to Dismiss, arguing that all claims alleged against
the “Estates” must be dismissed for insufficiency of process and for failure to state a claim. They argued that an
estate is not a legal entity with the capacity to be sued
under state or federal law. Since none of the Estates
were open, none of them had an administrator or executor with the capacity to be sued or the authority to accept
service of process. On July 5, 2016, this Court granted
Estate Defendants’ Motion to Dismiss without prejudice.

217a
On November 20, 2015, Plaintiffs submitted a Motion
for Leave to File a First Amended Complaint. (ECF
DKT #33). Specifically, Plaintiffs seek to add J. Reid
Yoder, Esq., who was recently appointed Administrator
of the Estates of Eugene Terpay, Peter F. Comodeca,
John T. Staimpel and James T. Farmer, as a defendant
for the purpose of accepting service of process in this
lawsuit. On November 17, 2015, the Probate Court
signed an order appointing J. Reid Yoder, Esq. as Administrator of the Estates for the limited purpose of accepting service of process in this lawsuit and receiving
the claims of Kwame Ajamu and Wiley Bridgeman
against the Estates in relation this lawsuit.
Defendants argue that leave to amend should not be
granted because such amendment would be futile on the
grounds that Plaintiffs did not file their claims against
the Estates within the proper statutory deadline. Plaintiffs argue that an exception to the statutory deadline applies when a judgment can be satisfied by something other than the assets of the estate.
II. LAW AND ANALYSIS
A. Standard of Review
Rule 15(a) of the Federal Rules of Civil Procedure
provides that when a party, not entitled to amend as a
matter of course, seeks leave to amend their complaint,
the court should give leave freely when justice so requires. In Foman v Davis, the Supreme Court further
held that if a plaintiff’s claims rest upon facts that may be
a proper subject for relief, then he should be given the
chance to test his claims on the merits. 371 U.S. 178, 182
(1962). Further, the Court held that “in the absence of
any apparent or declared reason -such as undue delay,
bad faith, or dilatory motive on the part of the movant,
repeated failure to cure deficiencies by amendments pre-

218a
viously allowed, undue prejudice to the opposing party by
virtue of allowance of the amendment, futility of the
amendment, etc.-the leave sought should, as the rules require, be freely given.” Id. The court in Williams v City
of Cleveland held that when a court denies a motion to
amend on the ground that the amendment would be futile, the basis for its denial is the purely legal conclusion
that the proposed amendment would be unable to withstand a motion to dismiss under Rule 12(b)(6) of the Federal Rules of Civil Procedure. 771 F. 3d 945, 949 (6th Cir.
2014). The Williams court further held that the dispositive question is whether the plaintiff’s second amended
complaint contains sufficient factual matter, accepted as
true, to state a claim for relief that is plausible upon its
face. Id.
B. Survival Statutes
Ohio Revised Code § 2305.21 provides that “in addition
to the causes of action which survive at common law,
causes of action for mesne profits, or injuries to the person or property, or for deceit or fraud, also shall survive;
and such actions may be brought notwithstanding the
death of the person entitled or liable thereto.” In Tinney
v Richland County, the court held that the plaintiff’s
§ 1983 claims involved violations of the plaintiff’s personal
rights, not physical injuries; as such, the individual capacity § 1983 claims did not survive the defendant’s death
under Ohio law. No. 1:14 CV 703, 2014 WL 6896256, at
*2 (N.D. Ohio Dec. 8, 2014). Similarly, the court in Murray v. State held that a claim for wrongful imprisonment
did not qualify as injuries to the person, rather the injury
is the violation of one’s personal rights. 2002-Ohio-664,
2002 WL 337732, *3 (Ohio App. 8 Dist. 2002).

219a
Similarly, the court in State ex rel. Crow v Weygandt
held that claims for malicious prosecution do not survive
death. 170 Ohio St. 81, 84, 162 N.E.2d 845, 848 (1959).
i. Plaintiffs’ § 1983 and Malicious Prosecution
Claims
Plaintiffs allege a number of § 1983 claims and a malicious prosecution claim against a number of defendants
and in this motion, Plaintiffs seek to name the Administrator as a defendant for these claims. Plaintiffs allege
that these § 1983 violations of their personal rights resulted in physical and emotional injury, however, as the
Tinney and Murray courts held, violations of Plaintiffs’
personal rights do not qualify as injuries to the person.
Plaintiffs’ claims arise from violations of their personal
rights, not from harm to their persons, and as such, they
do not survive the death of the decedent officers. Because these claims do not survive, the Court finds that
Plaintiffs’ amendment to assert § 1983 claims against the
Estates is futile and denies leave to amend. Similarly,
the Court finds that Plaintiffs’ malicious prosecution
claims do not survive the death of the decedent officers
and denies leave to amend.
C. Statute of Limitations
Ohio Revised Code § 2117.06(B) provides that all
claims shall be presented within six months after the
death of the decedent, whether or not the estate is released from administration or an executor or administrator is appointed during that six-month period.
§ 2117.06(G) provides that
“Nothing in this section or in § 2117.07 shall be construed to reduce the periods of limitations or periods prior to repose in § 2125.02 or Chapter 2305 of
the Revised Code, provided that no portion of any

220a
recovery on a claim brought pursuant to that section or any section in that chapter shall come from
the assets of an estate unless the claim has been
presented against the estate in accordance with
Chapter 2117 of the Revised Code.”
Ohio Revised Code § 2117.37 provides that
“if a claim is contingent at the time of a decedent’s
death and a cause of action subsequently accrues on
the claim, it shall be presented to the executor, in
the same manner as other claims, before the expiration of six months after the date of death of the decedent, or before the expiration of two months after
the cause of action accrues, whichever is later.”
The court in Meinberg v Glaser explained that the
part of the paragraph before the word ‘provided’ unmistakably specifies that nothing in § 2117.06 or § 2117.07 is
intended to reduce the two-year time within which a personal injury action might be brought. 14 Ohio St. 2d 193,
197, 237 N.E. 2d 605, 608 (1968). Further, the court explained that the provision limits the application of the
amendment so that ‘no portion of any recovery on a
claim’ for injury to person or property is to ‘come from
the assets of the estate’. Id. The court later defined ‘assets of the estate’ as assets
“which ‘may lawfully’ be ‘paid out or distributed’ by
the executor or administrator; from which ‘payment
or distribution’ may be made to ‘creditors, legatees,
and distributees’ or to a surviving spouse; or which
may be lawfully sold or otherwise encumbered or
disposed of by the executor or administrator.” Id.
at 609.
In Meinberg, the plaintiff sought to recover against
the decedent’s automobile liability insurance policy due

221a
to injuries stemming from an automobile accident with
the decedent prior to his demise. The court found that an
automobile insurance policy might, to the extent required
to satisfy the claim, constitute an ‘asset of the estate’ if
the claim were presented within the four-month time period specified by § 2117.06 or the nine-month period specified by § 2117.07. Id. Because the plaintiff presented the
claim beyond the nine-month time period, the court found
that the policy was not an ‘asset of the estate’ within the
meaning of § 2117. The court also held that a plaintiff
“who seeks to avoid the claim requirements and the
four- and nine-month time limitations of § 2117.06
and § 2117.07 must allege and prove that there is
something other than an asset of the estate, such as
liability insurance, against which any judgment in
his favor may be enforced.” Id.
The court in, In re George’s Estate, held that actions
for personal injury may be brought against an estate
within two years, so long as recovery from the action will
not subject the assets of the estate to any liability. 24
Ohio St. 2d 18, 20, 262 N.E. 2d 872, 873 (1907). Further,
the court held that this provides an injured plaintiff a
method of proceeding against the decedent’s estate to the
extent that there is a policy of liability insurance in force
from which recovery may be had, even though the claim
has not been presented to the administrator within the
time limit set forth in § 2117.06. Id.
D. Indemnification
Ohio Revised Code § 2744.07(A)(2) provides that:
“except as otherwise provided in this division, a political subdivision shall indemnify and hold harmless
an employee in the amount of any judgment, other
than a judgment for punitive or exemplary damag-

222a
es, that is obtained against the employee in a state
or federal court or as a result of a law of foreign jurisdiction and that is for damages from injury,
death, or loss to person or property caused by an
act or omission in connection with a governmental
or proprietary function, if at the time of the act or
omission the employee was acting in good faith and
within the scope of employment or official responsibilities.”
The court in, Piro v Franklin Twp., held that this section does not remove a political subdivision’s immunity;
rather, it obligates the political subdivision to indemnify
its employees if they are found liable for a good faith act
that is related to a governmental or proprietary function.
102 Ohio App. 3d 130, 141, 656 N.E. 2d 1035, 1042 (1995).
The court further held that “requiring the subdivision to
indemnify its employees is entirely different from imposing direct liability on the subdivision. Id. Similarly, the
court in Maruschak v City of Cleveland held that “the
right of indemnification is the right of the employee; it
does not create a cause of action or any enforceable right
against the city in favor of a Plaintiff who sues a municipal employee.” No. 1:09 CV 1680, 2010 WL 2232669, at
*6, fn. 8 (N.D. Ohio May 28, 2010).
ii. Plaintiffs’ Civil Conspiracy, Negligence and Intentional Infliction of Emotional Distress
Claims
Plaintiffs allege state law tort claims and in this motion, Plaintiffs seek to amend these claims to name the
Administrator as a defendant. Plaintiffs allege their
causes of action arose in November 2014. Plaintiffs presented their claims to the Administrator on November
19, 2015. Typically, Plaintiffs would have needed to present their claims within six months of the death of each of

223a
the decedent officers. However, the Court finds that because Plaintiffs’ claims are contingent, arising after the
death of the officers involved, Plaintiffs should have instead presented their claims within two months of the
accrual of their causes of action, by January 2015. R.C.
2117.37 Plaintiffs argue that they should be allowed to
file within two years of the accrual of their causes of action under the rule articulated in Meinberg, alleging that
a judgment in their favor can be satisfied against the City
of Cleveland’s obligation to indemnify its employees. The
Court finds that Plaintiffs’ argument fails, as the City’s
obligation to indemnify its employees is not the same
thing as a policy of liability insurance. Rather, as the
court in Maruschak held, the right to indemnification is a
right of the employee; it does not create a separate cause
of action for a plaintiff who sues a municipal employee.
Moreover, the Cuyahoga County Probate Court specifically declined to decide whether a claim for indemnification would be considered an “asset” of the Estates. Because Plaintiffs cannot establish that there is something
other than an asset of the estate against which any judgment in their favor may be enforced, the Court finds that
their amendment would be futile and denies leave to
amend.
III. CONCLUSION
Plaintiffs seeks to amend to add the Administrator for
the decedent officers’ Estates as a Defendant in their
First Amended Complaint. The Court finds that Plaintiffs’ proposed amendment would be futile, in part because their § 1983 claims do not survive the death of the
decedent officers and in part because they have not filed
their remaining state law claims within the appropriate
statutory time line. Because Plaintiffs’ amendments

224a
would be futile, the Court denies Plaintiffs leave to
amend their Complaint.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: July 15, 2016

225a
APPENDIX L
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
July 27, 2016
————
CHRISTOPHER A. BOKYO, J:
This matter is before the Court on Defendant City of
Cleveland’s Motion for Judgment on the Pleadings on
Counts Seven Through Eleven of the Complaint. (ECF
# 15). For the following reasons, the Court grants Defendant’s Motion and Dismisses Counts Seven, Eight,
Nine, Ten and Eleven against the City of Cleveland.
I. BACKGROUND
The captioned case was originally brought under 42
U.S.C. § 1983 and under state law against the City of
Cleveland and eight former detectives and/or sergeants
who were allegedly involved in the investigation of a 1975
murder that resulted in the prosecution and conviction of
Plaintiffs Kwame Ajamu and Wiley Bridgeman. Plain-

226a
tiffs were sentenced to death; but in 1978, their sentences
were commuted to life in prison. Edward Vernon, who
was twelve years old at the time of the murder, identified
the perpetrators and testified at the trials of Kwame
Ajamu (formerly Ronnie Bridgeman), Wiley Bridgeman
and a third Defendant, Ricky Jackson. In 2013, Vernon
confessed to his pastor that he was threatened and coerced by Defendant officers into testifying falsely against
Jackson, Ajamu and Bridgeman. At an evidentiary hearing in state court, Vernon recanted and Jackson, Ajamu
and Bridgeman were exonerated on November 21, 2014.
Plaintiffs filed this lawsuit on July 2, 2015. On October
1, 2015, Defendant City of Cleveland moved for dismissal
of Counts VII through XI of Plaintiff’s Complaint pursuant to Fed.R.Civ.P. 12(c). Those Counts are:
Count VII: Ohio State Law – Malicious Prosecution
Count VIII: Ohio State Law – Intentional Infliction of
Emotional Distress
Count IX: Ohio State Law – Civil Conspiracy
Count X: Ohio State Law – Respondeat Superior
Count XI: Ohio State Law – Indemnification
Defendant City argues that all these claims fail as a
matter of law. The Motion has been fully briefed and is
ripe for decision.
II. LAW AND ANALYSIS
Motion for Judgement on the Pleadings
After the pleadings are closed, but within such time as
not to delay the trial, any party may move for judgment
on the pleadings. Fed.R.Civ.P. 12(c). In this jurisdiction,
“[t]he standard of review for a judgment on the pleadings
is the same as that for a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6) . . . . We ‘construe the

227a
complaint in the light most favorable to the plaintiff, accept all of the complaint’s factual allegations as true, and
determine whether the plaintiff undoubtedly can prove
no set of facts in support of the claims that would entitle
relief.’” Roger Miller Music, Inc. v. Sony/ATV Publishing, LLC, 477 F.3d 383, 389 (6th Cir.2007) (citations omitted). The court’s decision “rests primarily upon the allegations of the complaint;” however, “‘exhibits attached to
the complaint[] also may be taken into account.’”
Barany-Snyder v Weiner, 539 F.3d 327, 332 (6th
Cir.2008) (citation omitted) (brackets in the original).
Lastly, a Rule 12(c) motion “is granted when no material
issue of fact exists and the party making the motion is
entitled to judgment as a matter of law.” Paskvan v. City
of Cleveland Civil Serv. Comm’n, 946 F.2d 1233, 1235
(6th Cir.1991).
With regard to the state law claims of malicious prosecution, intentional infliction of emotional distress and civil
conspiracy, Plaintiffs contend that they pled these claims
against the individual Defendants only and “did not intend to assert these claims directly against the City, but
only under respondeat superior.” (Plaintiffs’ Response
Brief, ECF DKT #38 at 2). Therefore, the Motion for
Judgment on the Pleadings is granted as to Counts VII,
VIII and IX as unopposed. Furthermore, the parties expressly stipulated to a dismissal with prejudice of Plaintiffs’ Intentional Infliction of Emotional Distress claim.
Defendant argues that Chapter 2744 of the Ohio Revised Code provides the City with immunity from respondeat superior liability for its employees’ actions with
respect to Plaintiffs’ state law claims. Moreover, as the
Ohio Supreme Court has held, “there are no exceptions
for intentional torts” such as malicious prosecution, intentional infliction of emotional distress and civil conspir-

228a
acy in R.C. § 2744.02(B). Wilson v. Stark Cnty. Dept. of
Human Svcs., 70 Ohio St.3d 450, 452 (1994). In light of
existing Ohio case law, Plaintiffs do not oppose dismissal
of their respondeat superior claim (Count X). (Plaintiffs’
Response Brief, ECF DKT #38 at 2).
Defendant lastly moves for dismissal of Plaintiffs’ indemnification claim (Count XI). R.C. § 2744.07(A)(2) provides:
Except as otherwise provided in this division, a political subdivision shall indemnify and hold harmless
an employee in the amount of any judgment, other
than a judgment for punitive or exemplary damages, that is obtained against the employee in a state
or federal court or as a result of a law of a foreign
jurisdiction and that is for damages from injury,
death, or loss to person or property caused by an
act or omission in connection with a governmental
or proprietary function, if at the time of the act or
omission the employee was acting in good faith and
within the scope of employment or official responsibilities.
In Piro v Franklin Twp., the court held that the foregoing section does not remove a political subdivision’s
immunity; rather, it obligates the political subdivision to
indemnify its employees if they are found liable for a
good faith act that is related to a governmental or proprietary function. 102 Ohio App. 3d 130, 141 (9th Dist.1995).
The Piro court further held that “requiring the subdivision to indemnify its employees is entirely different from
imposing direct liability on the subdivision.” Id. Similarly, the court in Maruschak v City of Cleveland held that
“the right of indemnification is the right of the employee;
it does not create a cause of action or any enforceable
right against the city in favor of a plaintiff who sues a

229a
municipal employee.” No. 1:09 CV 1680, 2010 WL
2232669, at *6, fn. 8 (N.D. Ohio May 28, 2010). Also, R.C.
§ 2744.07(A)(2) “does not provide [plaintiff] with a cause
of action against the City or anyone . . .” Shoup v. Doyle,
974 F.Supp.2d 1058, 1093 (S.D. Ohio 2013).
When faced with the question of whether Plaintiffs
could amend their Complaint to assert an indemnification
claim against the Estates of the deceased Defendant officers, the Court ruled that the amendment would be futile. (Opinion and Order, ECF DKT #50). Consistent
with the Court’s prior rationale, and in accordance with
Ohio federal and state case law, Plaintiffs’ Count XI for
Indemnification asserted against the City of Cleveland
fails.
III. CONCLUSION
For all these reasons, the Motion (ECF DKT #15) of
Defendant, City of Cleveland, for Judgment on the
Pleadings is granted as to Counts VII through XI of the
Complaint. Accordingly, Plaintiffs shall file an amended
complaint within fourteen (14) days of this Order reflecting the dismissal of Counts VII through XI, as well as the
voluntary dismissal of Defendant Michael Cummings and
Defendant James White (ECF DKT ##44 & 45) and the
substitution of Karen Lamendola, Guardian ad Litem for
Defendant Frank Stoiker (Nondocument Order of
9/21/2015).
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: July 27, 2016

230a
APPENDIX M
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
ORDER
————
December 8, 2016
————
CHRISTOPHER A. BOKYO, J.:
This matter is before the Court on Plaintiffs’ Motion
for Reconsideration, or in the Alternative, to Certify Interlocutory Appeal or Final Judgment under Rule 54(b)
on Claims against Administrator of Estates. (ECF # 52).
On July 15, 2016, the Court issued an Opinion and Order denying Plaintiffs the opportunity to amend their
Complaint to add the Administrator of the estates of decedent Defendant officers. The Court denied as futile the
Motion to Amend holding:
The Court finds that Plaintiffs’ proposed amendment would be futile, in part because their § 1983
claims do not survive the death of the decedent officers and in part because they have not filed their

231a
remaining state law claims within the appropriate
statutory time line. Because Plaintiffs’ amendments would be futile, the Court denies Plaintiffs
leave to amend their Complaint.
On July 28, 2016, Plaintiffs filed their Motion for Reconsideration. Plaintiffs acknowledge that their Motion
for Reconsideration “ mirrors the analogous one filed in
Ricky Jackson’s case (Case No. 15-989).” On November
10, 2016, the Court denied the Motion for Reconsideration in Ricky Jackson v. City of Cleveland, et al.,
No.1:15CV989. Because the arguments in the abovecaptioned case mirror those in Jackson, the Court adopts
the ruling in Jackson and denies Plaintiffs’ Motion for
Reconsideration for the reasons stated therein.
Therefore, Plaintiffs’ Motion for Reconsideration is
denied.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: December 8, 2016

232a
APPENDIX N
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
August 4, 2017
————
CHRISTOPHER A. BOKYO, J.:
The matter comes before the Court upon the Motion
of Karen Lamendola (ECF DKT #63) for Summary
Judgment on Plaintiffs’ claims pursuant to Fed. R. Civ P.
56. For the following reasons, Defendant’s Motion for
Summary Judgment is GRANTED, in part.
FACTUAL AND PROCEDURAL HISTORY
Plaintiffs Kwame Ajamu and Wiley Bridgeman filed
their original Complaint on July 2, 2015 against Frank
Stoiker, as well as several other former detectives and
the City of Cleveland, alleging constitutional violations by
the detectives caused by the City’s unconstitutional policies and lack of training. Plaintiffs filed their First
Amended Complaint on August 10, 2016. On January 27,

233a
2017, Defendant Karen Lamendola, Guardian ad Litem
for Frank Stoiker, filed a Motion for Summary Judgment
on all claims against him.
In 1975, Ricky Jackson, Kwame Ajamu and Wiley
Bridgeman were arrested and imprisoned for the murder
of Harold Franks. They were found guilty based on the
testimony of then-twelve-year-old Edward Vernon, who
claimed to have witnessed the crime. Nearly forty years
later, after many of the detectives involved in the case
were deceased, Vernon recanted his testimony, claiming
he had been coerced by Cleveland police officers into saying that he had witnessed the crime. The State of Ohio
dismissed the charges against Plaintiffs and they filed
suit against the City of Cleveland, several former detectives and the estates of several deceased detectives. The
cases against the estates were dismissed, leaving only the
claims against the City of Cleveland and former Detectives Frank Stoiker and Jerold Englehart. However,
Stoiker has Alzheimer’s-type Dementia and is represented by Guardian ad Litem Karen Lamendola.
On May 25, 1975, Vernon was taken to a police lineup
by two detectives. The lineup was conducted by a third
police officer. When asked if he recognized anyone in the
lineup, Vernon said no. Vernon had previously identified
Ricky Jackson and Wiley Bridgeman, who were both in
the lineup. After the lineup, two detectives took Vernon
to another room. Vernon later identified one of the detectives as Detective John Staimpel, but Vernon was unable to identify the other detective. Vernon says that
Staimpel got angry, beat the table and yelled at Vernon
for lying. Then Staimpel told Vernon that he would “fix
this” and both detectives left the room for a while. When
they returned, Staimpel gave Vernon a statement to sign,
which said that Vernon recognized Jackson and Bridge-

234a
man in the lineup and that Vernon hadn’t identified them
because Vernon was afraid of them. Vernon never told
those detectives that he was afraid and never told them
any of the details of the crime.
In 1975, Frank Stoiker was partnered with John
Staimpel in the Homicide Unit of the Cleveland Police
Department. Stoiker and Staimpel were assigned to the
Franks homicide investigation.
Detectives Eugene
Terpay and James Farmer were the lead detectives on
the case and Stoiker and Staimpel worked the second
shift on the case. Vernon’s only alleged interaction with
Staimpel was on May 25, 1975, and Vernon never alleged
that he met Detective Stoiker and did not recognize
Stoiker’s name or photograph. However, Stoiker signed
a statement dated May 25, 1975, which was also signed
by Staimpel and Vernon.1 Dkt 82-31. This statement
contained a series of questions that Vernon was supposedly asked, along with Vernon’s answers. The statement
covers both the details of the crime and the May 25
lineup.
Stoiker also signed a report dated May 25, 1975, in
which Stoiker said that he and Staimpel picked up
Vernon and another witness to review the lineup, where
Vernon did not identify anyone in the lineup. Dkt. 82-25.2
The report states that Vernon, outside the lineup room,
identified Jackson and Bridgeman and told Stoiker that
1

Defendant argues that Lamendola was not able to authenticate
Stoiker’s signatures. However, as Lamendola also testified that the
signature on the police report resembles Stoiker’s, this creates an
issue of fact for the jury to determine their authenticity.
2
Defendant objects to this report as hearsay in her Reply Brief.
However, this report would not be offered for the truth of the matter
asserted, as Plaintiffs allege that the statements within are, in fact,
false.

235a
Vernon was afraid of the men in the lineup. Stoiker’s
name is on another report, dated May 28, 1975, which
states that he and Staimpel consulted with “Police Prosecutor A. Johnson who issued papers charging the two arrested males. . . ” Dkt. 82-34. This report is unsigned,
but has Stoiker’s name printed on it.
Plaintiffs filed suit alleging seven counts under 42
U.S.C. § 1983 against Defendant for withholding exculpatory evidence, fabrication of evidence, malicious prosecution, failure to intervene to prevent a constitutional violation, conspiracy to violate Plaintiffs’ constitutional rights,
supervisory liability improper lineup procedure and three
state law claims for negligence, malicious prosecution and
conspiracy. Defendant moves for summary judgment on
all counts.
Plaintiffs argue that Stoiker’s signatures show that he
was present at the lineup and present when Detective
Staimpel threatened Vernon.
Plaintiffs argue that
Stoiker left the room, created or helped create the false
statement and forced Vernon to sign it. Defendant argues that there is insufficient evidence to place Stoiker in
the room with Vernon after the lineup and, even if
Stoiker were present, Stoiker did not fabricate or withhold any evidence. Defendant also argues that Stoiker is
entitled to qualified immunity on all counts.
LAW AND ANALYSIS
, Standard of Review for Summary Judgment
Summary judgment is proper if the movant can show
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). The Court must view the evidence and draw all reasonable inferences in favor of the
non-moving party. Ciminillo v. Striecher, 434 F.3d 461,

236a
464 (6th Cir. 2006). A dispute is genuine if it is based on
facts on which a reasonable jury could find for the nonmoving party. Tysinger v. Police Dep’t of City of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006). A fact is material if the resolution of the dispute might affect the outcome of the suit. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). To meet its burden, the moving party can either present evidence showing the lack of genuine dispute as to material facts, or it may show the absence of evidence to support the nonmoving party’s
claims. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
Once the moving party has met its burden, the nonmoving party cannot rest on its pleadings; rather, the nonmoving party must point to specific facts in the record
that show that there is a genuine issue for trial. Liberty
Lobby, 477 U.S. at 248-49; Celotex Corp., 477 U.S. at 324.
No matter how sympathetic one may be to Plaintiffs’
plight, the Court is still under an obligation to apply the
law to the evidence Plaintiffs submit. Neither time nor
death abrogates Plaintiffs’ obligation to support their
claims.
,, Standard for Qualified Immunity
Officials who perform discretionary functions are generally entitled to qualified immunity from individual liability for civil damages unless they violate clearly established rights. Harlow v. Fitzgerald, 457 U.S. 800, 812
(1982). The Sixth Circuit, in determining whether an official is entitled to qualified immunity, applies a threepart test: 1) whether the plaintiff’s constitutional right
was violated; 2) whether that right was clearly established at the time such that a reasonable official would
have understood that he was violating that right; and 3)
whether the official’s action was objectively unreasonable
in light of the clearly established rights. Sample v. Bai-

237a
ley, 409 F.3d 689, 696-97 (6th Cir. 2005). “The contours
of the right must be sufficiently clear that a reasonable
official would understand that what he is doing violates
that right.” Ciminillo v. Streicher, 434 F.3d 461, 468 (6th
Cir. 2006). The legal right cannot be framed in general
terms to encompass an expansive area of law. Bills v.
Aseltine, 52 F.3d 596. 602 (6th Cir. 1995). However, the
exact circumstances of the particular case need not have
been previously held illegal for the right to be “clearly
established,” but the right must be clear in a particularized way to put the official on notice that his conduct is
illegal. See Scicluna v. Wells, 345 F.3d 441, 446 (6th Cir.
2003); Bell v. Johnson, 308 F.3d 594, 602 (6th Cir. 2002).
To determine if a right is clearly established, the
Court looks first to Supreme Court decisions, then decisions from the Sixth Circuit Court of Appeals, then to
other courts within this circuit, and finally to decisions
from other circuits. Buckner v. Kilgore, 36 F.3d 536, 539
(6th Cir. 1994). Decisions from other circuits must point
unmistakably to the unconstitutionality of the act and be
so clearly foreshadowed by direct authority as to leave no
doubt in a reasonable person’s mind that the act is unconstitutional. Gean v. Hattaway, 330 F.3d 758, 767-78
(6th Cir. 2003).
Once the defense of qualified immunity has been
raised, plaintiffs have the burden of demonstrating the
defendant is not entitled to qualified immunity. Rodriquez v. Passinault, 637 F.3d 675, 689 (6th Cir. 2011).

238a
,,, Plaintiffs’ § 1983 Claims Against Frank Stoiker
Fail Because There is No Evidence Stoiker Committed Constitutional Violations.
A. Fabrication of Evidence
Plaintiffs allege that Stoiker fabricated evidence by
coercing Vernon into signing a false statement and by
submitting a false report to his superiors about the
lineup. Defendant contends that Stoiker was not involved in any coercion and there is no evidence that he
knowingly made any false statements.
The Sixth Circuit has held that “[a]n officer violates a
person’s constitutional rights when he knowingly fabricates evidence against them and a reasonable likelihood
exists that the false evidence would have affected the jury’s decision.” France v. Lucas, 836 F.3d 612, 629 (6th
Cir. 2016). Furthermore, in 1936, the Supreme Court
held that prisoners’ constitutional rights were violated
when police officers coerced confessions used against
them in trial. Brown v. Mississippi, 297 U.S. 278, 286
(1936).
Plaintiffs fail to show that Stoiker fabricated evidence
by creating the written statement. Vernon could not
identify Stoiker and did not allege that Stoiker engaged
in any wrongdoing, or was even involved in the investigation. The only evidence that points to Stoiker’s involvement are the signatures on the statement and the report.
However, even if those are Stoiker’s signatures, Plaintiffs
have not cited to any policy, practice, or procedure about
the meaning or effect of signature. Therefore, the Court
is left to speculate as to what the signature meant.
Even assuming that Stoiker fabricated the statement
and report, he still did not commit a constitutional violation. The second requirement for a fabrication of evi-

239a
dence claim is that a reasonable likelihood exists that the
false evidence influenced the jury’s decision. It is clear
that the statement and the report did not influence the
jury’s decision in the 1975 trials. Plaintiffs cite no evidence that Stoiker’s report was ever even mentioned in
any trial. Furthermore, while parties attempted to introduce the statement in both Bridgeman’s and Ajamu’s
trials, it was objected to and kept out in both. Dkt 82-23
at J2035; Dkt. 82-24 at J3760. In the Jackson trial,
Vernon was asked a series of questions about the statement. Dkt. 82-12 at J1014-16; J1029-39. The questions
concerned inconsistencies between Vernon’s testimony at
trial and the statement, such as whether the victim was
leaving the store or going into the store at the time of the
murder. However, it is unclear whether the jury in the
Jackson trial had the statement while they were deliberating.
In all three trials, there is not a reasonable likelihood
that any false evidence that Stoiker may have created
affected the jury’s decision. Vernon’s live testimony led
to the conviction in all three trials. Vernon testified at
the trial as to what he saw and Stoiker had no part in
compelling any testimony at trial. In the Bridgeman and
Ajamu trials, the statement was kept out by objections,
so the jury did not even hear about its contents. In the
Jackson trial, the statement was used by the defense to
point out inconsistencies. Because of this, it appears that
the jury convicted Jackson in spite of, rather than because of, the statement.
Because there is no evidence that Stoiker committed a
constitutional violation, Plaintiffs’ claim of fabrication of
evidence against Stoiker fails. Furthermore, because
there is no evidence that Stoiker committed or knew of a
constitutional violation, there is no evidence that Stoiker

240a
conspired to commit such a violation. Therefore, Plaintiffs’ conspiracy claim also fails.
B. Withholding Exculpatory Evidence
Plaintiffs allege that Stoiker violated his Brady obligations to disclose exculpatory evidence by not disclosing
how Vernon’s signed statement was prepared.
In 1963, the Supreme Court held that the prosecutor
has a constitutional obligation to disclose exculpatory evidence to the defendant. Brady v. Maryland, 373 U.S.
83, 87 (1963). Defendant asserts that the Supreme Court
did not extend this duty to police officers until 1995, while
Plaintiffs argue that the Sixth Circuit held a police officer
liable for failure to disclose exculpatory evidence in 1975.
See Kyles v. Whitley, 514 U.S. 419, 437 (1995); Hillard v.
Williams, 516 F.2d 1344, 1349-50 (6th Cir. 1975), vacated
in part, 424 U.S. 961 (1976).
In order to be liable for a Brady violation, Stoiker
must have been in possession of some exculpatory evidence which he did not disclose. Plaintiffs allege that
Stoiker knew that Vernon did not witness the crime because Vernon told police that he did not know anybody in
the lineup involved in the murder. However, that is not
what Vernon actually said. Vernon explained that he
thought the police were asking him whether he saw anyone in the lineup that had committed the crime. What
the police actually asked Vernon was whether he knew
anyone in the lineup and Vernon said no. Dkt. 82-11 at
J6452. Vernon’s personal, unspoken meaning cannot
prove what Stoiker understood or knew. Furthermore,
the officers knew that Vernon had previously identified
the men and had led Detectives Terpay and Farmer to
their houses.

241a
Plaintiffs’ other allegation of withholding exculpatory evidence is that Stoiker did not disclose how the statement
was prepared. However, as discussed above, there is no
evidence Stoiker fabricated the statement or knew that it
was fabricated. Plaintiffs cannot demonstrate by a preponderance of evidence that Stoiker had any exculpatory
evidence to disclose.
Furthermore, even if Stoiker had exculpatory evidence which he did not disclose, he would be entitled to
qualified immunity against the Brady claim. Defendant
argues that evidence of an officer’s wrongdoing is not exculpatory evidence, citing a recent Seventh Circuit decision, Saunders-El v. Rohde, 778 F.3d 556 (7th Cir. 2015),
in which the court held that Brady does not require police officers to disclose the circumstances of their investigations. However, as Plaintiffs point out, the Seventh
Circuit has also recently held that police violate Brady
when they withhold the pressure tactics employed to
threaten witnesses. Avery v. City of Milwaukee, 847
F.3d 433, 443 (7th Cir. 2017). These cases are difficult to
reconcile, but neither constitute binding precedent and
neither indicate that the law was clearly established in
1975 as to whether evidence of police misconduct is exculpatory or impeachment evidence. A reasonable official
would not be aware that failure to disclose a constitutional violation would itself be a second constitutional violation. Without case law clearly establishing a defendant’s
right to have police misconduct disclosed to him before
trial, police would not be on notice of such a right. Plaintiffs have not pointed to any case law suggesting that this
principle was clearly established in 1975.
Plaintiffs cannot show that Stoiker had exculpatory
evidence to disclose, or that it was clearly established in
1975 that Brady required police officers to disclose evi-

242a
dence of their own misconduct.
Brady claims fails.

Therefore, Plaintiffs’

C. Malicious Prosecution
A person’s constitutional rights are violated if they are
maliciously prosecuted without probable cause. Gregory
v. City of Louisville, 444 F.3d 725, 750 (6th Cir. 2006). To
prove Stoiker liable for malicious prosecution, Plaintiffs
must show that Stoiker influenced Plaintiffs’ arrest or
continued detention and that the influence was based on
knowing misstatements or “pressure or influence” over
the prosecutor or someone who testified at the initial
hearing. Sykes v. Anderson, 625 F.3d 294, 316. Plaintiffs
must also show a lack of probable cause for the prosecution. Id. at 308-09.
As discussed above, Plaintiffs cannot show that
Stoiker made knowing misstatements. Furthermore,
there is no evidence that Stoiker influenced the prosecutor or any witness. Prosecutor Del Balso interviewed
Vernon and found him to be a credible witness. While
Stoiker’s report does indicate that he spoke to a prosecutor, the report does not have the content of that conversation and it is not a reasonable inference that Stoiker
influenced the prosecutor, especially since Vernon was
available to give live testimony.
Plaintiffs also cannot show a lack of probable cause.
An indictment by a grand jury is sufficient to show probable cause, unless the indictment was the result of police
officers knowingly presenting false evidence or testimony. France, 836 F.3d at 626. Plaintiffs were indicted by
the grand jury and there is no evidence to suggest that
Stoiker testified to the grand jury, or that his report was
used to obtain the indictment. The indictment was obtained from Vernon’s live testimony about witnessing the

243a
crime. While Vernon says that he was coerced into testifying that he saw the crime, Stoiker played no part in
that coercion. Vernon alleges that only Detectives
Terpay and Farmer compelled Vernon’s live testimony.
There is no evidence to suggest that Stoiker influenced
Vernon’s live testimony at all. Furthermore, as discussed
above, there is no evidence to suggest that Stoiker knew
that Vernon’s testimony was false.
Because Plaintiffs were indicted by a grand jury and
because Stoiker did not testify or present knowing misstatements to the prosecution, Plaintiffs’ claim of malicious prosecution fails.
D. Plaintiffs’ Remaining § 1983 Claims
There is no evidence to suggest that Stoiker committed supervisory misconduct, improperly influenced the
lineup procedure, or failed to intervene. Furthermore,
Plaintiffs did not argue any of these claims in their Opposition Brief. Therefore, Plaintiffs’ other § 1983 claims are
dismissed.
,9Plaintiffs’ State Law Claims Are Dismissed Without Prejudice.
The Court declines to exercise its supplemental jurisdiction over Plaintiffs’ state law claims and dismisses
them without prejudice.
CONCLUSION
Because Plaintiffs failed to show that Stoiker fabricated evidence, or knew or should have known that other
officers fabricated evidence, Defendant’s Motion for
Summary Judgment is GRANTED, in part.
IT IS SO ORDERED.

244a
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: August 4, 2017

245a
APPENDIX O
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
August 4, 2017
————
CHRISTOPHER A. BOKYO, J.:
This matter comes before the Court upon the Motion
of Defendant Jerold Englehart (ECF DKT #64) for
Summary Judgment on Plaintiff’s claims pursuant to
Fed. R. Civ P. 56. For the following reasons, Defendant’s
Motion for Summary Judgment is GRANTED, in part.
FACTUAL AND PROCEDURAL HISTORY
Plaintiffs Kwame Ajamu and Wiley Bridgeman filed
their original Complaint on July 2, 2015 against Defendant Jerold Englehart, as well as several other former detectives and the City of Cleveland, alleging constitutional
violations by the detectives caused by the City’s unconstitutional policies and lack of training. Plaintiffs filed their
First Amended Complaint on August 10, 2016. On Janu-

246a
ary 27, 2017, Defendant Jerold Englehart filed a Motion
for Summary Judgment on all claims against him.
In 1975, Ricky Jackson, Kwame Ajamu and Wiley
Bridgeman were arrested and imprisoned for the murder
of Harold Franks. They were found guilty based on the
testimony of then-twelve-year-old Edward Vernon, who
claimed to have witnessed the crime. Nearly forty years
later, after many of the detectives involved in the case
were deceased, Vernon recanted his testimony, claiming
he had been coerced by Cleveland police officers into saying that he had witnessed the crime. The State of Ohio
dismissed the charges against Plaintiffs and they filed
suit against the City of Cleveland, several former detectives and the estates of several deceased detectives. The
cases against the estates were dismissed, leaving only the
claims against the City of Cleveland and former Detectives Frank Stoiker and Jerold Englehart.
In 1975, Jerold Englehart worked in the Criminal
Statement Unit of the Cleveland Police Department. His
duties involved taking typed statements from victims,
witnesses and defendants. Englehart testified that he
did not remember taking statements relating to the murder of Harold Franks and that he did not remember taking Vernon’s statement. Englehart testified that he never typed the statement of a witness who was not present
at the time. Englehart did not investigate Franks’ murder.
On May 25, 1975, Vernon was taken to the police station to review a lineup. After the lineup, Plaintiffs allege
that Detectives Frank Stoiker and John Staimpel gave
Vernon a prepared statement about the lineup (“Statement”) to sign and that the Statement contained false
claims. Dkt. 82-31. Plaintiffs allege that Vernon was coerced into signing it. The Statement had Englehart’s last

247a
name and badge number typed at the bottom. This is the
only piece of evidence connecting Englehart to this case.
Vernon never met Englehart and does not remember
hearing his name during the investigation. Englehart did
not sign the Statement.
Plaintiffs filed suit alleging seven counts under 42
U.S.C. § 1983 against Defendant for withholding exculpatory evidence, fabrication of evidence, malicious prosecution, failure to intervene to prevent a constitutional violation, conspiracy to violate Plaintiffs’ constitutional rights,
supervisory liability, improper lineup procedure and
three state law claims for negligence, malicious prosecution and conspiracy. Defendant moves for summary
judgment on all counts.
Plaintiffs allege that Defendant’s name on the Statement indicates that Defendant typed the Statement and
that Defendant prepared it without Vernon present.
Plaintiffs further allege that Defendant conspired with
Detectives Stoiker and Staimpel to prepare a false
statement for Vernon to sign, or that Defendant at least
knew or should have known that the Statement was false,
since Staimpel had Defendant create the Statement
without the witness present. Defendant argues that
Englehart’s typed name is insufficient evidence to show
that Englehart prepared the Statement and that even if
he did prepare the Statement, it is not the same statement that Vernon signed after the lineup, and thus, there
is no evidence about how the Statement was prepared.
Defendant also argues that Englehart is entitled to qualified immunity on all counts.

248a
LAW AND ANALYSIS
I. Standard of Review for Summary Judgment
Summary judgment is proper if the movant can show
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). The Court must view the evidence and draw all reasonable inferences in favor of the
non-moving party. Ciminillo v. Striecher, 434 F.3d 461,
464 (6th Cir. 2006). A dispute is genuine if it is based on
facts on which a reasonable jury could find for the nonmoving party. Tysinger v. Police Dep’t of City of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006). A fact is material if the resolution of the dispute might affect the outcome of the suit. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). To meet its burden, the moving party can either present evidence showing the lack of genuine dispute as to material facts, or it may show the absence of evidence to support the nonmoving party’s
claims. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
Once the moving party has met its burden, the nonmoving party cannot rest on its pleadings; rather, the nonmoving party must point to specific facts in the record
that show that there is a genuine issue for trial. Liberty
Lobby, 477 U.S. at 248-49; Celotex Corp., 477 U.S. at 324.
No matter how sympathetic one may be to Plaintiffs’
plight, the Court is still under an obligation to apply the
law to the evidence Plaintiffs submit. Neither time nor
death abrogates Plaintiffs’ obligation to support their
claims.

249a
II. There Is Insufficient Evidence To Show That Defendant Was Involved In Fabricating Or Withholding Evidence.
Defendant argues that Englehart’s name on the
Statement is insufficient evidence to support Plaintiffs’
claim that Defendant prepared the statement. However,
Englehart testified that normally, when he prepared a
statement, he typed his name and badge number at the
bottom. This supports a reasonable inference that
Englehart prepared it. Englehart’s statement that he
does not recall preparing this statement at most creates
an issue of fact. Taking the evidence and drawing all reasonable inferences in favor of the non-moving party,
there is enough evidence that a jury could conclude that
Englehart typed the Statement.
Englehart further contends that the evidence shows
that the Statement is not the one that Detectives Stoiker
and Staimpel forced Vernon to sign. Vernon testified in
his deposition that the statement he signed after viewing
the lineup only stated that Vernon was too scared to pick
someone out of the lineup, while the Statement also contains information about the crime itself. Dkt. 64-1 at 8586. However, in Vernon’s declaration, Vernon states that
the Statement was shown to him at Plaintiffs’ trials and
that Vernon recalled only signing one statement. Dkt.
82-31. Furthermore, the Statement is dated May 25,
1975, the day of the lineup. This creates an issue of fact
as to how the Statement was prepared and whether
Vernon signed it right after the lineup. Once again, viewing all evidence in the light most favorable to Plaintiffs,
there are issues of fact concerning whether the representations in the Statement accurately reflect what Vernon
told the investigating officers.

250a
However, even though there are genuine issues of fact,
these issues are not material, as even taking the evidence
in the light most favorable to Plaintiffs and drawing reasonable inferences in their favor, there is not enough evidence to show that Englehart committed a constitutional
violation. The Court must draw reasonable inferences in
favor of the non-moving party, but “[t]his standard . . .
does not allow, much less require, that we draw strained
and unreasonable inferences in favor of the nonmovant.”
Willis v. Roche Biomedical Laboratories, Inc., 21 F.3d
1368, 1380 (5th Cir.1994) (emphasis in original). While
the inferences that Englehart prepared the Statement
and that the Statement were made the day of the lineup
are reasonable, Plaintiffs also ask the Court to infer that
because Englehart prepared the Statement without
Vernon present, Englehart knew or should have known
that the Statement was false. This inference is unreasonable. Plaintiffs cite no case law to suggest that
Englehart committed a constitutional violation by preparing the statement without Vernon present and cite no
facts in the record to indicate what Englehart knew when
preparing the Statement. Instead, Plaintiffs assert that
because the Statement is false and because Englehart
prepared it without the witness present, Englehart knew
or should have known that it was false. This goes beyond
reasonable inferences. There is no evidence to suggest
that Englehart conspired with any other police officers,
that Englehart knew that the information in the Statement was false, or that Englehart had any reason to
know that the information was false.
Even assuming that Englehart knew the Statement
contained false information, Plaintiffs failed to establish
the elements required for fabrication of evidence. The
Sixth Circuit has held that “[a]n officer violates a per-

251a
son’s constitutional rights when he knowingly fabricates
evidence against them and a reasonable likelihood exists
that the false evidence would have affected the jury’s decision.” France v. Lucas, 836 F.3d 612, 629 (6th Cir.
2016). Vernon testified live before the grand jury and at
all three trials. Plaintiffs were convicted based on that
live testimony, not Vernon’s prior written statements.
The Statement could not have been used to obtain Plaintiffs’ convictions and therefore, the Statement could not
have affected the jury’s decision.
Because Plaintiffs have not demonstrated that
Englehart knew the Statement contained false information, all of Plaintiffs’ federal claims against Englehart
fail.
III. Plaintiffs State Law Claims Are Dismissed Without Prejudice.
The Court declines to exercise its supplemental jurisdiction over Plaintiffs’ state law claims and dismisses
them without prejudice.
CONCLUSION
Because Plaintiffs have not alleged any facts connecting Defendant to the Franks murder investigation or to
the fabrication of Vernon’s statements, Defendant’s Motion for Summary Judgment is GRANTED, in part.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: August 4, 2017

252a
APPENDIX P
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-1320
————
KWAME AJAMU, ET AL.,
Plaintiffs,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
OPINION AND ORDER
————
August 4, 2017
————
CHRISTOPHER A. BOKYO, J:
This matter comes before the Court upon the Motion
of the City of Cleveland for Summary Judgment (ECF
DKT #65) on Plaintiffs’ claims pursuant to Fed. R. Civ P.
56. For the following reasons, Defendant’s Motion for
Summary Judgment is GRANTED.
FACTUAL AND PROCEDURAL HISTORY
Plaintiffs Kwame Ajamu and Wiley Bridgeman filed
their original Complaint on July 2, 2015, against Defendant City of Cleveland and several individual former detectives, alleging constitutional violations by the detectives caused by unconstitutional policies and inadequate
training by the City. Plaintiffs filed their First Amended
Complaint on August 10, 2016, against Defendants City

253a
of Cleveland, former Detective Jarold Englehart and Karen Lamendola, Guardian ad Litem on behalf of Frank
Stoiker. On January 20, 2017, Defendant City of Cleveland filed a Motion for Summary Judgment on all claims
against the City.
In 1975, Plaintiffs were convicted of murdering Harold
Frank. Their conviction was based on the eyewitness
testimony of twelve-year old Eddie Vernon. However,
nearly forty years later, in 2014, Vernon recanted his testimony, claiming that he never witnessed the crime and
that he had been coerced into testifying. After being released, Plaintiffs brought suit against the Investigative
Officers in the Frank murder investigation and the City
of Cleveland. Many of the detectives involved in the investigation were deceased by the time Plaintiffs filed
their claims and the Court dismissed the claims against
the deceased detectives’ estates. Plaintiffs’ remaining
claims are against Karen Lamendola, Detective Jerold
Englehart and the City of Cleveland.
The Cleveland Police Department in the 1970's had
two forms of written rules: the Manual of Rules of Conduct and Discipline for Officers, Members, and Employees of the Division of Police (“Manual”), and General Police Orders (“GPOs”). Defendant cites several rules in
the Manual that Defendant alleges relate to the requirement to disclose exculpatory evidence. Rule 66 requires
police officers to familiarize themselves with the facts of a
case, “so that all of the evidence may be properly presented to the court.” Dkt. 65-1 at 4. Rule 77 requires officers to report on all matters they investigate and Rule
78 requires that all written and verbal reports be truthful
and unbiased. Id. at 8-9. Plaintiffs cite GPO No. 19-73,
which contains Rule 16 of the Ohio Rules of Criminal
Procedure. Dkt. 65-7. The GPO states that the police

254a
department shall not give reports or evidence directly to
defense counsel. Id. The Order also clarifies that the
rules of criminal procedure “will be employed through
the courts and through the prosecuting attorney.” Id.
The GPO does not state the obligations of the police to
disclose information to the prosecuting attorney. The
Cleveland Police Department’s rules and policies have
since been updated.
Several former detectives, along with Edward Tomba,
the Deputy Chief of Homeland Security and Special Operations for the Cleveland Police Department, testified
about the rules and training in place in the 1970's. All of
them testified that Cleveland police officers in the 70's
received both academy and on-the-job training to be police officers. Several witnesses testified that the academy
trained officers to disclose exculpatory evidence, while
others testified that the academy provided no such training. Several witnesses testified that they received onthe-job training to disclose exculpatory evidence to the
prosecutor and no witness testified that on-the-job training did not include the duty to disclose, or that they were
trained not to disclose such evidence.
Plaintiffs provided several instances of alleged police
misconduct in the years leading up to their incarceration.
Plaintiffs cite a 1972 memo from then-Mayor Ralph Perk,
in which Perk said that police misconduct was rampant.
Dkt 66-16 at 88. However, the misconduct involved was
failure to respond to citizen complaints and the indictment of officers for manslaughter, armed robbery and
rape. Plaintiffs also cite two alleged incidents of Cleveland police coercing witness statements through force or
threat, one in 1974, and one in 1977, two years after
Plaintiffs’ incarceration. Former Detectives Ronald
Turner and William Tell, Sr. also testified that detectives

255a
often did not follow the policy of turning over all evidence
to the prosecutors.
Plaintiffs brought suit against the individual officers
for violating their constitutional rights by withholding
exculpatory evidence, fabricating evidence, malicious
prosecution and unconstitutional lineup procedure.
Plaintiffs also brought suit against the City of Cleveland
under a theory of municipal liability under 42 U.S.C.
§ 1983, alleging that Defendant’s unconstitutional policies
and failure to properly train officers resulted in the violation of Plaintiffs’ rights. Defendant moves for Summary
Judgment on all claims, arguing that Plaintiffs presented
no facts to show an underlying constitutional violation
and arguing that the undisputed record shows that the
City had adequate policies and training during the 70's.
Plaintiffs argue that Defendant had an explicitly unconstitutional policy, that Defendant should have had rules
instructing police officers to disclose exculpatory evidence and that Defendant failed to adequately train police officers to disclose such evidence.
LAW AND ANALYSIS
I. Standard of Review for Summary Judgement
Summary judgment is proper if the movant can show
that “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). The Court must view the evidence and draw all reasonable inferences in favor of the
nonmoving party. Ciminillo v. Striecher, 434 F.3d 461,
464 (6th Cir. 2006). A dispute is genuine if it is based on
facts on which a reasonable jury could find for the nonmoving party. Tysinger v. Police Dep’t of City of Zanesville, 463 F.3d 569, 572 (6th Cir. 2006). The fact is material if the resolution of the dispute might affect the outcome of the suit. Anderson v. Liberty Lobby, Inc., 477

256a
U.S. 242, 248 (1986). To meet its burden, the moving party can either present evidence showing the lack of genuine dispute as to material facts, or it may show the absence of evidence to support the nonmoving party’s
claims. Celotex Corp. v. Catrett, 477 U.S. 317 (1986).
Once the moving party has met its burden, the nonmoving party cannot rest on its pleadings; rather, the nonmoving party must point to specific facts in the record
that show that there is a genuine issue for trial. Liberty
Lobby, 477 U.S. at 248-49; Celotex Corp., 477 U.S. at 324.
No matter how sympathetic one may be to Plaintiffs’
plight, the Court is still under an obligation to apply the
law to the evidence Plaintiffs submit. Neither time nor
death abrogates Plaintiffs’ obligation to support their
claims.
II. Monell Claims Require an Underlying Constitutional Violation
In order to bring a Monell claim against a municipality, there must be an underlying constitutional violation
by one of the municipality’s employees. Watkins v. City
of Battle Creek, 273 F.3d 682 (6th Cir. 2001). Plaintiffs
allege constitutional violations by Frank Stoiker and
Jarold Englehart. However, Plaintiffs also allege that,
even if the claims against the individual defendants are
dismissed, Plaintiffs’ Monell claim can still proceed as
long as they can show any constitutional violation by an
officer, even if that officer is not liable for that violation.
In Garner v. Memphis Police Department, 8 F.3d 358,
the Sixth Circuit held that, even though the claim against
the only individual defendant had been dismissed due to
qualified immunity, the Monell claim against the city
could continue. Defendant alleges that Plaintiffs have
not alleged enough facts for the Court to find there was
an underlying constitutional violation. The Court will not

257a
decide this question at this time. Regardless of whether
any of the detectives involved in the Franks homicide investigation committed any constitutional violations,
Plaintiffs’ Monell claims fail as a matter of law on an independent basis discussed below.
III. Plaintiffs’ Monell Claims Fail as a Matter of Law.
A city or municipality may only be held liable for the
constitutional violations of its own employees under 42
U.S.C. § 1983 if those actions are the result of a practice,
policy, or custom of the municipality itself. Monell v. Department of Social Services, 436 U.S. 658 (1978). There
are four types of municipal action that, if they cause the
underlying constitutional violation, can establish liability
under a Monell claim: 1) legislative enactments or official
policy; 2) actions by officials with final decision-making
authority; 3) a policy of inadequate training or supervision; or 4) a custom of tolerance of rights violations.
France v. Lucas, No. 1:07CV3519, 2012 WL 5207555, at
*12 (N.D. Ohio Oct. 22, 2012), aff'd, 836 F.3d 612 (6th Cir.
2016).
Plaintiffs, in their opposition brief, did not argue that
Defendant is liable under the second or fourth theory of
liability. Plaintiffs also did not present argument defending their claims for fabrication of evidence, malicious
prosecution, or improper lineup procedure. As discussed
above, once the party moving for Summary Judgment
meets its burden of production, the non-moving part
must present specific facts from the record that support
its claim. Celotex Corp. v. Catrett, 477 U.S. 324 (1986).
Since Plaintiffs failed to do so, they cannot rely on the
pleadings to survive Summary Judgment. It is not the
Court’s role to “wade through” the record to find specific
facts which may support the nonmoving party’s claims.
United States v. WRW Corp., 986 F.2d 138, 143 (6th Cir.

258a
1993). Thus, even though the record may contain evidence to support other claims or theories, Plaintiffs have
waived that argument by not raising it in their opposition
brief. Furthermore, Plaintiffs have not pointed to any
facts that would show that the other claims were the result of an unconstitutional policy or failure to train police
officers.
A. Defendant Did Not Have an Unconstitutional Policy to Withhold Exculpatory Evidence.
Plaintiffs argue that Defendant is liable under the first
method of Monell liability for two reasons. First, that
Defendant had an explicit unconstitutional policy that
forbade police officers from disclosing exculpatory evidence to defendants. Second, Plaintiffs argue that Defendant lacked an adequate policy on police officers’ obligations under Brady v. Maryland 373 U.S. 83 (1963) and
that the need for such a policy was so significant and so
obvious that the lack of policy amounts to an deliberate
indifference. However, both of these arguments fail because Defendant did have official policies in place specifically requiring police officers to report on everything
they investigated.
1. The City Did Not Have an Explicit Unconstitutional Policy.
Under the first method of Monell liability, a municipality is liable for the constitutional violations of its employees if they are executing a “policy statement, ordinance, regulation, or decision” of the city. Monell v. Department of Social Services, 436 U.S. 658 (1978). The occasional negligent administration of an otherwise sound
policy is not enough; the policy itself must either be unconstitutional, or it must have “mandated, encouraged, or
authorized” unconstitutional conduct.
Heyerman v.

259a
Cnty. of Calhoun, 680 F3d 642, 648-49; France, 2012 WL
5207555, *10. In Brady, the Supreme Court held that
“the suppression by the prosecution of evidence favorable
to an accused upon request violates due process. . . , irrespective of the good faith or bad faith of the prosecution.”
Brady, 373 U.S. at 87.
Plaintiffs allege that GPO 19-73 was an unconstitutional policy because it forbade police officers from disclosing evidence to defense attorneys, which violates the
requirements of Brady. The GPO states that police officers shall not disclose records or evidence to defense
counsel. This order is consistent with Brady. Brady requires prosecutors to disclose exculpatory evidence to
defense counsel and requires that police officers disclose
that evidence to prosecutors. Id.; See also Kyles v. Whitley, 514 U.S. 419, 437–438. The General Police Order applies, as the name suggests, to police officers, not prosecutors. The GPO states that the rules of criminal procedure are enacted through the courts and the prosecuting
attorney. Dkt. 65-7. Since the GPO does not forbid disclosing information to the prosecutor, this policy is not
unconstitutional.1
Plaintiffs claim that Defendant admitted that GPO 1973 was unconstitutional by changing the rule. This argument is meritless. First, this use of evidence is clearly
inadmissible under Fed. R. Evid. 407, which prohibits evidence of subsequent remedial measures to prove culpable conduct. Even though Defendant did not raise the
evidentiary objection, the Court has discretion to disre1

Even if GPO 19-73 did forbid the prosecution from disclosing exculpatory evidence, the alleged constitutional violation in this case is the
failure of police officers to disclose evidence to the prosecution,
which the GPO does not forbid.

260a
gard inadmissible evidence in considering a motion for
summary judgment. Wiley v. U.S., 20 F.3d 222 at 226
(6th Cir. 1994); see also Capobianco v. City of N.Y., 422
F.3d 47, 55 (2d Cir. 2005); United States v. Dibble, 429
F.2d 598, 603 (9th Cir. 1970). Second, Plaintiffs cite no
evidence as to the reason the rules were changed. The
mere fact that police policies have changed in the fortytwo years since 1975 is not evidence that the old policies
were unconstitutional. Third, to allow Plaintiffs to make
such an inference would be plainly against public policy.
If parties could use a change of rules or policies to prove
that the old policies were unconstitutional, municipalities
would avoid updating their policies for fear of creating
liability under Monell claims. Since there is a strong
public interest in having municipalities improve out-ofdate policies, Plaintiffs’ argument fails.
2. The City Was Not Deliberately Indifferent in
Not Adopting Better Policies.
Even if a municipality has not adopted an explicitly
unconstitutional policy, the municipality may be liable for
the failure to make a policy where one is needed. Jones
v. City of Chicago, 787 F.2d 200, 204 (7th Cir. 1986). The
Supreme Court held that a city’s deliberate choice not to
have a policy can be characterized as municipal policy.
City of Canton v. Harris, 489 U.S. 378 (1989). However,
it is not enough that a policy be imperfect; liability for
failure to adopt a policy requires “deliberate indifference” to a “plainly obvious danger.” Armstrong v.
Squadrito, 152 F.3d 564, 578 (7th Cir. 1998). The municipality may be deliberately indifferent if there is a pattern
of violations that puts the municipality on notice, or if the
inadequacy of the policy in preventing constitutional violations is obvious. Miller v. Calhoun Cnty., 408 F.3d 803,
816-17 (6th Cir. 2005).

261a
The Manual contains the rules regarding disclosure of
evidence to prosecutors. Rule 77 states that “[o]fficers
and members shall report on all matters referred to or
investigated by them.” Dkt 66-2 at 59. Rule 77 further
requires all police officers to submit their reports to their
superior officers. Plaintiffs contend that these reports
were incomplete, but all parties agree that the reports
were required to be turned over to the prosecutors. Rule
78 requires that “[w]ritten and verbal reports... shall be
truthful and unbiased.” Id. at 60. The plain language of
these policies means that police officers must report
truthfully and completely on everything they investigate.
Therefore, the City did have a policy in place that addressed the Brady obligations of police officers, since
turning over everything to prosecutors would naturally
include exculpatory and impeachment evidence.
Plaintiffs argue that, even if Rules 77 and 78 cover disclosing evidence to prosecutors, the rules are inadequate
to prevent constitutional violations because they are too
vague and do not instruct police officers as to what evidence might be exculpatory. In order for Plaintiffs’ argument to prevail, the policy would have to be so inadequate as to constitute deliberate indifference by the City.
Miller, 408 F.3d at 817. This requires that either the
City knew that its policy was inadequate, or that the policy was so inadequate that the danger of violation was
plainly obvious. Armstrong, 152 F.3d at 578.
Plaintiffs argue that Defendant knew that the policy
was inadequate. Plaintiffs point to several reports detailing concerns with the Cleveland Police Department from
the early 1970's. However, these reports concern police
officers engaging in criminal activity and failing to respond to calls for assistance. These reports do not show
that the City was on notice that their policy regarding

262a
disclosing exculpatory evidence was inadequate. Plaintiffs also argue that Defendant admits that the Rules
were inadequate because the Rules have since been replaced. As discussed above, this argument is based on
subsequent remedial measures and has no merit. Therefore, Plaintiffs have not alleged facts showing that Defendant had notice of the need for new policies.
Plaintiffs also argue that the Rules were so vague and
the risk of constitutional violations so great that Defendant was deliberately indifferent to the need for better
policies. Plaintiffs rely heavily on their expert witness,
Donald Anders, who testified that Rule 77 could be interpreted to mean that police officers were merely required
to report that they investigated a matter, without reporting on the details of what the officer learned. Dkt. 69 at
74-79. However, the requirement to report on “all matters” is not ambiguous. The plain language clearly requires police officers to turn over everything to prosecutors. Furthermore, as a police expert rather than a legal
expert, Anders is not qualified to testify as to how other
police officers may have interpreted the rule or as to the
legal adequacy of the rule. Liability for an insufficient
policy requires deliberate indifference, and where there
is a written policy requiring police officers to report on all
their investigations, the attempts of an expert to obfuscate the rule to show how it might be inadequate will not
suffice to show deliberate indifference.
B. Plaintiffs Cannot Show That the City’s Training of
Officers was Inadequate.
Plaintiffs assert that Defendant is liable under Monell
for failing to properly train the police officers involved in
the 1975 homicide investigation. However, Plaintiffs
have not alleged sufficient facts to show that the on-thejob training of officers was inadequate.

263a
A municipality may be liable under § 1983 for failure to
train its employees, but only where such failure reflects a
deliberate or conscious choice. City of Canton v. Harris,
489 U.S. 378 (1989). To prevail on a claim for failure to
train, a plaintiff must show: 1) the training was inadequate for the tasks officers must perform; 2) the inadequacy was the result of the city’s deliberate indifference;
and 3) the inadequacy was closely related to or caused
the injury. Ciminillo v. Streicher, 434 F.3d 461, 469 (6th
Cir. 2006). There are two ways a plaintiff can show that
the inadequate training was the result of deliberate indifference. First, the plaintiff can show “prior instances of
unconstitutional conduct demonstrating that the County
has ignored a history of abuse and was clearly on notice
that the training in this particular area was deficient and
likely to cause injury.” Fisher v. Harden, 398 F.3d 837,
849 (6th Cir. 2005). Second, a plaintiff can demonstrate
deliberate indifference even where there are no prior instances of constitutional violations “by showing that officer training failed to address the handling of exculpatory materials and that such a failure has the ‘highly predictable consequence’ of constitutional violations of the
sort Plaintiff suffered.” Gregory v. City of Louisville,
444 F.3d 725, 753 (6th Cir. 2006) (citation omitted).
Plaintiffs have failed to provide evidence showing that
the training given to the officers was inadequate. While
Plaintiffs have provided enough evidence to dispute
whether the police academy covered handling exculpatory evidence, this dispute is not material. Defendant cites
multiple witnesses who stated that police officers received on-the-job training to disclose all evidence, including exculpatory evidence to the prosecutor and Plaintiffs
have presented no evidence to suggest that on-the-job
training did not include handling exculpatory evidence.

264a
This training is not insufficient merely because it is onthe-job training rather than formal academy training, because “failure-to-train liability is concerned with the substance of the training, not the particular instructional
format.” Connick v. Thompson, 563 U.S. 51, 68 (2011).
Plaintiffs again rely on Anders’ testimony, who stated
that he believes that on-the-job training is always ineffective and therefore, the Court should infer that the officers’ training in this case was inadequate. However, Anders’ opinion about on-the-job training in general cannot
create a genuine issue of fact where the undisputed facts
on the record shows that officers received on-the-job
training to disclose exculpatory evidence. Therefore,
since Plaintiffs have not provided enough evidence to
create a genuine issue of material fact as to whether police officers received on-the-job training to disclose exculpatory evidence, they cannot meet their burden of
showing that the training was inadequate for the tasks
police officers had to perform.
Plaintiffs do point to evidence in the record in the form
of testimony by former Detective Turner and Tell, that
there was a widespread custom of police committing constitutional violations. This evidence does suggest that
there were problems with the Cleveland Police Department in the 1970's. However, this concern falls short of
supporting Plaintiffs’ claims. Evidence that officers
committed violations is not evidence that those officers
were not trained, especially in the face of undisputed direct evidence that officers received on-the-job training to
disclose all evidence. “Indeed, a law enforcement officer's choice to lie, fabricate evidence, or conceal exculpatory evidence would appear to be one that is made despite any training.” France v. Lucas, No. 1:07CV3519,

265a
2012 WL 5207555, at *12 (N.D. Ohio Oct. 22, 2012), aff'd,
836 F.3d 612 (6th Cir. 2016).
C. Plaintiffs Cannot Show a Widespread Custom of
Constitutional Violations.
While Plaintiffs do not explicitly argue that Defendant
is liable due to a widespread custom of constitutional violations, Plaintiffs do cite some evidence from the record
that suggests the possibility of such a custom. However,
this evidence falls short of supporting Plaintiffs’ Monell
claims.
In order to establish liability for a custom of tolerating
constitutional violations, Plaintiffs must prove four
things: 1) a persistent pattern of illegal activity; 2) notice
or constructive notice on the part of Defendant; 3) Defendant’s tacit approval of the unconstitutional conduct;
and 4) that Defendant’s custom caused the underlying
constitutional violation. France, 2012 WL 5207555, at *12
(citing Thomas v. City of Chattanooga, 398 F.3d 426, 429
(6th Cir. 2005)).
Plaintiffs cannot establish these elements for three
reasons. First, Plaintiffs rely on the testimony of former
Detectives Ronald Turner and William Tell. While both
worked for the City of Cleveland Police Department during the 1970's, neither were ever a homicide detective.
Turner worked in the Vice Unit and Tell worked in the
Auto Theft Unit. These officers cannot speak to the policies, practices and customs of the Homicide Unit.
Second, Plaintiffs rely on Anders’ expert testimony
that there was a custom of constitutional violations.
However, expert testimony must be based on sufficient
facts to support the conclusion. Since Turner and Tell
lack personal knowledge of the Homicide Unit’s policies,

266a
Anders’ speculation cannot create a genuine issue of material fact.
Third, even if Plaintiffs could show a widespread custom of violations, they presented no evidence that Defendant had notice of this custom. Plaintiffs point to no
evidence that the Mayor or the Chief of Police were ever
informed of any failures of officers to disclose exculpatory evidence to prosecutors. Defendant had no notice or
reason to be on notice that homicide detectives failed to
disclose exculpatory evidence to prosecutors.
Because Plaintiffs cannot establish the existence of a
widespread custom of constitutional violations in the
Homicide Unit and that Defendant had notice of such a
custom, Plaintiffs cannot meet their burden to prove
Monell liability for a custom of constitutional violations.
CONCLUSION
Because Plaintiffs have not shown that Defendant had
an unconstitutional policy and was deliberately indifferent to the need for better policies or inadequately trained
its police officers, Defendant’s Motion for Summary
Judgment is GRANTED.
IT IS SO ORDERED.
s/ Christopher A. Boyko
CHRISTOPHER A. BOYKO
United States District Judge
Dated: August 4, 2017

267a
APPENDIX Q
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
————
NOS. 17-3840/3843
————
RICKY JACKSON (17-3840); KWAME AJAMU, FKA
RONNIE BRIDGEMAN, AND WILEY EDWARD
BRIDGEMAN (17-3843),
Plaintiffs-Appellants,
v.
CITY OF CLEVELAND, ET AL.,
Defendants-Appellees.
————
Appeal from the United States District Court for the
Northern District of Ohio at Cleveland,
No. 1:15-cv-00989
Christopher A. Boyko, District Judge.
————
ORDER
————
June 27, 2019
————
Before: ROGERS and BUSH, Circuit Judges.*
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
*

The third member of this panel, Judge Keith, died on April 28,
2019. This order is entered by the quorum of the panel. 28 U.S.C.
§ 46(d).

268a
were fully considered upon the original submission and
decision of the cases. The petition then was circulated to
the full court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

269a
APPENDIX R
RELEVANT STATUTORY PROVISIONS
Title 42 U.S.C. §§ 1983 and 1988 provide in relevant
part as follows:
§ 1983. Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or Territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively to
the District of Columbia shall be considered to be a statute of the District of Columbia.
§ 1988. Proceedings in vindication of civil rights
(a) Applicability of statutory and common law
The jurisdiction in civil and criminal matters conferred
on the district courts by the provisions of titles 13, 24,
and 70 of the Revised Statutes for the protection of all
persons in the United States in their civil rights, and for
their vindication, shall be exercised and enforced in conformity with the laws of the United States, so far as such
laws are suitable to carry the same into effect; but in all
cases where they are not adapted to the object, or are deficient in the provisions necessary to furnish suitable

270a
remedies and punish offenses against law, the common
law, as modified and changed by the constitution and
statutes of the State wherein the court having jurisdiction of such civil or criminal cause is held, so far as the
same is not inconsistent with the Constitution and laws of
the United States, shall be extended to and govern the
said courts in the trial and disposition of the cause, and, if
it is of a criminal nature, in the infliction of punishment
on the party found guilty.
*

*

*

271a
APPENDIX S
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
————
CASE NO. 1:15-CV-989
————
RICKY JACKSON
Plaintiff,
v.
CITY OF CLEVELAND, ET AL.,
Defendants.
————
General Police Order 19-73
(ECF #101-7)
————
January 27, 2017
————
19-73
No.________

July 18,
73
HEADQUARTERS_____________
19___

PRETRIAL DISCOVERY RIGHTS OF DEFENSE
ATTORNEYS AND COURTS IN CRIMINAL CASES

SUBJECT:

TO THE MEMBERS OF THE DEPARTMENT
In a letter to this Department, County Prosecutor
John T. Corrigan has defined the legal rights of defense
attorneys and courts to statements, reports and other
items in criminal cases. His letter, as a part of this order,
shall be considered an integral part of criminal case

272a
preparation procedures and all members shall comply
with its provisions.
Copies shall be forwarded to all Divisions, Districts,
and Units.
The Ohio Supreme Court has recently promulgated
Criminal Rules of Procedure, which have become effective July 1, 1973. Particularly, Rule 16 is going to be the
concern of police departments and prosecutors.
At the outset I wish to advise that these are rules of
criminal procedure that will be employed through the
courts and through the prosecuting attorney.
NO POLICE DEPARTMENT IS REQUIRED OR
SHALL GIVE TO DEFENSE COUSEL AND/OR ANY
COURT ANY RECORD, PAPER, STATEMENT, REPORT OR TANGIBLE OBJECT OF A CRIMINAL
CASE.
Under proper circumstances under this rule, by application to the Prosecuting Attorney and/or the court, the
defense counsel may be entitled to the following:
1. Statement of defendant or co-defendant, written,
recorded, or a summary of an oral statement.
2. Defendant’s prior felony record.
3. Inspection of photos, books, papers, documents,
tangible objects, material to the preparation of the
defense or intended for use by the Prosecuting Attorney as evidence.
4. Reports of results of physical or mental examinations, scientific tests or experiments.
5. Names and addresses of witnesses.
6. Evidence favorable to the defendant.

273a
EXCEPTION TO THE FOREGOING:
The foregoing does not authorize the discovery or the
inspection of reports, memoranda, or other internal documents made by the Prosecuting Attorney or his agents
(police departments are his agents) in connection with
the investigation or prosecution of the case, or of statements made by witnesses or prospective witnesses to
state agents.
NOTE: Wherein the Prosecuting Attorney certifies to
the Court that the disclosure of the names and addresses
of the witnesses may subject the witness to physical or
substantial economic harm or coercion, such names and
addresses of witnesses shall not be the subject of disclosure.
Discovery and Inspection (RULE 16)
1) One of the dramatic provisions of new rule placing
criminal litigation on similar philosophical footing
with civil trials. Surprise and gamesmanship reduced consistent with constitutional guarantees.
2) Information subject to disclosure on application of
defendant.
a) Statements of defendants or co-defendants including
1) written or recorded statements.
2) written summaries.
3) Recorded testimony of defendant or codefendant before grand jury.
b) defendant’s prior record.
c) documents and tangible objects including papers, photographs, building or parts, or places.
d) reports of examination and tests.

274a
e) witnesses names and address.
f) disclosure of evidence favorable to defendant.
g) in camera (in chambers) inspection of witnesses prior statements.
3) Information not subject to disclosure.
a) prosecuting attorney’s work product.
b) grant jury’s transcripts.
4) Information subject to disclosure by defendant
a) Documents and tangible objects if defendant
has sought disclosure from prosecutor.
b) Same with regard to examination and tests.
c) and witness tests.
d) and in camera inspection of witness statements.
5) Information not subject to disclosure includes attorney’s work product.
6) Continuing duty to disclose as to materials arising
subject to original order.
7) Court has broad power to regulate and prescribe
limitation of discovery and enforcement thereof.
8) Discovery may be made within 21 days after arraignment or seven days before trial whichever is
earlier.
Respectfully Submitted
/s/ John T. Corrigan
Prosecuting Attorney

